<html>
<title> - WHERE'S MY STUFF? EXAMINING THE ECONOMIC, ENVIRONMENTAL, AND SOCIETAL IMPACTS OF FREIGHT TRANSPORTATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 WHERE'S MY STUFF? EXAMINING THE ECONOMIC, ENVIRONMENTAL, AND SOCIETAL 
                   IMPACTS OF FREIGHT TRANSPORTATION

=======================================================================

                                (116-45)

                             JOINT HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                                AND THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                           ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 43-121 PDF             WASHINGTON : 2020 
                              
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania

                  Subcommittee on Highways and Transit

ELEANOR HOLMES NORTON, District of 
          Columbia, Chair
RODNEY DAVIS, Illinois               EDDIE BERNICE JOHNSON, Texas
DON YOUNG, Alaska                    STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
BOB GIBBS, Ohio                      HENRY C. ``HANK'' JOHNSON, Jr., 
DANIEL WEBSTER, Florida              Georgia
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
ROB WOODALL, Georgia                 FREDERICA S. WILSON, Florida
JOHN KATKO, New York                 ALAN S. LOWENTHAL, California
BRIAN BABIN, Texas                   MARK DeSAULNIER, California
DAVID ROUZER, North Carolina         SALUD O. CARBAJAL, California
MIKE BOST, Illinois                  ANTHONY G. BROWN, Maryland
DOUG LaMALFA, California             ADRIANO ESPAILLAT, New York
BRUCE WESTERMAN, Arkansas            TOM MALINOWSKI, New Jersey
LLOYD SMUCKER, Pennsylvania          GREG STANTON, Arizona
PAUL MITCHELL, Michigan              COLIN Z. ALLRED, Texas
MIKE GALLAGHER, Wisconsin            SHARICE DAVIDS, Kansas
GARY J. PALMER, Alabama              ABBY FINKENAUER, Iowa, Vice Chair
BRIAN K. FITZPATRICK, Pennsylvania   JESUS G. ``CHUY'' GARCIA, Illinois
TROY BALDERSON, Ohio                 ANTONIO DELGADO, New York
ROSS SPANO, Florida                  CHRIS PAPPAS, New Hampshire
PETE STAUBER, Minnesota              ANGIE CRAIG, Minnesota
CAROL D. MILLER, West Virginia       HARLEY ROUDA, California
GREG PENCE, Indiana                  GRACE F. NAPOLITANO, California
SAM GRAVES, Missouri (Ex Officio)    ALBIO SIRES, New Jersey
                                     SEAN PATRICK MALONEY, New York
                                     DONALD M. PAYNE, Jr., New Jersey
                                     DANIEL LIPINSKI, Illinois
                                     DINA TITUS, Nevada
                                     STACEY E. PLASKETT, Virgin Islands
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)
                                ------                                7

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

 DANIEL LIPINSKI, Illinois, Chair
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               LIZZIE FLETCHER, Texas
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           MARK DeSAULNIER, California
DOUG LaMALFA, California             STEPHEN F. LYNCH, Massachusetts
LLOYD SMUCKER, Pennsylvania          TOM MALINOWSKI, New Jersey
PAUL MITCHELL, Michigan              GRACE F. NAPOLITANO, California
BRIAN K. FITZPATRICK, Pennsylvania   STEVE COHEN, Tennessee
TROY BALDERSON, Ohio                 JESUS G. ``CHUY'' GARCIA, Illinois
ROSS SPANO, Florida                  ELEANOR HOLMES NORTON,
PETE STAUBER, Minnesota                District of Columbia
GREG PENCE, Indiana                  EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    ALAN S. LOWENTHAL, California
                                     COLIN Z. ALLRED, Texas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     CONOR LAMB, Pennsylvania
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chairwoman, Subcommittee on Highways 
  and Transit:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chairman, Subcommittee on Railroads, 
  Pipelines, and Hazardous Materials:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:

    Opening statement............................................     6
    Prepared statement...........................................     7
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     7
    Prepared statement...........................................     8
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    93
Hon. Steve Cohen, a Representative in Congress from the State of 
  Tennessee, prepared statement..................................    94

                               WITNESSES

Erin Aleman, Executive Director, Chicago Metropolitan Agency for 
  Planning, and Board Member, Coalition for America's Gateways 
  and Trade Corridors:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Chuck Baker, President, American Short Line and Regional Railroad 
  Association:

    Oral statement...............................................    16
    Prepared statement...........................................    18
Anne Goodchild, Ph.D., Founding Director, Supply Chain 
  Transportation and Logistics Center, University of Washington:

    Oral statement...............................................    24
    Prepared statement...........................................    26
Ian J. Jefferies, President and Chief Executive Officer, 
  Association of American Railroads:

    Oral statement...............................................    31
    Prepared statement...........................................    32
Jason Mathers, Director, Vehicle and Freight Strategy, 
  Environmental Defense Fund:

    Oral statement...............................................    39
    Prepared statement...........................................    41
Jim Tymon, Executive Director, American Association of State 
  Highway and Transportation Officials:

    Oral statement...............................................    48
    Prepared statement...........................................    50

                       SUBMISSIONS FOR THE RECORD

Post-hearing Correction of Remarks Submitted for the Record by 
  Erin Aleman, Executive Director, Chicago Metropolitan Agency 
  for Planning, and Board Member, Coalition for America's 
  Gateways and Trade Corridors...................................    83
Statement of Erin Aleman, Executive Director, Chicago 
  Metropolitan Agency for Planning, and Board Member, Coalition 
  for America's Gateways and Trade Corridors, Submitted for the 
  Record by Hon. Peter A. DeFazio................................    94
Submissions for the Record by Hon. Eleanor Holmes Norton:

    Letter of December 4, 2019, from Catherine Chase, President, 
      Advocates for Highway and Auto Safety et al................    95
    Statement of Chris Spear, President and Chief Executive 
      Officer, American Trucking Associations....................    98
    Statement of the Association of Equipment Manufacturers......   103
    Letter of December 3, 2019, from Allen R. Schaeffer, 
      Executive Director, Diesel Technology Forum................   104
    Letter of December 16, 2019, from David French, Senior Vice 
      President, Government Relations, National Retail Federation   108
    Article entitled ``The Significance of Li-ion Batteries in 
      Electric Vehicle Life-cycle Energy and Emissions and 
      Recycling's Role in its Reduction''........................   111
Statement of Stephen Gardner, Senior Executive Vice President, 
  Chief Operating and Commercial Officer, National Railroad 
  Passenger Corporation (Amtrak), Submitted for the Record by 
  Hon. Daniel Lipinski...........................................   111

                                APPENDIX

Question from Hon. Daniel Lipinski to Erin Aleman, Executive 
  Director, Chicago Metropolitan Agency for Planning, and Board 
  Member, Coalition for America's Gateways and Trade Corridors...   115
Questions from Hon. Eddie Bernice Johnson to Chuck Baker, 
  President, American Short Line and Regional Railroad 
  Association....................................................   116
Questions to Anne Goodchild, Ph.D., Founding Director, Supply 
  Chain Transportation and Logistics Center, University of 
  Washington, from:

    Hon. Peter A. DeFazio........................................   116
    Hon. Steve Cohen.............................................   117
Questions to Ian J. Jefferies, President and Chief Executive 
  Officer, Association of American Railroads, from:

    Hon. Peter A. DeFazio........................................   117
    Hon. Eddie Bernice Johnson...................................   120
Question from Hon. Peter A. DeFazio to Jason Mathers, Director, 
  Vehicle and Freight Strategy, Environmental Defense Fund.......   121

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            December 2, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Highways and Transit and 
Subcommittee on Railroads, Pipelines, and Hazardous Materials
    FROM:  LStaff, Subcommittee on Highways and Transit and 
Subcommittee on Railroads, Pipelines, and Hazardous Materials
    RE:      LJoint Subcommittee Hearing on ``Where's My 
Stuff?: Examining the Economic, Environmental, and Societal 
Impacts of Freight Transportation''
_______________________________________________________________________


                                PURPOSE

    On Thursday, December 5, 2019, at 10:00 a.m., in 2167 
Rayburn House Office Building, the Subcommittee on Highways and 
Transit and the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials will jointly hold a hearing on ``Where's My 
Stuff?: Examining the Economic, Environmental, and Societal 
Impacts of Freight Transportation.'' The purpose of the hearing 
is for Members of the Subcommittees to explore the importance 
of freight transportation, investment needed to support freight 
transportation, and the ways in which demand for goods movement 
is growing and changing. The Subcommittees will hear from 
representatives of the Coalition for America's Gateways and 
Trade Corridors (CAGTC), the American Short Line and Regional 
Railroad Association (ASLRRA), the University of Washington 
Supply Chain Transportation and Logistics Center, the 
Association of American Railroads (AAR), the Environmental 
Defense Fund (EDF), and the American Association of State 
Highway and Transportation Officials (AASHTO).

                               BACKGROUND

    Freight transportation and related industries significantly 
contribute to the U.S. economy. The nation's freight system 
transports, on average, 51 million tons of freight, valued at 
approximately $55 billion, on a daily basis, which amounts to 
approximately 17.7 billion tons of freight, valued at 
approximately $16.8 trillion, annually.\1\ In 2016, the demand 
for transportation accounted for 8.9 percent of U.S. Gross 
Domestic Product.\2\ Demand for freight transportation is 
rising at a disproportionate rate to freight system 
capacity.\3\ The U.S. Department of Transportation (U.S. DOT) 
estimates that freight movements are expected to grow across 
all modes, and by 2040, will increase by 42 percent.\4\
---------------------------------------------------------------------------
    \1\ TRIP, ``America's Rolling Warehouses: Opportunities and 
Challenges with the Nation's Freight Delivery System'', October 2019.
    \2\ Bureau of Transportation Statistics, Transportation Economic 
Trends 2018 (https://www.bts.gov/transportation-economic-trends/tet-
2018-chapter-2-contribution-economy).
    \3\ FHWA, Urban Goods Movement, https://ops.fhwa.dot.gov/freight/
technology/urban_goods/index.htm.
    \4\ U.S. DOT, National Freight Strategic Plan, Draft for Public 
Comment, p. 15.
---------------------------------------------------------------------------

FREIGHT RAILROADS

    The U.S. freight railroad industry operates a 140,000-mile 
network across the country, delivering on average five million 
tons of goods every day. This industry is composed of varying 
sized railroads measured by their annual operating revenues 
into three different classes. The largest railroads include the 
seven Class Is, which are the biggest railroads that 
collectively provide long-haul operations in 44 states and 
D.C.\5\ The Class Is account for nearly 69 percent of the 
industry's mileage.\6\
---------------------------------------------------------------------------
    \5\ The seven Class railroads include Burlington Northern Santa Fe 
Railway (BNSF); Union Pacific Railroad (UP); Norfolk Southern Railway 
(NS); CSX Transportation; Canadian National Railway (CN); Canadian 
Pacific Railway (CP); and Kansas City Southern (KCS).
    \6\ Association of American Railroads https://www.aar.org/railroad-
101/.
---------------------------------------------------------------------------
    The 603 short line and regional railroads operate nearly 
40% of the nation's rail network by mileage.\7\ Short lines are 
often the only way rural America can connect to the rest of the 
national freight rail network--playing an important role in 
providing first-mile and last-mile service that extends the 
reach of the rail network to rural communities, manufacturers, 
farmers, and others.\8\ These smaller railroads range in size 
from small operators handling just a few carloads a month, to 
others that cross state lines and approach the size of the 
large Class I railroads. These railroads operate 100 percent of 
the rail network in five states; and 50 percent of the rail 
network in another 15 states.\9\
---------------------------------------------------------------------------
    \7\ American Short Line and Regional Railroad Association https://
www.aslrra.org/web/About/About/web/About/About.aspx?hkey=ffdbe611-bc49-
4db1-902b-1ac672226682.
    \8\ American Short Line and Regional Railroad Association https://
www.aslrra.org/web/About/Industry_Facts/web/About/
Industry_Facts.aspx?hkey=bd7c0cd1-4a93-4230-a0c2-c03fab0135e2.
    \9\ American Short Line and Regional Railroad Association https://
www.aslrra.org/web/About/About/web/About/About.aspx?hkey=ffdbe611-bc49-
4db1-902b-1ac672226682.
---------------------------------------------------------------------------

VOLUME OF FREIGHT MOVED BY RAIL

    In 2018, the freight railroads operating in the U.S. 
transported 17,910,549 carloads, including 17,708,351 moved by 
the Class Is and 202,198 moved by the short lines. Transported 
inside those carloads were a range of commodities such as: 
agricultural and food products; chemicals and petroleum; coal; 
forest products; metallic ores and metals; motor vehicles and 
parts; nonmetallic minerals and products; waste, scraps, and 
other products. Additionally, the freight railroads transported 
18,066,668 intermodal units, which are shipping containers and 
truck trailers that are transferred to the railroads and moved 
on rail cars.

ENVIRONMENTAL IMPACTS

    In 2018, the freight railroads, on average, moved one ton 
of freight 473 miles on one gallon of fuel. This efficiency is 
a 101 percent improvement compared to 1980 and a 19 percent 
improvement from 2000.\10\ As a result, the freight railroads 
reduced their consumption of fuel by nine billion gallons and 
emitted 100 million fewer tons of carbon dioxide.\11\ In total, 
the freight railroads comprised just 2 percent of all 
transportation-related greenhouse gas emissions in 2017 and 
just 0.6 percent of total U.S. greenhouse gas emissions in 
2017.\12\
---------------------------------------------------------------------------
    \10\ Association of American Railroads, Freight Railroads Help 
Reduce Greenhouse Gas Emissions, April 2019, Available at https://
www.aar.org/wp-content/uploads/2018/07/AAR-Railroads-Greenhouse-Gas-
Emissions.pdf.
    \11\ Id.
    \12\ U.S. Environmental Protection Agency (2019, April). Inventory 
of U.S. Greenhouse Gas Emissions and Sinks. Publication No. EPA 430-R-
19-001. Accessible at: https://www.epa.gov/sites/production/files/2019-
04/documents/us-ghg-inventory-2019-main-text.pdf, page 38.
---------------------------------------------------------------------------
    The freight railroads use various technology systems to 
help achieve such levels of sustainability and efficiency. For 
example, fuel management systems are integrated into 
locomotives and draw on data about topography, track curvature, 
etc., providing the engineers with real-time instructions on 
how to operate the train to gain maximum fuel efficiencies that 
can net up to a 14 percent increase in fuel efficiency. The 
most advanced locomotives, Tier 4s, include hundreds of sensors 
that generate thousands of data points about the performance of 
the locomotives. That data is monitored from operations centers 
that alert the railroad of performance issues when necessary. 
These technologies reduce diesel locomotives' particulate and 
nitrogen oxide emissions by as much as 90 percent and 80 
percent, respectively.\13\
---------------------------------------------------------------------------
    \13\ Association of American Railroads, Putting Technology to Work, 
How Freight Rail Delivers the 21st Century, Available at https://
www.aar.org/wp-content/uploads/2018/05/RailxTech-AAR-White-Paper-Final-
Web.pdf Page 6.
---------------------------------------------------------------------------
    The industry is also pursuing initiatives to reduce 
emissions in freight rail yards. This includes technologies 
that turn off locomotives that have idled for too long or 
automatically restart it if temperatures are low. Small diesel 
engines also may be used to keep the main locomotive engine 
warm when it is powered down to prevent freezing. These 
technologies reduce fuel that is wasted while locomotives 
idle.\14\
---------------------------------------------------------------------------
    \14\ Id at 7.
---------------------------------------------------------------------------

FEDERAL FUNDING OPPORTUNITIES

    The short line and regional railroads, and any rail carrier 
(including Class Is) in partnership with at least one state 
entity, public agency, and/or local government, are eligible 
for grants under the FRA's Consolidated Rail Infrastructure and 
Safety Improvements (CRISI) grant program.\15\ These 
discretionary grants fund projects that improve the safety, 
efficiency, or reliability of freight (and passenger) rail 
transportation systems. Activities eligible for CRISI funds 
include capital projects that improve short line and regional 
railroad infrastructure; highway-rail grade crossing 
improvements projects; and rail line relocation and improvement 
projects, among others. The maximum Federal share of total 
project costs under the program is 80 percent. The Fixing 
America's Surface Transportation Act (FAST Act) (P.L. 114-94) 
authorized CRISI at $255 million in Fiscal Year 2019 and $330 
million in Fiscal Year 2020. In addition, the Short Line Tax 
credit, known as 45G, allows a credit of 50 cents for each 
dollar short line railroads invest in track and bridge 
improvements, up to $3,500 per mile. The credit, first enacted 
in 2005, expired in December 2017.
---------------------------------------------------------------------------
    \15\ 49 USC Section 24407. In addition to short line and regional 
railroads, states, Amtrak and other intercity rail passenger 
transportation provider, the Transportation Research Board, and others 
are eligible for CRISI.
---------------------------------------------------------------------------
    The Railroad Rehabilitation and Improvement Financing 
(RRIF) program offers long-term, low-interest loans for 
improving rail infrastructure. Eligible recipients include 
railroads, state and local governments, government-sponsored 
corporations, and joint ventures that include at least one 
railroad. RRIF-eligible projects include the following: 
acquiring, improving, and rehabilitating track, bridges, rail 
yards, buildings, and shops; preconstruction activities; 
positive train control (PTC); transit-oriented development 
projects; and new rail or intermodal activities. Under this 
program, the U.S. DOT is authorized to provide direct loans and 
loan guarantees up to $35 billion to finance development of 
railroad infrastructure. To date the RRIF program has provided 
$6.286 billion in financing since 2002. There is currently 
about $30.2 billion available in loan authority under the RRIF 
program.\16\
---------------------------------------------------------------------------
    \16\ RRIF was originally established by Congress in Title V of the 
Railroad Revitalization and Regulatory Reform Act of 1976 and later 
amended in the Transportation Equity Act for the 21st Century.
---------------------------------------------------------------------------

TRUCKING

    Freight moves by truck on more than four million miles of 
public roads (including 223,000 miles on the National Highway 
System) and 616,000 bridges. The trucking industry is made up 
by over 700,000 trucking companies and more than 3.5 million 
commercial drivers.\17\
---------------------------------------------------------------------------
    \17\ https://www.census.gov/library/stories/2019/06/america-keeps-
on-trucking.html.
---------------------------------------------------------------------------

VOLUME OF FREIGHT MOVED BY TRUCK

    Trucks carried 11 billion tons of freight in 2017 \18\, and 
trucking accounts for approximately 72 percent of all freight 
tonnage by value and 66 percent by weight.\19\ According to the 
Bureau of Transportation Statistics, long-haul freight truck 
traffic is projected to increase ``dramatically'' on the 
National Highway System over the next three decades, from 311 
million miles per day in 2015 to 488 million miles per day by 
2045.\20\
---------------------------------------------------------------------------
    \18\ BTS, Freight Facts and Figures, (https://
data.transportation.gov/stories/s/Moving-Goods-in-the-United-States/
bcyt-rqmu).
    \19\ TRIP, p.17.
    \20\ Bureau of Transportation Statistics, ``Freight Transportation 
System Extent and Use'' (https://data.transportation.gov/stories/s/
Freight-Transportation-System-Extent-Use/r3vy-npqd).
---------------------------------------------------------------------------
    In recent years, online retail has fundamentally changed 
how products are purchased and distributed. According to the 
U.S. Census Bureau, e-commerce sales have grown from just over 
4 percent of total retail sales in the first quarter of 2010 to 
over 11 percent of total retail sales in the third quarter of 
2019.\21\ From 2014 to 2018, e-commerce increased by 69 percent 
to $505 billion, and is expected to increase another 39 percent 
by 2022, to $706 billion.\22\ As a result of this trend, the 
demand for freight movements by truck, and the requirement for 
more timely and efficient deliveries, have grown significantly. 
This has also prompted changes to supply chains and increased 
the focus on last-mile delivery of freight, particularly in 
congested urban centers.
---------------------------------------------------------------------------
    \21\ U.S. Census Bureau, Quarterly Retail E-Commerce Sales, 3rd 
Quarter 2019 (https://www.census.gov/retail/mrts/www/data/pdf/
ec_current.pdf).
    \22\ TRIP, ``America's Rolling Warehouses: Opportunities and 
Challenges with the Nation's Freight Delivery System'', October 2019, p 
4.
---------------------------------------------------------------------------

ENVIRONMENTAL IMPACTS

    Medium and heavy-duty trucks contributed 23 percent of all 
transportation-related greenhouse gas emissions in 2017, and 
6.7 percent of total U.S. greenhouse gas emissions in 2017.\23\ 
Greater congestion on roadways can exacerbate idling, 
emissions, and increase fuel use. More than two out of every 
five miles of America's urban interstates are congested.\24\ 
Congestion cost the trucking industry $74.5 billion in 2017, 
$66.1 billion of which occurred in dense urban areas.\25\ The 
cost of congestion for truck drivers grew by 40 percent between 
2012 and 2017, compared to a 14 percent increase in congestion 
costs for non-commercial drivers.\26\
---------------------------------------------------------------------------
    \23\ U.S. Environmental Protection Agency (2019, April). Inventory 
of U.S. Greenhouse Gas Emissions and Sinks. (https://www.epa.gov/sites/
production/files/2019-04/documents/us-ghg-inventory-2019-main-
text.pdf).
    \24\ ASCE Report Card, 2017.
    \25\ ``Cost of Congestion to the Trucking Industry.'' American 
Transportation Research Institute, Oct. 2018. https://atri-online.org/
wp-content/uploads/2018/10/ATRI-Cost-of-Congestion-to-the-Trucking-
Industry-2018-Update-10-2018.pdf.
    \26\ Texas A&M Transportation Institute, Urban Mobility Report 
2019, https://mobility.tamu.edu/umr/.
---------------------------------------------------------------------------

FEDERAL FUNDING & FAST ACT FREIGHT PROVISIONS

    Federal investments in roads and bridges are funded through 
Federal excise taxes levied on motor fuels (gas and diesel) and 
on related products such as tires, which are deposited into the 
Highway Trust Fund (HTF). Congress has not adjusted these taxes 
on gas and diesel since 1993, and the purchasing power of these 
taxes have fallen over 40 percent in the last 25 years. 
Improved vehicle fuel efficiency, due to higher Corporate 
Average Fuel Economy standards required by law, has further 
eroded Federal revenues. As a result, revenues coming into the 
HTF have not kept pace with expenditures from authorized 
programs. Congress has had to transfer $144 billion from the 
General Fund and other funds to keep the HTF solvent since 
2008. The Congressional Budget Office (CBO) estimates that over 
the next 10 years, the HTF will fall $171 billion short based 
on continuing currently-authorized highway, transit, and safety 
program levels. An additional $5 billion is necessary to ensure 
that there is a prudent balance in the HTF, which brings the 
shortfall to $176 billion. This does not include any higher 
investment levels to meet growing surface transportation needs.
    According to U.S. DOT's Conditions & Performance Report, 
there is a $836 billion backlog of unmet capital investment 
needs for highways and bridges \27\. One in three interstate 
U.S. bridges have repair needs, and over 47,000 of the nation's 
bridges are structurally deficient.\28\ Nearly one out of every 
five miles of highway pavement is in poor condition 
nationwide.\29\
---------------------------------------------------------------------------
    \27\ U.S. DOT, 2015 Status of the Nation's Highways, Bridges, and 
Transit: Conditions and Performance.
    \28\ ARTBA Bridge Report, 2019 (https://artbabridgereport.org/).
    \29\ U.S. DOT, 2015 Status of the Nation's Highways, Bridges, and 
Transit: Conditions and Performance.
---------------------------------------------------------------------------
    The FAST Act, the last major surface reauthorization bill 
enacted by Congress in 2015, included several provisions to 
support and invest in the movement of freight.
    The FAST Act established a new formula program to fund 
surface transportation freight improvements and provided $6.3 
billion over the five-year bill. States may use the funds for a 
variety of projects related to freight movement for road and 
bridge segments in States that are designated on the National 
Highway Freight Network. Up to 10 percent of the funds each 
year may be used for freight intermodal or freight rail 
projects, including projects within the boundaries of public 
and private freight rail and port facilities and projects that 
facilitate intermodal operations.
    The FAST Act also created a new competitive grant program, 
providing $4.5 billion over the life of the bill, to assist 
states in funding nationally-significant highway, bridge, and 
freight projects. The Nationally Significant Freight and 
Highway Projects program (referred to as INFRA by this 
Administration and FASTLANE by the previous Administration) is 
generally aimed at large-scale and multi-jurisdictional 
projects that cannot be funded with highway funding apportioned 
to the states. At least 25 percent of the funding is reserved 
for projects in rural areas, and 10 percent of the funding are 
reserved for smaller projects (project costs of less than $100 
million). Up to $500 million over the life of the FAST Act may 
be used to fund freight rail or intermodal projects if the 
projects will significantly improve freight movements on the 
National Highway Freight Network.
    The FAST Act modified the National Highway Freight Network 
established by the Moving Ahead for Progress in the 21st 
Century Act (MAP-21) (P.L. 112-141) to specify that the core 
portion of the network will be comprised of a 41,518-mile 
highway network previously identified by the U.S. Department of 
Transportation. The FAST Act allowed States and metropolitan 
planning organizations to add to the network by designating 
urban and rural freight corridors. The FAST Act also encouraged 
each State to establish a freight advisory committee and 
required each State to develop a comprehensive freight plan, 
which can be done separately or incorporated into the State's 
transportation improvement plan (STIP).
    In addition, the FAST Act established goals for a national 
multimodal freight policy and directed the Secretary to develop 
a National Multimodal Freight Network. U.S. DOT issued an 
Interim Network, published in the Federal Register, on June 6, 
2016, and re-opened the comment period through February 22, 
2018, in a notice published on October 25, 2017, but has not 
finalized the Network.
    U.S. DOT was also required to develop a national freight 
strategic plan to identify bottlenecks on the multimodal 
freight network, including the cost to address each bottleneck 
and strategies to improve intermodal connectivity. U.S. DOT 
issued a draft plan for comment in December 2015.\30\ The 
Strategic Plan has not yet been finalized. The draft plan 
identified several key trends and challenges facing the U.S. 
freight transportation system, including:
---------------------------------------------------------------------------
    \30\ https://www.transportation.gov/sites/dot.gov/files/docs/
DRAFT_NFSP_for_Public_
Comment_508_10%2015%2015%20v1.pdf

    <bullet> LHigh expected growth in freight traffic over the 
next three decades
    <bullet> LUnderinvestment in the freight transportation 
system
    <bullet> LDifficulty of planning and implementing freight 
projects under current Federal programs
    <bullet> LSafety and security concerns with freight 
movement and facilities
    <bullet> LImpacts on our system of increasing international 
trade
    <bullet> LNew technologies are revolutionizing freight 
movements

                              WITNESS LIST

    <bullet> LMs. Erin Aleman, Executive Director, Chicago 
Metropolitan Agency for Planning, on behalf of the Coalition 
for America's Gateways and Trade Corridors
    <bullet> LMr. Chuck Baker, President, American Short Line 
and Regional Railroad Association
    <bullet> LMs. Anne Goodchild, Ph.D., Founding Director, 
Supply Chain Transportation and Logistics Center, University of 
Washington
    <bullet> LMr. Ian Jefferies, President & CEO, Association 
of American Railroads
    <bullet> LMr. Jason Mathers, Director, Vehicles & Freight 
Strategy, Environmental Defense Fund
    <bullet> LMr. Jim Tymon, Executive Director, American 
Association of State Highway and Transportation Officials


 WHERE'S MY STUFF? EXAMINING THE ECONOMIC, ENVIRONMENTAL, AND SOCIETAL 
                   IMPACTS OF FREIGHT TRANSPORTATION

                              ----------                              


                       THURSDAY, DECEMBER 5, 2019

                  House of Representatives,
  Subcommittee on Highways and Transit, joint with 
      theSubcommittee on Railroads, Pipelines, and 
                               Hazardous Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:02 a.m. in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton (Chairwoman of the Subcommittee on Highways and Transit) 
presiding.
    Ms. Norton. This is an unusual hearing because we are 
combining two subcommittees, and I think that says a great deal 
about the importance of this hearing today. So I want to 
welcome all of our guests, and all of you to a topic that has 
an effect on the daily lives of all Americans. Yet, as it turns 
out, few think about this subject: freight transportation. 
Goods appear magically. Nobody wants to think about how they 
got there and what it takes.
    I want to thank Chairman Lipinski, my counterpart on the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
for joining with me to hold this joint hearing.
    Facilitating commerce and goods movement is a fundamental 
role the Federal Government is supposed to do, and it is one of 
the essential responsibilities of this committee.
    Remember, we are preparing for a surface transportation 
reauthorization in 2020. This hearing will help the committee 
understand the improvements that Congress can help make to 
facilitate and ensure our infrastructure is able to handle 
freight transportation needs.
    And those needs are growing very rapidly. They are not only 
growing, they are changing. The well-established supply chains 
are now being challenged and reimagined as the rise of e-
commerce--we didn't even talk about e-commerce 4 years ago, 
when the last transportation bill was passed.
    Since then we have had the rise of e-commerce, and that has 
forced a fundamental shift. Consumers now expect that anything 
can be delivered to their doorstep in a few days, sometimes a 
few hours. This amazing leap, in only the 4 years since we had 
our last reauthorization, comes at a cost. Without appropriate 
planning for last-mile infrastructure, we run the risk of not 
only congestion, which is clearly a major problem that we have 
discussed in this committee, but total gridlock in urban areas, 
where 80 percent of the American people now live.
    We will also hear testimony that freight is a significant 
and growing source of greenhouse gas emissions. The freight 
sector will emit 535 million metric tons of carbon dioxide 
emissions in just 1 year, 2020, a figure that is expected to 
grow annually unless we take some very serious steps to reverse 
that trend.
    I am committed to looking at a range of solutions under the 
purview of this committee to move trucking towards zero 
emissions. It is already too late. That is not a goal that is 
too steep to make.
    We will also hear on a topic that I have long championed: 
strong support for intermodal and multimodal investments.
    We understand, while Federal programs are currently and 
have been stovepiped since the beginning of this committee--and 
that is because of the unique funding streams for different 
modes. But we certainly can do more to provide flexible ways 
for our State and local partners to invest in their most 
pressing freight supply chain needs, regardless of mode, and to 
support seamless transitions between modes--nothing could be 
more important than not losing time going from one mode of 
transportation to another.
    In the last surface transportation bill, Congress laid the 
foundation for policies and resources to address the needs of 
our freight network. Today, as needs are rapidly evolving, we 
must not be constrained by the transportation network we have. 
This is the transportation network we have had since the very 
beginning. But rather, we have to explore and evaluate policies 
that will develop the network we need for the future. This 
hearing is the first step to support the committee in doing 
that work.
    [Ms. Norton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
Congress from the District of Columbia, and Chairwoman, Subcommittee on 
                          Highways and Transit
    Welcome to this hearing on a topic that impacts the daily lives of 
all Americans, yet that few think about--freight transportation. Thank 
you to Chairman Lipinski, my counterpart on the Railroads Subcommittee, 
for holding this joint hearing.
    Facilitating commerce and goods movements is a fundamental role of 
the Federal Government, and one of the essential responsibilities of 
this Committee. As we prepare our surface transportation 
reauthorization bill, this hearing will help the Committee understand 
the necessary improvements that Congress can help facilitate to ensure 
our infrastructure is able to handle freight transportation needs.
    Those needs are growing and changing. As we will hear from Dr. 
Goodchild's testimony, well established supply chains are now being 
challenged and reimagined as the rise in e-commerce has forced a 
fundamental shift. Consumers now expect that anything can be delivered 
to their doorstep in days, or sometimes hours. This amazing leap in 
convenience, however, comes at a cost. Without appropriate planning for 
last mile infrastructure, we run the risk of not just congestion but 
total gridlock in urban areas, where 80 percent of Americans live.
    We will also hear from Mr. Mathers' testimony that freight is a 
significant and growing source of greenhouse gas emissions. In the 
U.S., the freight sector will emit 535 million metric tons of carbon 
dioxide emissions in 2020, a figure that is expected to grow annually 
unless we take some serious steps to reverse the trend. I am committed 
to looking at a range of solutions under the purview of this Committee 
to move trucking toward zero emissions.
    We will also hear from Ms. Aleman on a topic that I have long 
championed--strong support for intermodal and multimodal investments. 
While I understand why our Federal programs are currently stovepiped, 
because of unique funding streams for different modes, we certainly can 
do more to provide flexible ways for our State and local partners to 
invest in their most pressing freight supply chain needs, regardless of 
mode, and to support seamless transitions between modes.
    In the last surface transportation bill, Congress laid the 
foundation for policies and resources to address the needs of our 
freight network. Today, as needs are rapidly evolving, we should not be 
constrained by the transportation network we have, but rather we should 
explore and evaluate policies that will develop the network we need for 
the future.
    This hearing is the first step to support the Committee in doing 
that. I thank our witnesses for joining us and to educate us in this 
important charge.

    Ms. Norton. Again, I thank our witnesses, and I ask 
unanimous consent that the chair be authorized to declare 
recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection.
    I will proceed now to ask our ranking member, Mr. Davis, 
for his opening statement.
    Mr. Davis. I thank you, Madam Chair. And I would also like 
to thank Chairman DeFazio, Chairman Lipinski, and also our 
ranking member of the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials, Mr. Crawford, for having this joint 
hearing today. And it is a great opportunity to welcome all of 
our witnesses, too. I look forward to hearing your testimony.
    One of the key factors to America's economic 
competitiveness is the ability to effectively transport goods 
and products from where they are made, from where they are 
harvested, from where they are produced or processed, and 
eventually to where they are sold and consumed.
    The strength of our freight system in my home State of 
Illinois' position as the Nation's premier freight hub, relies 
upon a dependable system of highways, roads, bridges, rail 
tracks, and open skies. This is important because nearly every 
load of freight will be transported on a truck at some point in 
the journey, too.
    Over the next coming decades, demand for freight moved by 
truck is expected to increase significantly. Coupled with the 
dynamic nature of supply chains and changing consumer demands, 
we must focus on not only improving existing infrastructure, 
but also planning for a system that will take us into the 
future.
    I look forward to hearing from each of you about how 
Congress can improve freight programs and increase efficiency 
and productivity for our freight transportation system.
    [Mr. Davis' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    One of the key factors to America's economic competitiveness is the 
ability to efficiently transport goods and products from where they are 
made, harvested, or processed to where they are ultimately sold and 
consumed.
    The strength of our freight system, and Illinois' position as the 
Nation's premier freight hub, relies on a dependable system of 
highways, roads, and bridges. This is important because nearly every 
load of freight will be transported on a truck at some point in its 
journey.
    Over the coming decades, demand for freight moved by truck is 
expected to increase significantly.
    Coupled with the dynamic nature of supply chains and changing 
consumer demands, we must focus not only on improving existing 
infrastructure, but also planning for the system of the future.
    I look forward to hearing from our witnesses about how Congress can 
improve freight programs and increase the efficiency and productivity 
of our freight transportation system.

    Mr. Davis. And Madam Chair, I yield back the balance of my 
time.
    Ms. Norton. Thank you, Mr. Davis, for your opening 
statement.
    Remember, I said this was a joint hearing. It is a joint 
hearing with the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials. I now call on the chair of that 
subcommittee, Mr. Lipinski, for an opening statement.
    Mr. Lipinski. Thank you, Chairwoman Norton. As we work now 
on the surface transportation reauthorization bill, I always go 
back and think that--oftentimes people refer to this as the 
highway bill, sometimes the highway and transit bill. But it is 
important to recognize that, in the FAST Act, we clearly made 
it highway, transit, and rail.
    And so I think it is important and very fitting that the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials 
is included in this hearing. And I expect that this 
reauthorization that we are working on right now will not only 
include Amtrak reauthorization and other passenger rail 
provisions, but also a robust investment in freight rail 
infrastructure.
    I am a strong proponent of this investment, because it will 
make freight movement faster and more efficient. This 
investment would have far-reaching positive impacts by 
increasing jobs, many of them good-paying union jobs; making 
businesses more competitive; and decreasing greenhouse gas 
emissions.
    I represent part of Chicagoland, which is the freight rail 
hub of North America. Six Class I railroads intersect in the 
region. About 25 percent of all freight trains and 50 percent 
of intermodal trains in the Nation pass through. The congestion 
in this region and its impact on freight movement in our 
country is well known.
    In addition, Will County, just south of Chicago and 
partially included in my district, is the largest inland port 
in North America, with major intermodal facilities which cause 
significant congestion and safety issues on Interstate 80 and 
surrounding roads. This year, the State of Illinois committed 
to raising the revenue needed to invest in a nationally 
critical I-80 corridor.
    It is time for the Federal Government to step up on this 
project and others like it across the country, and this 
reauthorization is the time to do it. As Ms. Aleman mentions in 
her testimony, the CREATE rail modernization program in 
Chicagoland, which has been ongoing for about 15 years, is a 
unique $4.6 billion public-private partnership designed to 
address the freight and passenger rail congestion, and to ease 
congestion on roads crossing rail lines. Through the years 
CREATE has been funded through Federal, State, local, and 
private sources.
    I have long been a champion of this program. I am able to 
earmark money to it as one of the 25 projects of national and 
regional significance in SAFETEA-LU. This is how megaprojects 
were funded in SAFETEA-LU, and I have no problem talking about 
earmarks.
    The FAST Act fund for megaprojects comes through 
Infrastructure for Rebuilding America, or INFRA grants, which 
are specifically for freight movement projects. INFRA grants 
have a $500 million aggregate cap for port, rail, and 
intermodal projects. This was a hard-fought compromise. The 
original proposal would have excluded multimodal projects 
altogether. This would have been a major mistake, because these 
projects clearly are critical to improving the movement of 
freight in our country.
    In its upcoming reauthorization, the aggregate cap needs to 
be eliminated or greatly raised. We also need to talk about the 
structure of the program through which the money for 
megaprojects is going to be disbursed. I do not believe we 
should continue to hand over the money to do this to any 
Presidential administration, not just this one. I don't think 
we should be handing it over for these decisions to be made 
over there.
    One thing I hope we can all agree upon, though, is that we 
need a robust level of funding for megaprojects which are 
critical to freight movement in our country and other projects 
critical to transportation in the country that, really, cannot 
be addressed by the States alone.
    Climate change is one of the most pressing challenges 
facing us today, and there is an urgent need for bipartisan 
solutions. The U.S. Environmental Protection Agency reports 
that the transportation sector is the largest emitter, by 
sector, of greenhouse gases, with 29 percent of the United 
States greenhouse gases in 2017 emitted by the transportation 
sector. One topic that I would like to hear about from our 
witnesses today is how we can mitigate the impact of freight 
movement on climate change.
    Finally, we need to permanently authorize the 45G tax 
credit to give the short line rail industry the investment 
certainty they need. This tax credit has been expired since the 
end of 2017, and it is time we take care of this issue once and 
for all.
    I look forward to hearing from our witnesses today on how 
we can make the U.S. freight network more robust, multimodal, 
and climate friendly.
    [Mr. Lipinski's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
  Congress from the State of Illinois, and Chairman, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning. Today's joint hearing continues a series of hearings 
that the Rail Subcommittee has been conducting as we work on the 
surface transportation reauthorization. Our subcommittee is playing a 
significant role in the reauthorization because a rail title will once 
again be included in this bill as it was in the FAST Act. I expect this 
title to not only include Amtrak reauthorization and other passenger 
rail provisions, but also a robust investment in freight rail 
infrastructure. I am a strong proponent of this investment because it 
will make freight movement faster and more efficient. This investment 
would have far-reaching, positive impacts by increasing jobs--many of 
them good-paying union jobs, making our businesses more competitive, 
and decreasing greenhouse gas emissions.
    I represent part of Chicagoland which is the freight rail hub of 
North America. Six Class I railroads intersect in the region and about 
25 percent of all freight trains and 50 percent of all intermodal 
trains in the nation pass through. In addition, Will County, just south 
of Chicago and partially included in my district, is the largest inland 
port in North America with major intermodal facilities which cause 
significant congestion and safety issues on Interstate 80 and 
surrounding roads. This year the State of Illinois committed to raising 
the revenue needed to invest in the nationally-critical I-80 corridor; 
it's time for the federal government to step up on this project and 
others like it across the country and this reauthorization is the time 
to do it.
    As Ms. Aleman mentions in her testimony, the CREATE rail 
modernization program in Chicagoland, which has been ongoing for about 
15 years, is a unique $4.6 billion Public-Private Partnership (PPP) 
designed to reduce delays for freight and passenger trains and ease 
congestion on roads crossing rail lines. Through the years, CREATE has 
been funded through federal, state, local, and private sources. I have 
long been a champion of this program since I was able to earmark money 
to it as one of 25 Projects of National and Regional Significance 
Program. This was how megaprojects were funded in SAFETEA-LU.
    The FAST Act funds for megaprojects come through Infrastructure For 
Rebuilding America or INFRA, grants, which are specifically for freight 
movement projects.
    INFRA grants have a $500 million aggregate cap for port, rail, and 
intermodal projects. This was a hard fought compromise as the original 
proposal would have excluded multimodal projects altogether. That would 
have been a major mistake because these projects clearly are critical 
in improving the movement of freight. In this upcoming reauthorization, 
the aggregate cap needs to be eliminated or greatly raised. We also 
need to talk about the structure of the program through which the money 
for megaprojects is going to be disbursed. I don't believe we should 
continue to hand the money over to this or any presidential 
administration to make these decisions. But one thing I hope we all can 
agree upon is that we need a robust level of funding for megaprojects.
    Climate change is one of the most pressing challenges facing us 
today and there is an urgent need for bipartisan solutions. The U.S. 
Environmental Protection Agency reports that the transportation sector 
is the largest emitter by sector of greenhouse gasses with 29 percent 
of the United States greenhouse gasses in 2017 emitted by the 
transportation sector. One topic I would like to hear about from our 
witnesses today is how we can mitigate the impact of freight movement 
on climate change.
    Finally, we need to permanently authorize the 45G tax credit to 
give the short line rail industry the investment certainty they need. 
This tax credit has been expired since the end of 2017 and it is time 
we take care of this issue once and for all.
    I look forward to hearing from our witnesses today on how we can 
make the US's freight network more robust, multi-modal, and climate 
friendly. Thank you.

    Mr. Lipinski. Thank you, and I yield back.
    Ms. Norton. Thank you. Thank you, Mr. Lipinski.
    I want to ask the ranking member of the Subcommittee on 
Railroads, Pipelines, and Hazardous Materials, Mr. Crawford, 
for his opening statement.
    Mr. Crawford. Thank you. I thank the chair for recognizing 
me.
    Modern freight network means a strong, secure America. 
Farmers and businesses across my State--indeed, across the 
country--depend on our Nation's freight railroads to safely 
transport their goods throughout the country and the world.
    Important to Arkansas are short line railroads, who most 
often provide first- and last-mile service for farmers, 
manufacturers, and other industries. I am proud to support H.R. 
510, the BRACE Act, which would permanently extend the tax 
credit for short line railroad track maintenance, thereby 
increasing private investment in important rail transportation 
infrastructure.
    As total freight demand grows, the critical investments 
made by the railroads in both their people and in their 
infrastructure help ensure a safe and efficient transport 
system for our goods. This investment helps spur economic 
activity, drive innovation, and make operations safer and more 
efficient.
    In turn, the rail network can handle increased freight 
demand and help relieve congestion on our roads. I look forward 
to hearing about freight programs in the FAST Act and how 
Congress can improve the efficient flow of goods.
    [Mr. Crawford's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    A modern freight network means a strong, secure America.
    Farmers and businesses across my state depend on our Nation's 
freight railroads to safely transport their goods throughout the 
country and the world.
    Important to Arkansas are our short line railroads, who most often 
provide first and last mile service for farmers, manufacturers, and 
other industries. I am proud to support H.R. 510, the BRACE Act, which 
would permanently extend the tax credit for short line railroad track 
maintenance, thereby increasing private investment in important rail 
transportation infrastructure.
    As total freight demand grows, the critical investments made by the 
railroads--in both their people and in their infrastructure--help 
ensure a safe and efficient transport system for our goods. This 
investment helps spur economic activity, drive innovation, and make 
operations safer and more efficient. In turn, the rail network can 
handle increased freight demand and help relieve congestion on our 
roads.
    I look forward to hearing about freight programs in the FAST Act 
and how Congress can improve the efficient flow of goods.

    Mr. Crawford. Thank you to all of our witnesses for being 
here today, and I yield back the balance of my time.
    Ms. Norton. Thank you, Mr. Crawford. I would like to ask 
the chairman of the full committee, Mr. DeFazio, if he has an 
opening statement.
    Mr. DeFazio. Thank you, Madam Chair. Yes, I do have a brief 
opening statement. I want to thank both the chairs and ranking 
members for holding this important hearing.
    We just had Black Friday, Cyber Monday, and Americans 
think, just one click, and the goods magically appear. But they 
don't realize the complexity of the network upon which they are 
dependent for those goods to appear at the doorstep.
    In addition to those sorts of issues, we obviously have the 
supply chain for industry. Our national freight system is 
crucial to connecting farmers' produce with kitchen tables, 
bringing logs out of the mountains to the sawmills in my State. 
The U.S. freight transportation network is critical to the 
economy of this Nation: 17.7 billion tons of freight valued at 
$16.8 trillion every year.
    But we have challenges ahead of us. By 2040 we expect 
volumes to grow by 40 percent. How are we going to meet those 
demands? Our existing infrastructure is at capacity, nearing 
the end of--or, in many cases, has already passed--its useful 
life, but still limping along.
    And how are we going to deal with this in the future? How 
are we going to reduce the environmental burden of the freight 
industry, both in terms of pollution in urban areas, and also 
in terms of the carbon that it contributes to climate change?
    Medium and heavy-duty trucks contributed 23 percent of all 
transportation-related greenhouse gas emissions in 2017. And I 
hope to hear today ideas about how we are going to reduce that 
burden.
    The freight railroads have been working to deploy 
technologies. They have been upgrading their fleets, reducing 
idling and fuel consumption, and they are, obviously, a more 
efficient per-gallon, per-freight-mile deliverer of goods. And 
so they have done quite a bit. Between 2000 and 2018, the 
freight railroads consumed 9 billion fewer gallons of fuel and 
emitted 100 million fewer tons of carbon dioxide, but can we 
move beyond that? I think we need to.
    As we will hear in testimony today, a significant portion 
of freight growth and a disproportionate share of the cost of 
freight movements come from the last mile. We have been reading 
some articles about congestion in our urban areas. It is 
extraordinary, because of this delivery adding new burdens to 
an already overburdened system.
    Normally, these areas were not considered integral to 
freight movement, but they have become so. So we are going to 
have to figure out how we are going to deal with that--again, 
the pollution, the carbon, and so forth.
    In the last reauthorization bill was the first time, in the 
FAST Act, really, that we established a dedicated funding 
source for freight. As important as it is, it has been 
neglected, in terms of our investment, as has the whole system 
been neglected by our levels of investment. And I am trying and 
hoping that we will do much better in our reauthorization.
    The DOT implements the INFRA program, Nationally 
Significant Freight and Highway Projects program. But 
basically, the money is insufficient, and there is a huge line 
of very meritorious projects waiting for funding. So, we are 
going to have to both tighten up the criteria for grants that 
are coming out of DOT, but also we are going to need to put 
more money into those programs.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you for holding this joint Subcommittee hearing to consider 
how our trucking and freight rail transportation systems are growing 
and changing, and how the recent surge in goods movement is impacting 
transportation investment needs.
    This hearing is timely, with consumers across the country preparing 
for the holiday season. Whether they realize it or not, shoppers who 
took advantage of Black Friday and Cyber Monday deals are relying on a 
vast and complex freight network to provide and deliver their 
purchases.
    Our national freight system is crucial to our lives every day of 
the year, providing vital support to a functioning supply chain, 
transporting raw materials to factories and finished products to 
market, and connecting farmers' produce with kitchen tables. Today, the 
U.S. freight transportation system already moves 17.7 billion tons of 
freight, valued at $16.8 trillion, every year. By 2040, freight volumes 
are expected to grow by 42 percent.
    We need to be proactive in preparing to meet these growing demands 
on existing infrastructure, much of which is at capacity and nearing 
the end of--or past--its useful life. We also need to actively work to 
reduce the environmental impacts of freight transportation.
    Today, more than two out of every five miles of America's urban 
interstates are already congested, imposing costs on the trucking 
industry and non-commercial drivers, driving up fuel usage, and 
contributing significantly to greenhouse gas emissions. Medium and 
heavy-duty trucks contributed 23 percent of all transportation-related 
greenhouse gas emissions in 2017.
    Freight railroads have been deploying various technologies and 
upgrading fleets to reduce idling and fuel consumption. As a result of 
these efforts, between 2000 and 2018, the freight railroads consumed 9 
billion fewer gallons of fuel and emitted 100 million fewer tons of 
carbon dioxide.
    As we will hear in testimony today, a significant portion of 
freight growth--and a disproportionate share of the cost of freight 
movements--comes from the last mile of deliveries. As Americans do more 
of their shopping online--and expect goods to show up the day after 
they click a button or sooner, these new patterns rely on the use of 
infrastructure not typically considered as integral to freight 
movement.
    Recent press accounts have documented that in already heavily 
congested cities and urban areas, there is a cost to this new 
convenience in the form of gridlock, the degradation of safety, and 
pollution. We need to figure out how best to balance the benefits of 
convenience with the numerous costs.
    In the last reauthorization bill, Congress attempted to support 
goods movement by establishing formula and competitive grant programs 
to fund freight improvements. Today we will hear in witness testimony a 
call for greater transparency in the selection process in discretionary 
grant programs administered by the U.S. Department of Transportation. 
The Nationally Significant Freight and Highway Projects Program (known 
by the Administration as INFRA), created by Congress in the FAST Act, 
has proven to be dramatically oversubscribed. This points to a 
significant need for greater funding to be made available for freight 
projects. It also underscores that Congress needs to enact tighter 
rules around grant allocations to ensure the most worthy projects are 
funded, which I intend to look at in reauthorization.
    I look forward to hearing from our witnesses today and learning how 
Congress can help address current and future freight needs in a surface 
transportation.

    Mr. DeFazio. So with that, Madam Chair, I look forward to 
hearing from the witnesses, and thank you for holding the 
hearing.
    Ms. Norton. Thank you, Mr. DeFazio. I would now like to 
welcome our witnesses, and I am going to go first to Erin 
Aleman. She is the executive director of the Chicago 
Metropolitan Agency for Planning. She is here on behalf of that 
agency and the Coalition for America's Gateways and Trade 
Corridors.
    Ms. Aleman?

     TESTIMONY OF ERIN ALEMAN, EXECUTIVE DIRECTOR, CHICAGO 
 METROPOLITAN AGENCY FOR PLANNING, AND BOARD MEMBER, COALITION 
   FOR AMERICA'S GATEWAYS AND TRADE CORRIDORS; CHUCK BAKER, 
     PRESIDENT, AMERICAN SHORT LINE AND REGIONAL RAILROAD 
 ASSOCIATION; ANNE GOODCHILD, Ph.D., FOUNDING DIRECTOR, SUPPLY 
   CHAIN TRANSPORTATION AND LOGISTICS CENTER, UNIVERSITY OF 
  WASHINGTON; IAN J. JEFFERIES, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, ASSOCIATION OF AMERICAN RAILROADS; JASON MATHERS, 
 DIRECTOR, VEHICLE AND FREIGHT STRATEGY, ENVIRONMENTAL DEFENSE 
 FUND; AND JIM TYMON, EXECUTIVE DIRECTOR, AMERICAN ASSOCIATION 
         OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Ms. Aleman. Thank you this morning for the opportunity to 
testify. I am here on both behalf of the Chicago Metropolitan 
Agency for Planning, and also on behalf of the Coalition for 
America's Gateways and Trade Corridors, a coalition of public 
and private partners who are dedicated to investing in 
America's multimodal freight infrastructure.
    Thank you for your leadership, Chair Norton, Chairman 
Lipinski, Ranking Member Davis, and Ranking Member Crawford, 
and members of the subcommittees for the opportunity to share 
my views today.
    Investment in multimodal freight infrastructure is critical 
to this Nation's economy. Our Nation's ability to move goods 
safely, reliably, and responsibly to consumer demands will keep 
American businesses competitive in a global marketplace. 
Chronic underinvestment in our Nation's transportation system 
has resulted in companies spending $27 billion annually in 
expenses due to freight congestion.
    Ms. Norton. Speak up a little more, please. Would you speak 
up a little?
    Mr. DeFazio. Just pull it closer.
    Ms. Aleman. I am sorry, a little----
    Mr. DeFazio. There you go.
    Ms. Aleman. Sorry. With the FAST Act reauthorization around 
the corner, I am here today to ask you to include a robust 
freight program.
    I applaud members of this committee for prioritizing 
freight infrastructure in the FAST Act. The program sparked an 
important dialogue, and brought into focus the incredible 
magnitude of freight needs across our country.
    I would like to highlight how the FAST Act supported the 
Chicago region, changing how we pursue competitive funds, 
leveraging additional resources, and ensuring the projects that 
we put forth provide the greatest return on investment.
    Prior to CMAP, I was on the team at the Illinois Department 
of Transportation, working closely with CREATE partners as we 
developed our INFRA application for the 75th Street Corridor 
Improvement Project. By untangling one of the worst bottlenecks 
in the Nation, $3.8 billion of economic benefits will be seen 
upon completion. Because the economic benefit was so great, and 
the need was so significant, we came together to prioritize 
this project amongst individual needs.
    Together, the CREATE partners, both public and private, 
matched more than 2\1/2\ times the Federal INFRA ask. While 
more funding is necessary to complete the project, this project 
and investment will improve the reliability of 200 freight, 30 
passenger, and 10 Amtrak trains daily.
    Many of the largest and most complex freight improvements 
across our country cross State boundaries, and occur where 
multiple modes come together. These projects require a 
partnership at the Federal level to untangle choke points that 
burden our community and slow commerce.
    Our region has successfully shown that prioritizing 
multimodal freight investment leads to success. For example, 
whereas it once took 40 hours for freight trains to get through 
Chicago, it now takes 25 to 30 hours. But more improvement is 
necessary. While we have been able to address some of these 
problems on our own, the fact is that States cannot and should 
not shoulder the burden of nationally significant freight 
movement alone.
    Freight isn't confined to a single community or State. More 
than 77 percent of U.S. freight crosses State lines. I have 
often said that the public doesn't care who has jurisdiction 
over the roads they are driving on. The same can be said about 
our freight network. Businesses and consumers simply want a 
reliable system that gets their goods to market, or delivers 
their packages to their houses on time.
    To address our urgent freight needs and build on successes, 
the coalition respectfully submits four recommendations.
    First, a national strategy that guides long-term planning. 
An office of multimodal freight should be established within 
U.S. DOT's Office of the Secretary, emphasizing nationally 
significant projects.
    Second, dedicated, sustainable, and flexible funding. In 
2018 the INFRA program received $12 of unique requests for 
every $1 available. Given this level of oversubscription, we 
request $12 billion be invested annually in multimodal freight 
throughout the competitive programs. Congress should also 
eliminate caps on nonhighway spending.
    Third, projects should be selected through a performance-
based program and framework that allows us to prioritize 
projects that improve national freight efficiency. Oversight 
and transparency in the decisionmaking process is critical to 
the program's integrity.
    And finally, funding should leverage private participation 
and support a variety of financing options.
    The FAST Act's programs are increasing the safety, 
efficiency, and reliability of how we move our goods. Consumer 
demands have shifted dramatically over the years, and the 
planner in me knows that more change is on the horizon. We must 
be proactive about investing and prioritizing our critical 
freight infrastructure needs.
    On behalf of the coalition and CMAP, I thank the 
subcommittees for their time and attention to this critically 
important topic.
    [Ms. Aleman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Erin Aleman, Executive Director, Chicago 
   Metropolitan Agency for Planning, and Board Member, Coalition for 
                 America's Gateways and Trade Corridors
    I appreciate the opportunity to testify before two distinguished 
panels and thank the Subcommittee on Highways and Transit and the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials for 
joining together on this important subject--after all, efficient 
freight movement requires multiple modes working together seamlessly 
and reliably. Improving the freight system to meet our growing freight 
needs is critical to our nation's economic competitiveness. Thank you 
for your leadership, Chair Norton, Chairman Lipinski, Ranking Member 
Davis, and Ranking Member Crawford.
    I am representing both the Chicago Metropolitan Agency for Planning 
(CMAP) and the Coalition for America's Gateways and Trade Corridors 
(CAGTC), a diverse coalition of more than 60 public and private 
organizations dedicated to increasing federal investment in America's 
multimodal freight infrastructure.
    CMAP is the federally-designated Metropolitan Planning Organization 
for the northeastern Illinois counties of Cook, DuPage, Kane, Kendall, 
Lake, McHenry, and Will. We represent a region of nearly 8.5 million 
people, working closely with the region's 284 communities to address 
transportation, housing, economic development, open space, environment, 
and quality of life issues. Our most recent plan, ON TO 2050, calls for 
bold steps toward a well-integrated, multimodal transportation system 
that seamlessly moves people and goods within and through metropolitan 
Chicago. To strengthen our economic competitiveness while improving 
quality of life, freight recommendations in the plan emphasize 
strategic investment in the freight network, improving local and 
regional truck travel, and mitigating the negative impacts of freight--
congestion, safety, and air quality--on adjacent communities.
    The CMAP region is North America's freight hub. Six of the seven 
Class I railroads operate in our region, with one-fourth of the 
nation's freight rail traffic and nearly half of all intermodal trains 
passing through Chicago. Approximately 18 million twenty-foot 
equivalent units (TEUs) of cargo moved through the region's twenty 
rail-truck intermodal facilities in 2018, an increase of 52 percent 
since 2009.\1\ In short, our region moves more freight than the busiest 
seaports in the country.
---------------------------------------------------------------------------
    \1\ Chicago Metropolitan Agency for Planning, Chicago Intermodal 
Facility Lift Counts and Regional TEU Estimate, November 2019. <https:/
/www.cmap.illinois.gov/mobility/freight/freight-data-resources>
---------------------------------------------------------------------------
    As national freight demands grow, so too does the stress on our 
regional infrastructure. In 2003, the nationally and regionally 
significant Chicago Region Environmental and Transportation Efficiency 
(CREATE) program was formed. This innovative partnership between the 
U.S. Department of Transportation, the State of Illinois, Cook County, 
the City of Chicago, Metra, Amtrak, and U.S. freight railroads is a 70-
project, $4.6 billion plan to improve the efficiency and effectiveness 
of freight, commuter, and intercity passenger rail and to reduce 
highway delay in the Chicago region.
    Chicago has been a national rail hub for almost 150 years. Every 
day nearly 500 freight trains and more than 760 passenger trains 
operate in the region. But the rail lines, built over a century ago, 
were not built for the volumes nor the types of freight being carried, 
turning Chicago into the nation's largest freight rail chokepoint. Rail 
congestion, resulting in delays and unreliable transit times, can be 
exacerbated by increased demand and severe weather. In 2014, for 
example, congestion in Chicago caused lingering service disruptions for 
farmers across the Upper Midwest. Revenues decreased due to increased 
transportation and storage costs and losses caused by spoilage.\2\ 
CREATE aims to address such bottlenecks to increase the reliability and 
efficiency of the region's rail infrastructure. More than $1.6 billion 
has been spent or committed, with an estimated $3 billion needed to 
complete the full program. To date, federal sources have provided 40 
percent of spent and committed funds.
---------------------------------------------------------------------------
    \2\ U.S. Department of Agriculture, Rail Service Challenges in the 
Upper Midwest: Implications for Agricultural Sectors--Preliminary 
Analysis of the 2013-2014 Situation, January 2015. <https://
www.usda.gov/oce/economics/papers/Rail_Service_Challenges_in_the_
Upper_Midwest.pdf>
---------------------------------------------------------------------------
    CREATE includes 25 rail grade separation projects to reduce freight 
and motorist delay and improve safety. Although only seven of the 
separations have been completed thus far due to insufficient funding, 
the success of CREATE cannot be underestimated. Whereas it once took 
freight trains more than 40 hours to pass through the Chicago region, 
due to implementation of CREATE, this is down to 25-30 hours. With 
continued funding, delays can be further reduced.
    Our nation's ability to move goods safely, reliably, and 
expeditiously keeps U.S. businesses competitive in the global 
marketplace and supports a higher standard of living for all. In 2015, 
this Committee created the first-ever dedicated freight program in the 
Fixing America's Surface Transportation (FAST) Act. The program began 
an important dialogue and has taught us much in the intervening years 
since passage. Most importantly, it brought into focus the incredible 
magnitude of freight needs across the country, setting the stage for 
the 2020 reauthorization. I urge you to make a robust freight program 
the hallmark of this upcoming reauthorization.
    All infrastructure investment has well-documented economic 
benefits, but freight infrastructure investment is inextricably linked 
to the long-term health of our national economy. The multimodal freight 
network directly supports 44 million jobs and impacts every American's 
quality of life.\3\ Unfortunately, chronic underinvestment in our 
national transportation system has resulted in a ``dysfunction tax.'' 
U.S. companies spend around $27 billion annually in extra freight 
transportation expenses due to congestion,\4\ and the total cost of 
congestion is estimated at $1 trillion annually--roughly seven percent 
of U.S. economic output.\5\
---------------------------------------------------------------------------
    \3\ U.S. Department of Transportation, National Freight Strategic 
Plan, October 2015. <https://www.transportation.gov/sites/dot.gov/
files/docs/DRAFT_NFSP_for_Public_Comment_
508_10%2015%2015%20v1. pdf>
    \4\ U.S. Department of Transportation, National Freight Strategic 
Plan, October 2015. <https://www.transportation.gov/sites/dot.gov/
files/docs/DRAFT_NFSP_for_Public_Comment_
508_10%2015%2015%20v1. pdf>
    \5\ Ibid.
---------------------------------------------------------------------------
    Population growth will present capacity challenges across our 
multimodal system, which currently moves 55 million tons of goods 
daily, worth more than $49 billion.\6\ That's roughly 63 tons per 
person annually; meanwhile, the U.S. population is expected to increase 
by 70 million by 2045 to reach a total of 389 million people.\7\
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ Ibid.
---------------------------------------------------------------------------
    But it's not just population growth that is putting stress on our 
systems. Consumer demands have shifted dramatically over the last 
decade. Notably, the rise in e-commerce and quick delivery is shifting 
supply chains and requiring metropolitan areas to refocus their plans 
with these trends in mind. CMAP is currently undertaking a research 
project to better understand and respond to the impacts of growing e-
commerce on the transportation system, land use, and fiscal condition 
of communities. We look forward to sharing the results of this project 
with the Committee next year.
    Public investment in our nation's multimodal freight infrastructure 
is chronically inadequate to meet the system's demands. States and 
localities have attempted to increase their infrastructure funding--
since 1993, 42 states have raised their own gas taxes.\8\ \9\ My home 
state of Illinois, for example, this year increased the gasoline tax by 
19 cents per gallon and the diesel tax by 24 cents per gallon; both are 
now indexed to inflation. However, states and localities cannot, and 
should not, shoulder the burden of nationally-significant freight 
movement alone. Through the Commerce Clause of the Constitution, the 
Federal Government is tasked with supporting interstate commerce. More 
than 77 percent of U.S. freight crosses state lines, illustrating the 
need for a federal role in freight planning and investment.\10\ At its 
peak, the Federal Government provided 38 percent of public 
infrastructure funding, but that number has fallen to just 25 percent 
in recent years.\11\ This places a strain on communities and local 
governments, many of whom have already raised user fees and are 
struggling to determine where to find additional funds.
---------------------------------------------------------------------------
    \8\ Institute on Taxation and Economic Policy, How Long Has It Been 
Since Your State Raised its Gas Tax?, May 2019. <https://itep.org/how-
long-has-it-been-since-your-state-raised-its-gas-tax-0219/>
    \9\ Institute on Taxation and Economic Policy, Most States Have 
Raised Gas Taxes in Recent Years, June 2019. < https://itep.org/most-
states-have-raised-gas-taxes-in-recent-years-0419/ >
    \10\ Tomer, Adie and Joseph Kane, Brookings and JP Morgan Chase 
Global Cities Initiative, Mapping Freight: The Highly Concentrated 
Nature of Goods Trade in the United States, November 2014. <https://
www.brookings.edu/wp-content/uploads/2016/06/Srvy_GCIFreightNetworks_
Oct24.pdf>
    \11\ Council on Foreign Relations, The State of U.S. 
Infrastructure, October 2017. <https://www.cfr.org/backgrounder/state-
us-infrastructure>
---------------------------------------------------------------------------
    While Congress and infrastructure advocates have contemplated a 
variety of federal funding solutions for transportation infrastructure, 
our group has coalesced around a waybill fee dedicated to freight 
infrastructure improvements, such as the one proposed by Congressman 
Lowenthal of this Committee. A waybill fee assessed on the cost of 
surface transportation movements would not skew the market for services 
and would grow along with the demand for freight transportation. 
Freight infrastructure needs are significant and continue to grow; 
CAGTC remains committed to exploring solutions that will provide robust 
and dependable funding.
    Many of freight infrastructure's largest, most complex, and most 
desperately needed improvements cross local and state boundaries and 
occur where multiple modes come together. These instances frequently 
require a partnership at the federal level to untangle chokepoints that 
burden our communities and slow commerce.
    The FAST Act created a number of much-needed tools to address the 
challenges described. The Nationally Significant Freight and Highway 
Projects Program, or INFRA program, is a competitive grant program 
designed to target investments in large freight and highway projects 
and contains criteria written into law that focus on goods movement 
infrastructure. The FAST Act also authorized the Consolidated Rail 
Infrastructure and Safety Improvements (CRISI) Program, which provides 
grants for projects that improve the safety, efficiency, and 
reliability of intercity passenger and freight rail systems.
    According to a 2019 study by the Congressional Research Service, 
``discretionary grants may be more effective in providing large amounts 
of federal funding for very costly freight-related projects, 
particularly those requiring interstate cooperation.'' \12\ Competitive 
grant programs such as INFRA and CRISI assist in funding large-scale 
infrastructure projects, which often span modes and jurisdictional 
borders and are difficult, if not impossible, to fund through 
traditional distribution methods such as formula programs.
---------------------------------------------------------------------------
    \12\ Congressional Research Service, Freight Issues in Surface 
Transportation Reauthorization, January 2019. <https://fas.org/sgp/crs/
misc/R45462.pdf>
---------------------------------------------------------------------------
    While formula programs typically invest through a standard 80 
percent federal to 20 percent non-federal match, competitive grant 
programs encourage states and localities to bring their best possible 
deal to the table, driving innovative and creative funding and 
financing arrangements. Through the INFRA grant program's four rounds, 
USDOT awarded $2,394,979,933 to projects with a strong freight 
component. Those monies combined with funds from various other sources 
to result in $11,089,207,231 in total project investments--meaning 78.4 
percent of funds came from sources other than the INFRA grant program.
    Prior to joining CMAP, I was the director of planning and 
programming at the Illinois Department of Transportation (IDOT), 
responsible for long range multimodal planning and setting priorities 
for spending federal funds. I was at the table when IDOT and the CREATE 
partners were developing the INFRA application for the recently funded 
75th Street Corridor Improvement Project (CIP). Recognizing the 
national significance of the CREATE program, USDOT awarded the 75th 
Street CIP, located on the south side of the City of Chicago, $132 
million through the INFRA program's FY17/18 funding round. 
Historically, IDOT submitted several applications for USDOT's 
competitive programs from across the state. What was different this 
time was that CREATE partners agreed to only submit one INFRA 
application from the region--everyone's top priority. CREATE partners 
leveraged the federal INFRA ask with $342 million in local funds to pay 
for the first portion of this project to separate several freight and 
passenger rail lines. While more funding is necessary to complete the 
project, this investment will ultimately improve the reliability and 
travel time for more than 200 freight trains, 30 Metra commuter trains, 
and 10 Amtrak trains daily. Benefits will begin to accrue upon 
completion of the first portion; however, $474 million represents less 
than half the funds needed to complete the project. Completion of the 
full project will result in an anticipated $3.8 billion of economic 
benefits.
    The INFRA program's ability to leverage federal dollars is 
impressive; but a small federal ask, or likewise, a significant private 
contribution should not be the primary considerations when deciding to 
fund a project. Perhaps more important are project outcomes--USDOT must 
consider the national benefits of a project, not just the source of the 
matching funds. Projects should first be evaluated on their ability to 
meet the program's goals, based on measureable and objective criteria 
defined by Congress. Just because a project requires less federal 
investment, does not make it the most valuable investment for the 
nation.
    Complementary to the INFRA competitive grant program is the FAST 
Act's freight formula program, which allows state departments of 
transportation to target freight system improvements, like first and 
last mile connectors. Some states, such as California and Illinois, 
have distributed the federal freight dollars through a state-level 
competitive program.
    To make the most out of FAST Act funds, IDOT developed a 
transparent, performance-based, competitive program to ensure the 
dollars allocated provided the greatest return on investment. One of 
the challenges the agency had to overcome was an internal one--changing 
the internal conversation about transparency and performance metrics 
related to programming. Would we get an unwieldy number of projects if 
we posted the project evaluation criteria, or would we get better 
projects? In the end, it was the latter. Of 23 projects selected, 17 
went to local agencies, and the non-federal match across the program 
was 35 percent. $17 million was awarded to intermodal projects that do 
not traditionally have access to federal funding sources.
    In order to increase the flexibility afforded to state departments 
of transportation, we encourage Congress to eliminate the cap on non-
highway projects, currently set at 10 percent of total funds, so each 
state can invest in its most pressing supply chain needs, regardless of 
mode. It should be noted, that even administered as a state-level 
competitive grant program, the formula program is not a replacement for 
INFRA, which funds nationally and regionally significant projects that 
frequently span multiple states and jurisdictions. As stated 
previously, such freight projects require a federally-administered 
competitive approach.
                            Recommendations
    We need a strategic freight mobility program that prioritizes the 
current economic needs of our country while planning for generations to 
come. This campaign of strategic investment should expand capacity and 
increase efficiency, regardless of mode or political jurisdiction. 
Without such a campaign, U.S. productivity and global competitiveness 
will suffer.
    To address these needs, we respectfully ask that Congress:
Develop a national strategy that guides long-term planning
    We need a national ``vision'' and strategy to shape and guide our 
freight infrastructure needs. Such a strategy should have active 
coordination among states, regions, and localities and should endeavor 
to anticipate freight needs extending over multiple decades to allow 
for a smooth path for free-flowing freight both today and into the 
future.
    Planning tools, such as the National Freight Strategic Plan (NFSP), 
the National Freight Network, and the National Multimodal Freight 
Program, should account for resiliency, route redundancy, and shifting 
trade patterns. The NFSP would be enhanced by the inclusion of a 
comprehensive analysis of our system's freight infrastructure 
investment needs, created with high-quality data sets. Currently, 
planning is often frustrated by incomplete and outdated publicly 
available data sets. Recognizing that developing this analysis is a 
challenge, due to factors such as mixed-use infrastructure and 
intertwined public and private infrastructure, it is nevertheless a 
critical tool.
    An office of multimodal freight should be established within the 
U.S. Department of Transportation's Office of the Secretary to guide 
freight mobility policy and programming with a particular focus on 
projects of national significance that aid in the movement of commerce. 
Because the movement of goods spans different modes of infrastructure, 
specialized knowledge at the federal level is essential. An office of 
multimodal freight will allow experts in the unique operational and 
economic needs of each mode to work together to make the best 
investments in our system. Additionally, this investment strategy 
should include innovative and flexible approaches to structuring 
federal financial assistance in a manner that encourages private sector 
investment.
Provide sufficient levels of funding that are dedicated, sustainable, 
        and flexible
    An investment program dedicated to multimodal freight 
infrastructure is necessary to ensure that public agencies can invest 
in their most critical goods movement needs--regardless of mode. 
Federal funding should incentivize and reward state and local 
investment and leverage the widest array of public and private 
financing. Funding should be based on revenue sources that are 
predictable, dedicated, and sustained. Because they are the primary 
beneficiaries of any system improvements, owners of goods should be 
part of the revenue user-base.
    Existing programs available to freight infrastructure, like the 
INFRA competitive grant program, are oversubscribed. For example, in 
the combined FY17/18 round, the INFRA grant program saw $12 in unique 
requests for every $1 available. Currently funded at an average of $900 
million annually, given this level of oversubscription, CAGTC calls for 
an annual investment of $12 billion in multimodal freight investment 
through a competitive grant program.
    As we approach the FAST Act's reauthorization next year, we 
encourage Congress to not only increase the funding levels of both the 
freight formula program and the INFRA grant program, but to also 
eliminate the caps on non-highway spending under both programs. Freight 
does not move on highways alone--where public benefit is derived, 
public investment must be made. Intermodal freight is one of the 
fastest-growing sectors of the freight market.\13\ And, it is often in 
the places where various modes come together that public assistance is 
needed to close the funding and infrastructure gaps, which result in 
capacity inefficiencies and bottlenecks. Examples include highway-rail 
grade crossings, rail spurs to access cargo, logistics or transfer 
facilities, tunnels and bridges for port access, border crossing 
capacity enhancements, and air-freight connectors.
---------------------------------------------------------------------------
    \13\ U.S. Department of Transportation, Beyond Traffic, February 
2015. <http://www.dot.gov/sites/dot.gov/files/docs/
Draft_Beyond_Traffic_Framework.pdf >
---------------------------------------------------------------------------
Implement a set of merit-based criteria for funding allocation
    Projects should be selected through the use of merit-based criteria 
that identify and prioritize projects with a demonstrable contribution 
to national freight efficiency. Goals should include increasing 
national and regional economic competitiveness, improving connectivity 
between freight modes, reducing congestion and bottlenecks, and 
improving the safety, efficiency, and reliability of the movement of 
freight and people. Long-term funding must be made available to ensure 
that, once a project is approved, funds will flow through to project 
completion. Funds should be available to support multi-jurisdictional 
and multi-state projects, regardless of mode, selected on the basis of 
objective measures designed to maximize and enhance system performance, 
while advancing related policy objectives. The U.S. Department of 
Transportation's decision-making process should be made transparent to 
ensure the integrity of the evaluation process.
Form a partnership with the private sector
    Private participation in the nation's freight infrastructure is 
vital to system expansion. Federal funding should leverage private 
participation and provide transportation planners with the largest 
toolbox of financing options possible to move freight projects forward 
quickly and efficiently. We recommend that Congress consider 
establishing an advisory council made up of freight industry members 
and system users who could assist and partner with the U.S. Department 
of Transportation in order to optimize results from planning, 
coordination, and evaluation processes.
Provide oversight of existing freight programs
    We recommend Congress oversee execution of the INFRA program to 
ensure projects are evaluated against criteria codified in law. We 
commend Congress' foresight in mandating that the Government 
Accountability Office (GAO) publish a report on the decision-making 
process for the first round of the INFRA grant program and encourage 
Congress to continue such oversight to aid decision-making transparency 
and adherence to Congressional intent.
    The FAST Act's freight programs are increasing the safety, 
efficiency, and reliability of our nation's goods movement system, but 
they are only a beginning. On behalf of CAGTC and CMAP, I encourage you 
to implement these recommendations to improve the nation's 
competitiveness and respond to a changing economy. I thank Members of 
the Transportation and Infrastructure Committee for their time and 
attention to this critically important topic.

    Ms. Norton. Thank you, Ms. Aleman.
    We go now to Chuck Baker, president of the American Short 
Line and Regional Railroad Association.
    Mr. Baker. Thank you, Chairman, Chairwoman, Ranking 
Members, and members of the subcommittees. I am Chuck Baker, 
and I am president of the American Short Line and Regional 
Railroad Association, representing the Nation's 603 small 
railroads.
    This hearing will explore the economic, environmental, and 
societal impacts of freight transportation. And you have asked 
me to tell you where's my stuff, as it relates to the short 
line railroad industry.
    Well, I am happy to report that short line railroads have 
lots of stuff. It is the right stuff. And we are here to 
transport America's stuff in a safe, efficient, and 
environmentally friendly manner. Together, short line railroads 
operate nearly 50,000 miles of track, or approximately 30 
percent of the national rail network, and employ more than 
17,000 hardworking Americans. We operate in 49 States. Short 
lines are often called the first mile and last mile of the 
Nation's railroad system.
    The name ``short line'' can create the mistaken impression 
that all of these railroads are very short in length. The fact 
is we come in all sizes. The Peru Industrial Railroad in 
Illinois is 3 miles long. The Portland and Western is 516 miles 
long. Pan Am Railways operates 1,700 miles, and provides the 
majority of rail service in New England. Our common 
denominators are that we operate track that was not viable 
under the structure of the previous owners; we run lean and 
mean; we stay very close to our customers; we are dedicated to 
safety; and we hustle, scratch, and claw for every last carload 
of stuff we can help move.
    Short lines have the right economic stuff. Short lines 
preserve service over track that was previously headed for 
abandonment. Particularly for smalltown and rural America, 
short line railroad service is the only connection to the 
national network. For the businesses and farmers in those 
areas, our ability to take a 25-car train 75 miles to the 
nearest Class I interchange is just as important as the Class 
I's ability to attach that block of traffic to a 100-car train 
and move it across the country.
    Railroads are an all-American proposition. Virtually 
everything we buy for infrastructure improvement--the ties, the 
rails, the ballasts, the locomotives, the freight cars--it is 
made in America. So every dollar we spend is spent in America.
    As those of you who represent rural areas know, it is 
difficult to create jobs in rural America. Short lines and the 
shippers we serve are a significant source of good-paying jobs 
in rural America.
    Short line railroads lower transportation costs for our 
shippers, because one railcar holds the equivalent of three to 
four truckloads worth of stuff, and we use fuel more 
efficiently than trucks. Using an example from Oklahoma, moving 
1 ton of freight 95 miles from Clinton to Enid via rail 
provides a 40-percent savings per mile versus truck. That level 
of savings exists across the country, and is a very meaningful 
number for the businesses we serve.
    I will not pretend that the numbers I am talking about are 
a huge deal in an economy measured in the trillions. However, 
for those shippers we keep connected, for those communities 
where we create economic activity, for the employees we hire, 
these are meaningful numbers. It is not the biggest stuff, but 
it is important stuff.
    Short lines have the right environmental stuff. Railroads 
are the most fuel-efficient way to move freight over land, 
three to four times more fuel-efficient than trucks. Today, a 
freight train can move 1 ton of freight an average of more than 
470 miles on 1 gallon of diesel. The EPA has measured the 
sources of transportation-related greenhouse gas emissions, and 
rail is a big success story. Cars and light trucks account for 
60 percent. Heavy trucking is 23 percent. Air travel is 9 
percent. And freight rail is only 2 percent.
    Highway congestion, in addition to being a soul-destroying 
way to spend your time, is also a significant contributor of 
harmful emissions. The average railcar holds the equivalent of 
three to four truckloads, and removing those trucks from the 
highway helps reduce congestion.
    Finally, short lines have the right societal stuff. Rail is 
the safest option for moving freight by land in America. 
Measured on a comparable ton-mile basis, rail is approximately 
three to five times safer than trucking. Short lines are proud 
of our safety culture, and work diligently to reduce and 
eliminate injuries. In 2018, 265 of our short lines reported 
zero accidents. The average accident rate that year was a near 
record low of 1.84 per million train-miles. Because rail is the 
safest option for moving freight by land, any policies that 
Congress enacts that affect the balance between rail and 
trucking also affect public safety, and have major societal 
impacts.
    As this committee considers a surface transportation bill, 
my written testimony offers specific policy recommendations 
that we believe will improve the economic, environmental, and 
societal impacts of freight transportation in America, such as 
supporting the CRISI grant program, improving the INFRA and 
State freight formula programs by making them more multimodal, 
maintaining the current truck size and weight limits, 
refraining from an unnecessary Federal law on train crew sizes, 
returning the Highway Trust Fund to something resembling a 
user-funded system, and, of course, our favorite topic, 
extending the short line rehabilitation tax credit. Thank you.
    [Mr. Baker's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Chuck Baker, President, American Short Line and 
                     Regional Railroad Association
    Thank you Chairman DeFazio, Ranking Member Graves, Chairs Lipinski 
and Norton and Ranking Members Crawford and Davis, and Members of the 
Subcommittees for inviting me to testify as part of this important 
hearing. My name is Chuck Baker and I am President of the American 
Short Line and Regional Railroad Association (ASLRRA), the national 
trade association representing the nation's 603 Class II and Class III 
railroads (referred to here collectively as ``short lines'').
    This hearing will explore the economic, environmental and societal 
impacts of freight transportation and you have asked me to tell you 
``where's my stuff'' as it relates to the short line railroad industry. 
Well, I am happy to report that short line railroads have lots of 
stuff, it's the right stuff, and we are here to transport America's 
stuff in a safe, efficient, and environmentally friendly manner.
    Together, short line railroads operate nearly 50,000 miles of 
track, or approximately 30% of the national railroad network and employ 
more than 17,000 hard-working Americans. We operate in 49 states and in 
36 of those states we operate at least one quarter of the state's total 
rail network. In five states, short lines operate 100% of the state's 
rail network. In the states represented by the Members of the two 
Subcommittees holding this hearing, there are 450 short lines operating 
over 38,000 track miles. Short lines are often called the first mile/
last mile of the nation's railroad system and handle in origination or 
destination one out of every five rail cars moving on the national 
system.
    Although short lines are most often associated with small town and 
rural America, we also serve large urban areas and many of the nation's 
busiest ports, including Miami, Los Angeles and Long Beach, Hampton 
Roads, and New York/New Jersey. Likewise various short line railroads 
operate as neutral terminal switch carriers for multiple Class I 
railroads in Chicago, New Orleans and St. Louis. The nation's short 
lines are much more than a quaint name on the Monopoly Board.
    The name ``short line'' can create the mistaken impression that all 
of these railroads are very short in length. The fact is we come in all 
sizes. The Peru Industrial Railroad in Congressmen Lipinski's and 
Davis's state of Illinois is three miles long. The Portland and Western 
in Congressman DeFazio's state of Oregon is 516 miles long. Pan Am 
Railways, headquartered in Massachusetts, is the nation's longest short 
line, operating approximately 1,700 route miles and providing the 
majority of rail service in New England. Our common denominators are 
that we operate track that was not viable under the structure of the 
larger national Class 1 railroads, that we run lean and mean, that we 
stay very close to our customers, that we are dedicated to safety, and 
that we hustle, fight, scratch and claw for every last carload of stuff 
we can help move.
               Short Lines Have the Right Economic Stuff
    Short line railroads preserve service and jobs over track that was 
headed for abandonment under previous Class I ownership. These were low 
density branch lines that could not generate enough profit under the 
cost structure of the big national carriers. Because these were 
marginal or money losing lines, they received little investment prior 
to their sale, resulting in significant deferred maintenance. To be 
successful, short line owners have worked hard to not only bring their 
tracks and bridges up to a state of good repair but to upgrade them to 
handle the heavier, longer trains that are becoming the national 
standard. To do that, short lines invest on average from 25 to 33% of 
their annual revenues in rehabilitating their infrastructure and this 
makes short line railroading one of the most capital-intensive 
industries in the country. To provide some dollar perspective, to 
upgrade one mile of typical 90-pound track up to the 115-pound rail 
needed to handle today's modern railcars costs more than $500,000 per 
mile and while short lines have been working hard to update their 
lines, we still need to do that across a large percentage of the 
50,000-mile network.
    The economic importance of this investment cannot be overstated. 
For large areas of the country, especially in small town and rural 
America, short line railroad service is the only connection to the 
larger national railroad network. For the businesses and farmers in 
those areas, our ability to take a 25-car train 75 miles to the nearest 
Class I interchange is just as important as the Class I's ability to 
attach that block of traffic to a 100-car train and move it across the 
country. While these shippers cannot complete the journey to their 
markets across the country without Class I railroad service, they 
cannot start or end the journey without short line service. This is 
especially true for much of the ``merchandise'' or ``carload'' traffic 
that comes from manufacturing, paper and agricultural shippers that 
does not typically move in unit train quantities. We are crucial in 
providing those shippers access to the economic benefits of shipping by 
rail.
    Short lines serve over 10,000 shippers in thousands of communities 
nationwide and we find those shippers quite willing to testify to the 
importance of this first mile/last mile service. I have attached at the 
end of my testimony a list of quotes from short line customers. We have 
selected a wide variety from across the country to give you a sense of 
the important relationship between shippers and their short lines. In 
general, they sound like this: ``Our serving short line railroad is 
truly a partner for our paper mill. The services provided, including 
freight haul in and out, daily switches, and rail car maintenance help 
us keep our mill running successfully day in and day out. It is 
critical to the 400 plus people employed here that our short line 
railroad be able to continue to operate successfully.''
    The money invested by short lines also results in economic benefits 
beyond preserving local rail service.
    Investing in better track leverages significant additional 
investment by railroad customers. For example, in South Dakota the 
improvements made by the 670-mile Rapid City, Pierre & Eastern Railroad 
since it began operations in 2014 have already attracted over $311 
million in new facility investments by six South Dakota companies. 
Those facilities employ 260 workers. This result is being duplicated in 
the 49 states that are served by short line railroads.
    Railroads are an all-American proposition. We can not take our 
operations or jobs overseas. Virtually everything we buy for 
infrastructure improvement--the ties, the steel rail, the ballast, the 
locomotives and the freight cars--is made in America, so every dollar 
we spend is spent in America.
    Railroad rehabilitation is a labor-intensive effort. As small 
businesses, most short lines do not have the necessary in-house labor 
force or specialized equipment to complete major rehabilitation 
projects so we staff up or hire contractors and lease heavy machinery 
for new projects, so that new investment typically results immediately 
in new jobs. The FRA estimates that half of every dollar spent on short 
line track rehabilitation goes to pay workers.
    As those of you who represent rural areas know, it is difficult to 
create jobs in rural America. According to the US Department of 
Agriculture, from its post-recession low in 2010 through 2017, rural 
employment grew at an average annual rate of only 0.5%, compared to 
1.8% in urban areas. In urban areas, the prime-age labor participation 
rate was just 0.8 percentage points below its 2008 level while in rural 
counties the prime-age participation rate in 2017 was 2.7 percentage 
points below its 2008 level. Short lines and the shippers we serve are 
a significant source of good paying jobs in rural America. In the case 
of short lines themselves, these jobs also include health care benefits 
and a generous Railroad Retirement program.
    Short line railroads lower transportation costs for their local 
shippers. The economics stem from the fact that one rail car holds the 
equivalent of three to four truckloads worth of stuff and also that 
railroads use fuel much more efficiently than trucks. In testimony we 
recently submitted to the House Ways & Means Committee in support of 
the short line rehabilitation 45G tax credit, we cited an example from 
an Oklahoma short line, Farmrail. The cost of moving a ton of freight 
95 miles from Clinton to Enid, Oklahoma is $2.24 per mile on the 
railroad versus $3.75 per mile for comparable truck service. That level 
of savings can be cited with most short lines across the country and is 
a very meaningful number for the businesses we serve, which lets them 
compete effectively in both the domestic and global markets. Without a 
viable rail service option, some of these businesses would just 
disappear.
    Last year the ASLRRA engaged Pricewaterhouse Coopers (PwC) to take 
an independent look at the 45G tax credit and the economic 
contributions of the short line industry. I have attached a copy of 
that report. Among the study's findings:
    <bullet>  The short line industry directly provides 17,000 jobs 
annually, paying labor income of $1.1 billion and adding $2.2 billion 
to the nation's GDP;
    <bullet>  Operational spending by the industry supported 33,730 
indirect and induced jobs and capital spending supported another 10,240 
jobs;
    <bullet>  Across the US economy .51% of business inputs rely on 
transportation services provided by short lines, amounting to 478,820 
jobs, $26.1 billion in labor income and $56.2 billion in value added.

    I will not pretend that the numbers I am talking about are a huge 
deal in an economy measured in the trillions of dollars. However, for 
those shippers we keep connected, for those communities where we create 
economic activity, for the employees we hire, these are meaningful 
numbers. It is not the biggest stuff but it is important stuff.
             Short Lines Have the Right Environmental Stuff
    As my colleague at the AAR has said, railroads are the most fuel-
efficient way to move freight over land--three to four times more fuel 
efficient than trucks. Today, a freight train can move one ton of 
freight an average of more than 470 miles on one gallon of diesel fuel, 
double the average in 1980. The EPA has measured the sources of 
transportation-related greenhouse gas emissions and rail is a big 
success story. Of the greenhouse gas emissions from transportation, 
cars/light trucks/motorcycles account for 60.5%, trucking is 23.1%, 
aircraft 9.1%, and freight rail is only 2%.
    Highway congestion, in addition to being soul-crushing and quality-
of-life-destroying, is a significant contributor to harmful emissions. 
Motor vehicles idle for hours on overcrowded roads--in total there were 
more than 8.8 billion hours wasted in traffic in the last year 
measured--that's the equivalent of a full working year from 4.4 million 
Americans! The average railcar holds the equivalent of three to four 
truckloads and removing those trucks from the highway helps reduce that 
congestion. The short line industry handles over 12 million carloads 
annually which equals about 40 million truckloads not on the highway.
    Short lines are often custodians of expensive infrastructure, such 
as bridges and tunnels that were originally built by the much larger 
railroads and are reaching the end of their useful life. Rehabilitation 
or replacement of this legacy infrastructure can be very challenging 
for small companies, but the benefits are substantial. These benefits 
are documented through the cost benefit analysis required by the BUILD 
(formerly TIGER) program. As an example, a federal grant award made 
through the TIGER program in 2014 enabled replacement of a failing 
strategic short line bridge in southwestern Indiana. This investment 
prevented over 45 million truck miles from being added to the regional 
road network over a 20-year period. This saved the public over $11 
million in truck traffic costs through avoided emissions, accidents, 
congestion and local road damage. Some 3.2 million gallons of diesel 
fuel consumption were also avoided.
    While advances in fuel efficient locomotives do not garner the 
headline grabbing attention of Tesla's electric cars, the railroad 
industry is making steady progress in that regard. Tier 4 locomotives 
maximize locomotive performance and reduce emissions. As you know, Tier 
4 diesel engine standards are the strictest EPA emissions requirements 
for off-highway diesel engines and the railroad industry is 
increasingly incorporating Tier 4 locomotive into its fleet. I am 
pleased to report that one of our short line members, Knoxville 
Locomotive Works, has earned EPA's Tier 4 certification for its SE 
series four and six axle locomotive designs and is providing these 
locomotives to short lines for switching operations. These locomotives 
reduce existing emission levels by more than 90%. The Chairman of 
Knoxville Locomotive Works is Pete Claussen who is also the Chairman of 
short line company Gulf and Ohio Railways and his son Doc is President 
of that railroad and is currently serving as Chairman of our Short Line 
Association.
               Short Lines Have the Right Societal Stuff
    Rail is the safest option for moving freight by land in America. 
Using USDOT data and measuring on a comparable ton-miles basis, rail is 
approximately 3-5 times safer than trucking.
    Short lines are proud of our safety culture and work diligently to 
reduce and eliminate injuries. In 2018, 265 short lines reported zero 
accidents to the FRA. The average accident rate that year was a near 
record low of 1.84 per million train miles. We are also proud of the 
Short Line Safety Institute, which exists to provide voluntary intense 
safety culture assessments on short lines all over the country as we 
continually strive for zero accidents, injuries, and fatalities.
    Because rail is the safest option for moving freight by land, any 
policies that Congress enacts that affect the balance between rail and 
trucking also affect public safety and have major societal impacts.
                      The Right Legislative Stuff
    As evidenced by the discussion above, short line railroads have the 
right stuff when it comes to moving America's stuff, and we would like 
to share with the Committee several legislative recommendations that we 
believe will help our industry provide more of that stuff in the 
future.
    As you likely know, our number one legislative priority is the 
extension of the Short Line Rehabilitation Tax Credit known as 45G. I 
will mention this only briefly for three reasons. First, it is not in 
the jurisdiction of this committee. Second, you are no doubt as tired 
of hearing us talk about it as I am of talking about it. Third, 49 of 
the 62 Members of these two Sub-Committees are co-sponsors of this 
legislation so I'd only be preaching to the choir. Suffice it to say 
that this credit allows short lines to maximize infrastructure 
investment that is critical to producing the kind of economic, 
environmental, and societal results described above, and to the extent 
that any of the members of this committee are able to work with your 
colleagues on Ways & Means and in leadership to ensure that an end-of-
the-year tax package advances that includes 45G, that would be a big 
win for the thousands of communities and shippers that count on short 
lines. The credit has been expired since December 31, 2017 and we 
respectfully call on Congress to address this before the end of this 
year. The negative consequences of the credit being lapsed are becoming 
more apparent by the day.
    We strongly support the Consolidated Rail Infrastructure and Safety 
Improvements (CRISI) grant program as it specifically provides for 
short line eligibility and puts a focus on benefit-cost analysis. We 
have seen that with this level playing field, short line projects fare 
well. Further, it includes a special focus on the deployment of 
railroad safety technology, which can potentially help our work 
implementing positive train control (PTC) in compliance with the 
federal mandate. The yearly authorized level for the program should be 
increased--we suggest to $592 million, which was the high-water mark 
appropriated in fiscal year (FY) 2018. We also recommend that program 
eligibility be tweaked to include non-profit associations representing 
short line railroads. These types of associations have previously been 
eligible for similar grant programs and successfully received grants 
that provided safety support to many short line railroads. The current 
FY20 House THUD Appropriations bill includes language to this effect. 
We believe CRISI is an important and effective program that should be 
continued in the next surface transportation authorization bill.
    We are also supportive of the INFRA grant program. There is value 
in a merit-based discretionary grant program open to multiple modes of 
transportation, especially one that is focused on freight and goods 
movement, but we do recommend two changes to this program:
    1)  Allow the program to support the most efficient and effective 
freight projects by fully removing or at least significantly increasing 
the $500 million cap on non-highway portions of the multimodal freight 
projects. Such a cap is particularly anachronistic now that the highway 
trust fund has been subsidized by more than $140 billion(!) in general 
funds since 2008.
    2)  Ensure that the program is able to fund all efficient and 
effective projects by increasing the ``small projects'' set aside. 
Currently, the 10% cap on small projects, defined as projects that do 
not meet the $100 million project minimum, does not provide enough 
opportunity for INFRA grants to be used to help with most short line 
infrastructure projects. The 10% set aside should be increased to 25% 
to more accurately represent the many needs in small town and rural 
America and the small but effective projects that are possible 
everywhere.

    Similar to the INFRA grant program, the state freight formula 
program is also a beneficial program that could be improved by 
increasing the percentage of the grants that can go to the non-highway 
portions of multimodal freight projects. Again, artificially limiting 
the types of projects that can be funded results in less than optimal 
projects being selected, and it also makes no sense in a world where 
road user fees are not funding anywhere near the full cost of the 
highway trust fund.
    We also support the BUILD program. While BUILD has traditionally 
not been an authorized program, if this committee is inclined to 
authorize the program going forward, we would suggest including 
language that encourages the USDOT to select projects that are multi-
modal in nature and not just projects that could just as easily be done 
within the normal state highway allocation. And the committee could 
also strengthen language around prioritizing the environmental and 
societal benefits of projects.
    The RRIF loan authorization of $35 billion is viewed by many as a 
potential solution to railroad rehabilitation. That has unfortunately 
not been the case so far. Since its inception in 1998, the program has 
provided miniscule support for short line rehabilitation. 
Notwithstanding its relatively limited utility, we wake up optimistic 
every day and believe there are ways to improve the program and thus 
offer the following suggestions.
    <bullet>  Provide subsidies for RRIF loan credit risk premiums, 
along the same lines as TIFIA;
    <bullet>  Provide assistance for advisory fees associated with RRIF 
loan applications;
    <bullet>  Extend RRIF loan terms from the present 35 years to 50 
years to more accurately match loan terms with the economic life of 
railroad assets;
    <bullet>  Facilitate earlier identification of credit risk premium 
ranges so that an applicant knows if it's worth engaging in the 
process;
    <bullet>  Implement an express framework for RRIF applications 
meeting certain criteria;
    <bullet>  Ensure that RRIF loans are considered local matching 
funds for other federal programs provided that they are repaid with 
local funds, as is the rule under TIFIA; and
    <bullet>  Allow short line holding companies to be applicants.

    I know that Members of this Committee have been vocal advocates for 
a comprehensive infrastructure program that addresses well-documented 
and critical needs. We share your frustration with the political 
gridlock that has halted progress on this important subject. In the 
hope that good sense will eventually prevail, we offer up five general 
principals that will help short lines better utilize any grant programs 
funded within a surface transportation reauthorization bill or larger 
infrastructure package, whether those are the existing programs noted 
above or new programs:
    1.  Short lines should be directly eligible applicants for project 
grants, similar to CRISI. Too often in the past, federal programs have 
been only open for application to local units of government, which in 
turn requires short lines to create unnecessarily complex and 
burdensome applicant structures and which sometimes favors politically 
popular projects over economically beneficial projects.
    2.  The application process needs to be as simple and transparent 
as possible. Short lines are small businesses and generally the 
individuals writing these applications are employees with other duties 
on the railroad. We do not have full time grant writers or the 
resources to hire expensive consulting firms.
    3.  The analysis used to judge a project should not be a rigid one-
size-fits-all process. For example, the process to apply, the public 
planning and the engineering required, and the appropriate benefit-cost 
analysis format for incrementally upgrading a ten-mile segment of 
existing track serving five small grain elevators should not be the 
same as building a new subway line or adding lanes to an interstate 
highway.
    4.  If there is to be an associated environmental approval process, 
it must be completed in a reasonable period of time. Approval processes 
that last for years are a deal-killer to those running a business.
    5.  Imposing limits on a state DOT's number of grant submissions 
allowed in a round of a program forces pre-application competition 
between smaller short line projects and other larger projects, often 
putting the smaller short line project at a disadvantage.

    Finally, I will wrap up with three policy issues to keep in mind as 
the Committee looks towards a surface transportation reauthorization 
bill and considers how to increase the economic, environmental, and 
societal benefits of freight movement:
    1)  Infrastructure legislation that this committee advances will be 
a target vehicle for those who want to increase truck size and weight. 
Short lines are part of a broad coalition of interests, including 
safety advocates, law enforcement officials, rail labor, truck labor, 
independent truckers, Class I railroads, and even some truckload 
carriers, who oppose bigger and heavier trucks. Bigger trucks mean 
diversion from rail to truck and thus more trucks, more expensive 
damage to our highways and bridges, more highway congestion, more 
environmental damage, and more danger for the motoring public. Of all 
the aspects of my job, this is the only thing that all the relatives at 
the Thanksgiving dinner table care about and agree on--NOBODY wants 
bigger trucks! The biggest hurdle to enacting new infrastructure 
funding legislation is finding the funding, so including a provision 
that guarantees higher infrastructure repair costs makes the hurdle all 
the more difficult to overcome and that just would not make sense.
    2)  Mandating crew sizes on trains would be counter-productive in 
that it would just make trains less competitive with other 
transportation modes and would do so for no good reason as there is no 
evidence of a safety benefit generated by a second crew member. It is 
ironic that as the government is working to facilitate the move to 
driverless vehicles on the complex open architecture of the highway 
system, Congress is considering making the railroads do just the 
opposite on the simpler closed architecture of the railroad system. 
Short lines operate safely all over the country with a variety of 
business models and crew sizes, and we need the ability to be flexible 
and to adapt to an ever-changing competitive marketplace or else we 
will simply vanish in the face of competition.
    3)  As has been said thousands of times by most of you all on this 
Committee and most of us in the transportation community, it is 
essential that the highway trust fund return to a largely user- funded 
system. There are many important reasons for this, but from our short 
line perspective the current system amounts to a $10b+ per year 
government subsidy to our biggest competitors, which artificially 
shifts traffic from the freight rail system to the highway system and 
thus loses the economic, environmental, and societal benefits that can 
be provided by freight rail.

    In summary, short Line railroads have the right stuff, and with 
your continued support in the areas I have identified, we will provide 
even more of the stuff that matters--jobs, economic opportunity, 
environmental sustainability, and business growth, particularly in 
small town and rural America.
    I appreciate the opportunity to appear before you today and am 
pleased to answer any questions you might have.
                               attachment
  Short Line Railroad Customers Talk about Service and the Short Line 
                     Rehabilitation 45G Tax Credit
Dana Shellberg, of Allweather Wood LLC, in Loveland, CO (a customer of 
        the Great Western Railway of Colorado)
    ``Without the Great Western Railway of Colorado we would have to 
truck all our lumber in from Oregon, Washington, Alabama, and Arkansas. 
This would not allow us to stay competitive in the lumber market.''
Robert Glezen, of Mont Eagle Mills, Inc., in Oblong and Palestine, IL 
        (a customer of the Indiana Rail Road)
    ``Short line railroads are an increasingly important piece of our 
nation's infrastructure. Our business depends upon the Indiana Rail 
Road to serve the agricultural base of southeastern Illinois.''
David Doti, of Jadcore, LLC, in Terra Haute, IN (a customer of the 
        Indiana Rail Road)
    ``The Indiana Rail Road is our only connection to the main line. 
All of the other carriers have either merged or are out of business. 
The plastics industry relies on the railroad for its delivery of 
finished products all over the country.''
Daniel Semsak, of Pacific Woodtech Corporation, in Saginaw, MI (a 
        customer of the Lake State Railway)
    ``We depend on short lines to get into our customers' facilities. 
Rail access is essential for our company and our customers to be able 
to grow. As the Class 1 railroads have focused more and more on unit 
trains for inefficiencies, small business has relied on short lines for 
survival. We need the short lines for the ``last mile''.''
Brian Arnhalt, of Minn-Kota Ag Products, in Breckenridge, MN (a 
        customer of the Red River Valley & Western Railroad)
    ``Our rail service from the Red River Valley & Western Railroad is 
outstanding. The personalized attention to our customer needs is a big 
help in the success of our business.''
Curt Warfel, of Akzo Nobel, Inc., in Columbus, MS (a customer of the 
        Alabama and Gulf Coast Railway)
    ``Akzo Nobel has long been supportive of the short line railroad 
tax credit. We see this as an excellent way in which short line 
railroads may ``stretch'' a dollar to upgrade their railroads and 
improve service to rail shippers.''
Chuck Hunter, of PSC Metals, Inc., in St. Louis, MO (a customer of the 
        Terminal Railroad Association of St. Louis)
    ``The six short lines that serve our facilities have and will play 
a vital role in the growth of our company. They have worked with us to 
add rail service to several of our facilities, issued rates to incent 
rail service-vs-truck. Their local presence and willingness to 
partnership in problem solving has been a blessing. These service 
providers are an essential part of our continued success in the North 
American marketplace.''
Levi Ross, of Dead River Company, in North Walpole, NH (a customer of 
        the Green Mountain Railroad)
    ``Our retail petroleum business is dependent on the service of 
short lines for a dependable regional supply chain.''
Jason Tininenko, of Freeport McMoRan, in Hurley, NM (a customer of the 
        Southwestern Railway)
    ``There are several short line railroads that are integral to our 
business. They provide a consistent, cost effective option for us to 
move large volumes of freight both to and from our mining locations.''
Mike Sawyer, of Western Producers Cooperative, in Dill City, Rocky, and 
        Sentinel, OK (a customer of Farmrail)
    ``Our livelihood depends on railroads shipping our grain. Farmrail 
does a great job in taking care of our needs. We need their services!''
Steve Stivala, of MacMillan-Piper, in Tacoma, WA (a customer of Tacoma 
        Rail)
    ``Tacoma Rail is an integral part of our business and overall 
operation in Tacoma. The short line railroad provides us with 
consistent and reliable service on a daily basis. By meeting our needs 
and requirements, we are better able to service our customers. This 
would not be possible without the assist from Tacoma Rail.''
Maurice Bohrer, of Michels Materials, in Janesville and Waterloo, WI (a 
        customer of the Wisconsin & Southern Railroad)
    ``Our short line and regional railroad, the Wisconsin & Southern 
Railroad, is the only railroad that provides service to our black 
granite quarry and without them we would not be able to sell our 
granite to many of our customers and the other railroads that use our 
ballast!''
                               attachment
 The Section 45G Tax Credit and the Economic Contribution of the Short 
                         Line Railroad Industry
    The report entitled ``The Section 45G Tax Credit and the Economic 
Contribution of the Short Line Railroad Industry'' is retained in 
committee files and is available online as an attachment to Mr. Baker's 
written testimony at the U.S. House of Representatives Document 
Repository at https://docs.house.gov/meetings/PW/PW12/20191205/110277/
HHRG-116-PW12-Wstate-BakerC-20191205.pdf.

    Mr. Lipinski [presiding]. Thank you, Mr. Baker.
    Ms. Goodchild, you are recognized for 5 minutes.
    Ms. Goodchild. Good morning, Chairs Norton and Lipinski, 
and Ranking Members Davis and Crawford, as well as 
distinguished members of the committee. Thank you for the 
opportunity to speak with you about this important topic.
    My name is Anne Goodchild. I am a professor of civil and 
environmental engineering at the University of Washington, and 
the director of the Supply Chain Transportation and Logistics 
Center. I am the founding director of the Urban Freight Lab, 
and an urban freight expert.
    It is an uncommon pleasure to be in a room full of 
policymakers so interested in freight transportation.
    The freight system allows for economic specialization, and 
is a requirement for city living. It provides markets to 
producers and strengthens competition.
    I am here today to highlight that freight infrastructure is 
more than interstates, ports, pipelines, and rail facilities. 
It is also city streets, curbs, and sidewalks. This is where a 
supply chain's last mile is carried out. That is the 
infrastructure that gets a good to its final destination.
    When we talk about freight infrastructure investment and 
building a better freight system, we must include the last 
mile, and even the final 50 feet. Investments in this 
infrastructure and innovations in the last mile provide a 
substantial opportunity to improve supply chain efficiency, 
more effectively delivering essential services and the economic 
and social benefits that they promise.
    The last mile is not, as the name suggests, a small part of 
the freight system. It is the current obsession of the supply 
chain industry, and an increasing burden for cities and 
neighborhoods. The last mile is the most difficult and costly 
mile of the entire freight system, estimated to absorb between 
25 and 50 percent of total supply chain transportation spent.
    Dramatic growth in online shopping and faster and faster 
home delivery is increasing the cost of the last mile and the 
amount of last-mile traffic. Investments in improving the last 
mile and the final 50-feet infrastructure will bring 
disproportionate benefits to the freight system, carriers, and 
consumers.
    We will have to rethink how we build and manage our 
infrastructure if it is to accommodate the expected growth in 
delivery services. Departments of transportation are facing 
many rapid and complex changes and competing demands for space. 
For example, growth in home delivery, the use of ride-hailing 
services, the construction of dedicated bike lanes, and 
autonomous vehicles all want additional curb space. Relying on 
intuition can lead to policies such as truck bans that actually 
increase congestion and emissions.
    In fact, our research demonstrates that organized, 
efficient freight carriers reduce traffic and emissions because 
a single delivery truck can replace dozens of car trips. On the 
street we see high rates of unauthorized parking, long dwell 
times, and high failed delivery rates, which means both poorly 
utilized vehicles and drivers, high emissions, and poorly 
utilized public space.
    Developing effective solutions to these urban freight 
challenges requires new approaches. We need evidence-based 
solutions that will improve efficiency for carriers and improve 
transportation system performance. In the face of a fast-
changing industry, limited data, and freight planning capacity, 
this requires new approaches. Our response at the University of 
Washington was to establish the Urban Freight Lab, an 
innovative partnership between private industry, academic 
researchers, and the Seattle DOT, as well as other public 
agencies, to jointly solve urban freight problems.
    Private-sector members, as well as the public sector, 
contribute financially to the research, and collectively decide 
on a research agenda. While all members contribute and play an 
essential role in defining and identifying needs, lab fees do 
not and should not cover the cost of all research. The findings 
have national impact, and testing solutions at scale cannot be 
the responsibility of only this group.
    Important financial support for the center also comes from 
the Department of Energy, Office of Energy Efficiency and 
Renewable Energy, and the University Transportation Center 
Program. These and other Federal programs play an essential 
role in sponsoring and guiding the direction of national 
research.
    I encourage you to include approaches to study and improve 
urban freight performance in future policies. Thank you very 
much for your time.
    [Ms. Goodchild's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Anne Goodchild, Ph.D., Founding Director, Supply 
  Chain Transportation and Logistics Center, University of Washington
    Good morning, Chairs Norton and Lipinski and Ranking Members Davis 
and Crawford as well as distinguished Members of the Committee. Thank 
you for the opportunity to speak to you about this important topic. My 
name is Anne Goodchild and I am a professor and the Director of the 
Supply Chain Transportation and Logistics Center at the University of 
Washington. I am an urban freight expert. The freight system, 
ultimately, allows for economic specialization; it supports city 
living, provides markets to producers, and strengthens competition. On 
its own, the transportation and logistics sector represents 
approximately 10% of the US gross domestic product--a larger sector 
than either retail, or financial services \1\. The freight system is 
more than interstates, ports, pipelines and rail facilities. The 
freight system is city streets, local highways, sidewalks, bike lanes, 
and front steps--the last mile of where these supply chains is carried 
out. It is the delivery man walking to your door or mailbox. When we 
talk about freight infrastructure investment and building a better 
freight system, we must remember to include the last mile and 
particularly the Final Fifty Feet to the final delivery destination. 
Without completing this final step, supply chains fail to deliver the 
economic and social benefits they promise.
---------------------------------------------------------------------------
    \1\ https://www.bea.gov/system/files/2019-10/gdpind219_2.pdf
---------------------------------------------------------------------------
 Last mile costs businesses a disproportionate amount of time and money
    The last mile is essential, and expensive; the most difficult and 
costly mile of all. While estimates vary, the cost of the last mile has 
been estimated at between 25% and 50% of total supply chain 
transportation costs \2\ \3\.
---------------------------------------------------------------------------
    \2\ https://www.kuebix.com/the-high-costs-of-final-mile-delivery/
    \3\ https://www.supplychaindive.com/news/last-mile-spotlight-
retail-costs-fulfillment/443094/
---------------------------------------------------------------------------
    The last mile is costly because:
    1)  It relies more on human labor than the other segments of supply 
chain transportation with drivers going door-to-door to drop off 
packages. In cities, drivers can spend 80 or 90% of their time outside 
the vehicle \4\.
---------------------------------------------------------------------------
    \4\ https://www.greenbiz.com/article/we-will-still-need-drivers-
driverless-future
---------------------------------------------------------------------------
    2)  Goods are more fragmented the farther you travel down the 
supply chain. Upstream, goods are moved in large, consolidated 
shipments such as single commodities but the closer goods get to the 
consumer the more they are broken down into shipments for individual 
customers.
    3)  80% of Americans live in congested regions \5\ where travel 
speeds are slower and less reliable. This increases the number of 
vehicles and drivers required to do the same work.
---------------------------------------------------------------------------
    \5\ http://css.umich.edu/factsheets/us-cities-factsheet
---------------------------------------------------------------------------
    4)  There can be high rates of failed deliveries requiring repeated 
delivery attempts and resulting in ballooning costs. Failed delivery 
attempts can mean that two or three additional trips are require to 
accomplish the same task.

    While the high cost of the last mile is in part due to the 
distributed nature of deliveries, the cost is inflated by congestion, a 
lack of reasonable parking options, and other constraints put on 
commercial vehicle operations such as specific street or time of day 
bans.
                  Online shopping growing and speeding
    Online shopping rates are growing and this is increasing demand for 
last mile delivery. UPS, the world's largest package delivery company, 
experienced 23% revenue growth from 2014 to 2018 (5.5% annually \6\). 
With one-click shopping and free home delivery it is now often cheaper 
and easier to order something online than it is to go to the store. 
Retail e-commerce sales as a percent of total retail sales in United 
States rose to 9% in 2017 and this figure is expected to reach 12.4% in 
2020 \7\. With store-based shopping, most Americans use their personal 
vehicles for shopping trips; driving to the store alone, purchasing a 
few items, and returning home in their car. With an online purchase, 
the trip--now a delivery--is made with a commercial vehicle, extending 
the supply chain from the store or warehouse and bringing increasing 
numbers of commercial vehicles into towns and neighborhoods. The volume 
of daily deliveries to homes has soared--from fewer than 360,000 a day 
in New York City in 2009 to more than 1.5 million today \8\. Households 
now receive more deliveries than businesses; and this, with online 
retail representing only 10% of all retail. Imagine how many more trips 
there will be when online retail hits 20% or 50%.
---------------------------------------------------------------------------
    \6\ https://www.forbes.com/sites/greatspeculations/2019/10/18/ups-
revenues-strong-last-few-years-but-slower-growth-ahead/#323b065368e4
    \7\ https://nrf.com/insights/economy/state-retail
    \8\ https://www.nytimes.com/2019/10/27/nyregion/nyc-amazon-
delivery.html
---------------------------------------------------------------------------
    In addition to growth in the number of deliveries, the pace of 
delivery of speeding. Amazon, which currently holds about a 50% share 
of the online market in the US has, in the last 3 years, halved their 
average click-to-door speed from about 6 days to about 3 days \9\. 
Other retailers are attempting to keep pace. Just this week I received 
an email from Amazon notifying me that Amazon Fresh would now deliver 
at ``ultrafast speeds'' in my area: ``You can schedule same-day 
deliveries from 6:00am-10:00pm and get FREE 2-hour scheduled delivery 
windows on orders over $35''. Free two-hour delivery. This was not in 
response to a request, rather this is being rolled out to all Prime 
members. Depending on your location, you can also get 1-hour delivery 
for a small additional fee. This is also available in DC and Northern 
VA. There has also been a proliferation of on-demand delivery services, 
particularly in the food delivery sector, where online platforms now 
serve close to 30% of the market.
---------------------------------------------------------------------------
    \9\ https://www.emarketer.com/chart/221703/average-click-to-door-
speed-us-digital-purchases-
made-on-amazon-vs-other-retailers-dec-2015-march-2018
---------------------------------------------------------------------------
    The US leads the world in online shopping activity and speed of 
delivery \10\. Supply chains have spent decades investing in technology 
and building the information systems required to deliver on home 
delivery and service promises. More recently, venture capital has also 
invested in transportation and logistics, with PitchBook reporting 
$14.4 billion invested globally in privately owned freight, logistics, 
shipping, trucking, transportation management system (TMS), and supply 
chain tracking startups since 2013 \11\. Not only do these changes 
affect transportation and logistics companies, but these changes affect 
peripheral sectors as companies reorganize their operations to service 
these new demands.
---------------------------------------------------------------------------
    \10\ https://unctad.org/en/pages/
PressRelease.aspx?OriginalVersionID=505
    \11\ https://www.joc.com/technology/vcs-taking-long-odds-big-
logistics-wins_20190523.html
---------------------------------------------------------------------------
    As customers are offered, and accept, shorter and shorter click-to-
delivery times, delivery companies have less opportunity to make 
consolidated, efficient deliveries. Instead of waiting for more orders 
and sending out full trucks, vehicles are sent out to meet their quick 
delivery promise; reducing vehicle utilization. This increases the 
number of vehicles on the road, increases the cost per delivery, and 
increases vehicle emissions.
                There is a Significant Impact on Cities
    It is the roads and sidewalks built by American cities and towns 
that enable this last mile delivery. In Seattle, 87% of buildings in 
greater downtown rely solely on the curb for freight access \12\. These 
buildings have no off-street parking or loading bays.
---------------------------------------------------------------------------
    \12\ http://depts.washington.edu/sctlctr/sites/default/files/
SCTL_Final_50_full_report.pdf
---------------------------------------------------------------------------
    Our cities were not built to handle the nature and volume of 
current freight activity and are struggling to accommodate growth \13\. 
At the same time, delivery of goods is just one of the many functions 
of our transportation networks. The same roads and sidewalks are also 
used by pedestrians, cyclists, emergency vehicles, taxis, ride hailing 
services, buses, restaurants, and street vendors, to name a few.
---------------------------------------------------------------------------
    \13\ https://www.nytimes.com/2019/10/27/nyregion/nyc-amazon-
delivery.html
---------------------------------------------------------------------------
    Capacity on our transportation networks is increasingly scarce. 
Texas Transportation Institute's 2019 Urban Mobility Report, a summary 
of congestion in America, is titled ``Traffic is Bad and Getting 
Worse'' \14\. Over the past 10 years, the total cost of delay in our 
nation's top urban areas has grown by nearly 47%. It is on top of this 
already congested network, that we add this growing last mile traffic. 
American cities have yet to make any headway with congestion, and 
delivery traffic both adds to, and suffers from, this condition.
---------------------------------------------------------------------------
    \14\ https://mobility.tamu.edu/umr/
---------------------------------------------------------------------------
    To address congestion, many state Departments of Transportation are 
working to provide safe and competitive alternatives to single 
occupancy vehicle travel such as transit, bicycling, and walking. Other 
federal agencies are also working on addressing this issue, such as the 
Department of Energy, which has awarded UW and Seattle an EERE grant. 
In building dedicated bicycle facilities, one common solution is to 
convert the curb lane to a bike lane, removing commercial vehicle load 
and unload space. At the same time, American's are increasingly using 
ride-hailing services such as Uber and Lyft \15\. This also increases 
the demand for curb space as passengers request pickup and drop-off 
instead of parking their own vehicle off-street.
---------------------------------------------------------------------------
    \15\ https://www.citylab.com/transportation/2019/08/uber-lyft-
traffic-congestion-ride-hailing-cities-drivers-vmt/595393/
---------------------------------------------------------------------------
    The result is too much demand for too little space, and there is 
ample evidence of a poorly functioning system. From a study in Seattle, 
52% of vehicles parked in commercial vehicle load zones were passenger 
cars, and 26% of all commercial vehicles parked in passenger load 
zones. In New York City, UPS and Fedex received 471,000 parking 
violations in 2018. Everyone has seen an image of a truck parked in a 
bike lane, or been stuck behind a delivery truck occupying an entire 
residential street. While we might expect a small percentage of 
violations, these levels reflect a failure of planning and design to 
deliver reasonable alternatives to commercial vehicles, and a city that 
has not caught-up with the changes in supply chain and shopping 
patterns.
    In addition to these operational challenges, commercial vehicles 
have impacts on American's health and safety. Per mile, trucks produce 
disproportionately more carbon dioxide and local pollutants (NOx, PM) 
than passenger vehicles so a substitution of delivery trucks for 
passenger vehicles has the potential to increase emissions \16\. 
However, delivery services also present an opportunity to reduce 
emissions per package as they can consolidate many packages into one 
vehicle; the same way transit or carpooling can be an emissions 
advantage over single occupancy vehicle trips. Research shows that in 
most cases a well-run delivery service would provide a carbon dioxide 
reduction over typical car-based shopping behavior \17\. While there is 
the opportunity for delivery services to provide this emissions 
benefit, the move towards very fast delivery erodes that benefit as 
delivery services are unable to achieve the same level of consolidation 
and begin to look more like butler services.
---------------------------------------------------------------------------
    \16\ https://www.epa.gov/regulations-emissions-vehicles-and-
engines/regulations-greenhouse-gas-emissions-commercial-trucks
    \17\ http://depts.washington.edu/sctlctr/research/publications/
evaluating-impacts-density-urban-
goods-movement-externalities
---------------------------------------------------------------------------
    Diesel powered vehicles, often used for the movement of freight, 
produce disproportionately more particular matter and NOx pollution 
than gasoline engines, so the use of these vehicles in urban areas, 
where human exposure levels are higher, has significant negative 
outcomes for human populations in terms of asthma and heart disease 
\18\. This is particularly true for the very young, elderly, or 
immunosuppressed.
---------------------------------------------------------------------------
    \18\ https://www.lung.org/our-initiatives/healthy-air/outdoor/air-
pollution/particle-pollution.html
---------------------------------------------------------------------------
    While it may seem intuitive that replacing a car trip to the store 
with a truck delivery would be bad for the city, in fact, delivery 
services can reduce carbon emissions and total vehicle miles travelled. 
This is because the truck is not just delivering to one home, but to 
many. In this sense, the truck delivery behaves like a transit vehicle 
or very large carpool. This can reduce congestion by reducing the 
number of vehicles on the road. Delivery trucks can be an asset when 
performing in this efficient manner because they consolidate many goods 
into a single vehicle reducing per package cost, emissions, and 
congestion impacts.
    Banning trucks and requiring or encouraging the use of smaller 
vehicles INCREASES the number of vehicles and the vehicle miles 
travelled; exacerbating traffic and parking problems.
    Growth in two and one-hour delivery INCREASES the number of 
vehicles and vehicle miles travelled; exacerbating traffic and parking 
problems.
   The Urban Freight Lab as a Public and Private Sector Collaboration
    Businesses are challenged by the high cost of the last mile, and 
the increasing time pressure for deliveries. Cities are working to 
manage congestion, the competing demands of many users, emissions, and 
intense pressure for curb space. This presents a complex set of 
problems, where:
    <bullet>  private carriers are struggling to comply with city 
regulations and remain financially competitive while meeting customer 
expectations
    <bullet>  customers are benefiting from high levels of convenience 
but also experiencing high levels of congestion and suffering from the 
effects of growing emissions
    <bullet>  cities and towns are struggling to meet demands of 
multiple stakeholders and enforce existing rules

    All of this, in a context where there are very limited data 
regarding truck or commercial vehicle activity, numbers of deliveries, 
or other measures of efficiency. The Freight Analysis Framework \19\, 
which compiles the nation's most significant freight datasets such as 
the Commodity Flow Survey, breaks the country into 153 zones, so that 
most states can only see what came into or out of the state, not how 
vehicles move around within cities and towns. The more recently 
developed National Performance Management Research Data Set (NPMRDS) 
\20\, presents truck specific data, and allows for highway speeds to be 
monitored at a county level, but does not show vehicle volumes, or give 
any insights into origin-destination patterns. At the national level, 
mode-specific datasets provide more spatial, temporal, and activity 
detail. For example, the Carload Waybill sample \21\ provides important 
data on rail cargo movements and the Air Operators Utilization Reports 
\22\ provide important data on airplane activity. Unfortunately, the 
Vehicle Inventory and Use Survey, which provided detailed data on truck 
and goods movements, was discontinued in 2002. This leaves cities and 
towns have no nationally consistent sources of or guidelines for 
collecting truck activity data.
---------------------------------------------------------------------------
    \19\ https://www.bts.gov/faf
    \20\ https://ops.fhwa.dot.gov/perf_measurement/index.htm
    \21\ https://www.stb.gov/stb/industry/econ_waybill.html
    \22\ https://www.faa.gov/data_research/aviation_data_statistics/
---------------------------------------------------------------------------
    The most economically efficient solutions to these challenges will 
be identified through collaboration between cities and private 
partners. One particularly successful and innovative solution can be 
found in the Urban Freight Lab at the University of Washington (https:/
/depts.washington.edu/sctlctr/urban-freight-lab-0). As the director of 
the Urban Freight Lab, I have built a coalition of private companies 
and public agencies who work together to identify and measure problems, 
and develop and pilot-test solutions that will provide benefits for a 
diverse group of public and the private sector stakeholders. The goal 
is to find win-win solutions for businesses and city dwellers, and to 
avoid short-sighted solutions like blanket truck bans \23\.
---------------------------------------------------------------------------
    \23\ https://nyc.streetsblog.org/2018/08/20/city-abandons-clear-
curbs-program-that-reduced-traffic-congestion-and-made-roosevelt-
avenue-safer/
---------------------------------------------------------------------------
    The Urban Freight Lab is successful because:
    1.  All participants have skin in the game. Private sector 
contributions elevate public sector research funding and ensure that 
all participants fully engage. This is fundamentally different from an 
advisory board or oversight committee because members must report back 
to their leadership and justify participation with measurable returns 
on investment. This participation from the private sector improves 
relevance and timeliness of public sector support.
    2.  Collaboration amongst the private and public sector ensures 
that products of the lab are as mutually beneficial as possible.
    3.  Problems, evaluation metrics, and research ideas come from the 
group and are connected directly to real-world challenges faced, not 
the research directors, the public, or private sector alone.
    4.  Private- and public-sector participants are senior executives 
who have the authority to make decisions in quarterly meetings. They do 
not need to return to the organization for approval.
    5.  Cities need freight planning capacity but currently don't have 
any. The work of the Urban Freight Lab fills gaps in problem 
definition, data collection, solution generation, orchestration and 
evaluation of pilot tests.
    6.  Robust analysis is conducted by University researchers--they 
serve an important role in taking an unbiased view and base their 
analysis on data.
    7.  Quarterly meetings are working meetings with detailed agendas 
and exit criteria. The focus is on making progress, making decisions, 
and moving forward, not simply information sharing.
    8.  Private sector partners are operational and technical staff 
with knowledge of operations.
    9.  Public sector partners represent a breadth of functions 
including planning, engineering, curb management, mobility, and 
innovation.
    10.  University research focusses on practical outcomes and does 
not hide in theoretical concepts.
    11.  Solutions are tested on the ground through pilots and real 
tests. The slow work of collaboration building and overcoming obstacles 
to implementation is part of the research.

    Current private-sector lab members include Boeing HorizonX, 
Building Owners and Managers Association (BOMA)-Seattle King County, 
curbFlow, Expeditors International of Washington, Ford Motor Company, 
General Motors, Kroger, Michelin, Nordstrom, PepsiCo, Terreno Realty 
Corporation, US Pack, UPS, and the United States Postal Service (USPS). 
The Seattle Department of Transportation represents the public-sector.
    Seattle is a growing City and has now been ranked in the top 4 for 
growth among major cities for five consecutive years. It is a 
geographically constrained city surrounded by water and mountains, and 
boasts some of the highest rates of bike, walk, and transit commuting 
in the country \24\; with less than a quarter of City Center commuters 
now driving alone to work. It is a technologically oriented City; with 
the region serving as the home to many technology companies such as 
Amazon, Convoy, Facebook, Google, Microsoft, and Tableau. The City was 
one of the first to launch PayByPhone, electronic toll tags, weigh-In-
motion, high-occupancy-toll lanes, passive bicycle counters, real-time 
transit monitoring, bike and car share programs, and most recently, an 
Open Data Portal \25\. In this sense, the City provides an excellent 
example for experimentation where the public and private sector face 
intense pressure to look for new solutions and approaches; and levels 
of congestion and pressure that other US Cities can anticipate in their 
future as populations grow and infrastructure construction does not 
keep pace.
---------------------------------------------------------------------------
    \24\ https://commuteseattle.com/mediakit/2017-mode-split-press-
release/
    \25\ https://data.seattle.gov/
---------------------------------------------------------------------------
    With this private- and public-sector funding the Urban Freight Lab 
has:
    <bullet>  produced foundational research on the Final Fifty Feet of 
the supply chain \26\
---------------------------------------------------------------------------
    \26\ https://depts.washington.edu/sctlctr/sites/default/files/
SCTL_Final_50_full_report.pdf
---------------------------------------------------------------------------
    <bullet>  developed and applied approaches to quantify urban 
freight infrastructure \27\
---------------------------------------------------------------------------
    \27\ https://depts.washington.edu/sctlctr/sites/default/files/
SCTL_Alley_Infrastructure_
Occupancy_Study_12-11-18.pdf
---------------------------------------------------------------------------
    <bullet>  developed and applied approaches to measure 
infrastructure \28\
---------------------------------------------------------------------------
    \28\ https://depts.washington.edu/sctlctr/sites/default/files/
SCTL_Alley_Infrastructure_
Occupancy_Study_12-11-18.pdf
---------------------------------------------------------------------------
    <bullet>  generated and tested approaches to reducing dwell time 
and failed deliveries in urban areas including common lockers \29\
---------------------------------------------------------------------------
    \29\ https://depts.washington.edu/sctlctr/sites/default/files/
SCTL_Urban_Freight_Lab_
5.18.18.pdf
---------------------------------------------------------------------------
    <bullet>  developed and implemented an approach to measuring the 
volume of vehicles entering and exiting the City of Seattle.\30\
---------------------------------------------------------------------------
    \30\ https://depts.washington.edu/sctlctr/research/publications

    Ongoing work is supported in large part by a grant from the 
Department of Energy U.S. Department of Energy: Energy Efficiency & 
Renewable Energy (EERE) titled Technology Integration to Gain 
Commercial Efficiency for the Urban Goods Delivery System, Meet Future 
Demand for City Passenger and Delivery Load/Unload Spaces, and Reduce 
Energy Consumption. This project, funded by DOE, provides $1.5 million 
over 3 years with matching funds from the City of Seattle, Sound 
Transit, King County Metro, Kroger, the City of Bellevue, and CBRE. The 
project will evaluate the benefit of integrated technology applications 
on freight efficiency. Within the scope of this grant, Urban Freight 
Lab members and the Seattle DOT will be involved in developing and 
testing applications of technology in the Belltown area of Seattle that 
will increase commercial efficiency and reduce impact of freight 
activity on city residents \31\.
---------------------------------------------------------------------------
    \31\ https://depts.washington.edu/sctlctr/research-projects/current
---------------------------------------------------------------------------
                             Moving Forward
    Shopping patterns have evolved, but our infrastructure has not. We 
need to rethink how we use our streets, curbs, and sidewalks if we want 
to maintain and grow our current shopping and delivery habits.
    By consolidating many goods into a single route, delivery services 
could be an asset to communities; growing economic activity, reducing 
total vehicle miles travelled and associated carbon emissions, and 
supporting communities \32\ less dependent on cars. However, the 
current trend towards faster and faster deliveries; and businesses 
subsidizing delivery costs means we see lower vehicle utilization, 
higher numbers of vehicles and congestion, and increased emissions.
---------------------------------------------------------------------------
    \32\ http://depts.washington.edu/sctlctr/research/publications/
evaluating-impacts-density-urban-
goods-movement-externalities
---------------------------------------------------------------------------
    While some town and city governments have invested measuring the 
state of urban freight in their communities and developed improvements, 
most have limited resources and no guidance from the state or federal 
level. For example, they do not know how many trucks operate in the 
region, what they carry, whether the current curb allocation is 
satisfactory, or what benefit might result from improvements.
    New modes, technologies, and operational innovations provide 
opportunities for win-win solutions. These new conditions may allow new 
modes such as electric assist cargo bikes \33\ to outcompete existing 
modes. Electric and hybrid vehicles can reduce both global and local 
pollutants. New technologies such as robotics, artificial intelligence, 
and electronic curbs may fundamentally shift the existing 
infrastructure paradigms. Private companies are ready to test these 
innovations, and the US and state DOTs can play a role in supporting 
these tests and conducting evaluations.
---------------------------------------------------------------------------
    \33\ http://depts.washington.edu/sctlctr/research-projects/ups-e-
bike-delivery-pilot-test-seattle-analysis-public-benefits-and-costs-
task
---------------------------------------------------------------------------
    Investments in the freight system must include the last mile, and 
in particular the final fifty feet of the delivery route as a 
consideration to ensure economic vitality and support quality of life. 
This includes supporting towns and cities in investigating and 
understanding the current state of goods movement at the municipal 
scale, identifying and evaluating new solutions for cities and towns to 
adapt to changing supply chains, integrating freight planning and 
passenger planning, and ultimately providing healthy environments for 
businesses to thrive and great places to live.

    Mr. Lipinski. Thank you, Ms. Goodchild.
    I now recognize Mr. Jefferies.
    Mr. Jefferies. Good morning, Chairs DeFazio, Holmes Norton, 
and Lipinski, Ranking Member Davis, Crawford, and members of 
the committee. Thank you for the opportunity to be here today 
representing the U.S. freight railroads.
    As you examine the capability of U.S. freight modes to meet 
the challenges of today and tomorrow, know this: due to 
sustained private investment, the freight rail network is in 
the best shape of its storied history.
    Today's railroad is different than the railroad of the 
past. But the capital intensive nature is a constant, enabling 
railroads to safely serve today's customers and plan for 
tomorrow's demands. Case in point: in the past 3 years, Class I 
railroads averaged $25 billion in private investments to manage 
and upgrade infrastructure and equipment. That is more than $68 
million a day of private capital poured back into our network. 
This year is no different. Class I capex is up almost $1 
billion through the third quarter of this year, year over year.
    Railroads play the long game, and the industry is executing 
a strong vision for the future. The positive impacts of this 
vision can be found every day.
    First, railroads operate safely. Railroads maintain a 
safety culture second to none, constantly looking for ways to 
further the safety performance. The evidence of this commitment 
is clear. In 2018 the train accident rate was down 36 percent 
from the year 2000, while the employee accident rate was its 
second lowest in history, down 48 percent. To continue these 
trends, the industry is deploying new inspection and detection 
technologies that allow for significantly more advanced 
assessments of rail, track, and locomotive health. We will not 
be satisfied until we reach a future of zero incidents.
    Second, railroads are the most environmentally sound way to 
move freight over land. To reiterate what my colleague said, on 
average, railroads move 1 ton of freight 473 miles per gallon 
of diesel fuel. To put that in perspective, that is equal to 
moving 1 ton of freight on 1 gallon of diesel from DC to 
Cincinnati or Chicago to Omaha. While moving nearly one-third 
of long-distance freight volume, railroads account for just 2 
percent of transportation-related greenhouse gas emissions. In 
fact, if just 10 percent of freight that is currently moved by 
trucks were transported by rail instead, annual greenhouse gas 
emissions would fall by more than 17 million tons.
    Third, railroads alleviate highway congestion and 
deterioration. Because a single train can carry the freight of 
several hundred trucks, railroads cut gridlock and lower the 
costs of road construction and upkeep.
    And finally, freight rail is a critical economic engine. 
U.S. freight railroads move roughly 40 percent of intercity 
ton-miles of freight, ship one-third of U.S. exports, and 
support more than 1 million jobs across the Nation.
    So looking forward, a positive future for freight rail and 
other transportation modes relies on a sound public policy. 
Robust private investment in the rail sector is made possible 
by a balanced economic regulatory system overseen by the 
Surface Transportation Board that relies on market-based 
competition, while providing a backstop for rail customers. The 
structure benefits the entire freight ecosystem. Rail rates in 
2018 were 44 percent lower than they were in 1981, when 
adjusted for inflation. To continue the success story, the STB 
must adhere to sound economic principles and all actions, and 
reject reregulatory efforts by some stakeholders.
    At the same time, Congress has a role to ensure modal 
equity across freight transportation by fixing the Highway 
Trust Fund. To do this, railroads believe a mileage-based 
solution, such as a weight-distance fee, is the most 
appropriate and sustainable long-term solution. I give credit 
to my friends in the trucking industry for advocating for a 
higher gas tax.
    The bottom line, though, all stakeholders agree a viable 
funding solution is a must, one that enables full cost recovery 
for highway wear and tear.
    In closing, privately owned railroads have their eyes on 
the future. The industry will continue to invest to meet market 
demand and maintain our core role in the Nation's integrated 
transportation network. We look forward to working with this 
committee and others in Congress as you look towards surface 
transportation reauthorization and develop and implement 
policies that best meet this country's infrastructure needs. 
Thank you.
    [Mr. Jefferies' prepared statement follows:]

                                 
 Prepared Statement of Ian J. Jefferies, President and Chief Executive 
               Officer, Association of American Railroads
    On behalf of the members of the Association of American Railroads, 
thank you for the opportunity to appear before you today. AAR members 
account for the vast majority of freight railroad mileage, employees, 
and traffic in Canada, Mexico, and the United States.
    Simply put, railroads are indispensable to the U.S. economy. They 
connect producers and consumers across the country and the world, 
expanding existing markets and opening new ones. Whenever Americans 
grow something, mine something, or make something; when they send goods 
overseas or import them from abroad; when they eat their meals or take 
a drive in the country, there's an excellent chance that railroads 
helped make it possible.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The affordability of freight rail saves rail customers (and, 
ultimately, American consumers) billions of dollars each year and 
enhances the global competitiveness of U.S. products. Average rail 
rates (measured by inflation-adjusted revenue per ton-mile) were 44 
percent lower in 2018 than in 1981. This means the average rail shipper 
can move close to twice as much freight for around the same price it 
paid more than 35 years ago.
    Several years ago, the American Association of State Highway and 
Transportation Officials (AASHTO) estimated that if all freight rail 
traffic were shifted to trucks, rail customers would have to pay an 
additional $69 billion per year. Adjusted for increased freight volume 
and inflation, it's probably close to $100 billion today.
    An October 2018 study from Towson University's Regional Economic 
Studies Institute found that, in 2017 alone, the operations and capital 
investment of America's major freight railroads supported approximately 
1.1 million jobs (nearly eight jobs for every railroad job), $219 
billion in economic output, and $71 billion in wages. Railroads also 
generated nearly $26 billion in tax revenues. In addition, millions of 
Americans work in industries that are more competitive in the tough 
global economy thanks to the affordability and productivity of 
America's freight railroads.
    Without railroads, American firms and consumers would be unable to 
participate in the global economy anywhere near as fully as they do 
today. International trade accounts for around 35 percent of U.S. rail 
revenue, 27 percent of U.S. rail tonnage, and 42 percent of the 
carloads and intermodal units U.S. railroads carry.
                             Sustainability
    According to the Environmental Protection Agency (EPA), 
transportation accounted for 28.4 percent of U.S. greenhouse gas 
emissions in 2017. The vast majority of transportation-related 
greenhouse gas emissions are directly related to fossil fuel 
consumption: higher fuel consumption means more emissions.
    Railroads, though, are the most fuel-efficient way to move freight 
over land. In 2018, railroads moved one ton of freight an average of 
473 miles per gallon of fuel--roughly the distance from Coos Bay, 
Oregon to San Francisco, or from Hannibal, Missouri to Columbus, Ohio. 
In fact, freight railroads, on average, are three to four times more 
fuel efficient than trucks--meaning that moving freight by rail instead 
of truck reduces greenhouse gas emissions by up to 75 percent. The rail 
fuel efficiency advantage helps explain why freight railroads account 
for just 2.0 percent of transportation-related greenhouse gas emissions 
and just 0.6 percent of total U.S. greenhouse gas emissions, according 
to the EPA, even though railroads account for one-third or more of 
long-distance freight volume (measured in ton-miles).
    If just 10 percent of the freight that moves by the largest trucks 
moved by rail instead, fuel savings would be more than 1.5 billion 
gallons per year and annual greenhouse gas emissions would fall by more 
than 17 million tons--equivalent to removing some 3.2 million cars from 
the highways for a year or planting 400 million trees.
    Railroads are constantly looking for ways to improve their fuel 
efficiency and further reduce emissions. Steps railroads have taken 
individually or collectively in recent years include:
    <bullet>  Installing highly advanced computer software systems that 
calculate the most fuel-efficient speed for a train on a given route; 
determine the most efficient spacing and timing of trains on a 
railroad's system; and monitor locomotive performance to ensure peak 
efficiency.
    <bullet>  Installing idling-reduction technologies, such as stop-
start systems that shut down a locomotive when it is not in use and 
restart it when it is needed, and expanding the use of distributed 
power (positioning locomotives in the middle of trains) to reduce the 
total horsepower required for train movements.
    <bullet>  Acquiring thousands of new, more efficient locomotives 
and removing from service thousands of older, less fuel-efficient 
locomotives.
    <bullet>  Providing employee training to help locomotive engineers 
develop and implement best practices and improve awareness of fuel-
efficient operations.

    Railroads also help reduce the huge economic costs of highway 
congestion. According to the Texas Transportation Institute's 2019 
Urban Mobility Report, highway congestion cost Americans $166 billion 
in wasted time (8.8 billion hours) and wasted fuel (3.3 billion 
gallons) in 2017. Lost productivity, cargo delays, and other costs add 
tens of billions of dollars to this tab. A single freight train, 
though, can replace several hundred trucks, freeing up space on the 
highway for other motorists. Shifting freight from trucks to rail also 
reduces highway wear and tear and the pressure to build costly new 
highways.
    In recent years, railroads have begun to investigate moving away 
from diesel locomotives in favor of alternatives--for example, to 
natural gas, or even potentially to batteries or fuel cells. At this 
point, it's not clear if an alternative will have the combination of 
affordability, reliability, and capability to be feasible for 
widespread use, but it does show that railroads are ``looking outside 
the box'' in terms of enhancing sustainability and environmental 
preservation.
                        Investing for the Future
    As America's economy and population grow, the need to move more 
freight will grow too. The Federal Highway Administration forecasts 
that total U.S. freight shipments will rise 35 percent from 2017 to 
2040. Railroads are getting ready today to meet this challenge.
    America's freight railroads operate overwhelmingly on 
infrastructure that they own, build, maintain, and pay for themselves. 
By contrast, trucks, airlines, and barges operate on highways, airways, 
and waterways that are almost entirely publicly funded.
    From 1980 to 2018, America's freight railroads spent more than $685 
billion--their own funds, not taxpayer funds--on capital expenditures 
and maintenance expenses related to locomotives, freight cars, tracks, 
bridges, tunnels and other infrastructure and equipment. That's more 
than 40 cents out of each revenue dollar spent to keep our economy 
moving.
    Railroads are much more capital intensive than most industries. 
Over the past decade, the average U.S. manufacturer has spent about 3 
percent of revenue on capital expenditures. The comparable figure for 
U.S. freight railroads is close to 19 percent, or about six times 
higher. Railroads know that if America's future transportation demand 
is to be met, they must have the capacity to handle it. Railroads are 
preparing for tomorrow today.

                Capital Spending as % of Revenue <dagger>
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Average all manufacturing                     2.9%
 
Food                                          2.2%
Petroleum & coal products                     2.4%
Machinery                                     2.6%
Fabricated metal products                     3.1%
Primary metal products                        3.1%
Wood products                                 3.1%
Motor vehicles & parts                        3.2%
Chemicals                                     3.4%
Plastics & rubber products                    3.6%
Paper                                         4.0%
Nonmetallic minerals                          4.8%
Computer & electr. products                   5.1%
 
Class I Railroads                             19.1%
------------------------------------------------------------------------
<dagger> Avg. 2007-2016
 Source: Census Bureau, AAR

    Thanks to their massive investments, freight railroad 
infrastructure today is in its best overall condition ever--quite a 
contrast to, say, America's highway network. The challenge for 
railroads, and for policymakers, is to ensure that the current high 
quality of rail infrastructure is maintained, and that adequate freight 
rail capacity exists to meet our nation's current and future freight 
transportation needs. Policymakers can help by avoiding policies that 
discourage rail investment.
                    Always Pushing to Improve Safety
    For our nation's railroads, pursuing safe operations is not an 
option, it's a business imperative. Most importantly, it's the right 
thing to do. Railroads are not just faceless corporations from 
somewhere far away. Rather, your neighbors are their neighbors. No 
matter where you live, chances are good that current or former rail 
industry employees live nearby. Railroads know they have an obligation 
to operate safely for their benefit and for the benefit of all members 
of the communities they serve.
    Railroads recognize they've not yet reached their goal of zero 
accidents and injuries, but we should all be encouraged by their 
progress. Recent years have been the safest for railroads in history. 
From 2000 to 2018, the train accident rate fell 35 percent, the 
employee injury rate fell 48 percent, and the grade crossing collision 
rate fell 36 percent. Railroads today have lower employee injury rates 
than most other major industries, including trucking, airlines, 
agriculture, mining, manufacturing, and construction--even food stores.
    Rail operations are subject to stringent safety oversight by the 
Federal Railroad Administration (FRA). For example, stringent FRA 
regulations cover track and equipment inspections, employee 
certification, operating speeds, and signals. FRA safety inspectors 
(and in some states, state inspectors) evaluate rail facilities and 
operations. Railroads are also subject to oversight by the Occupational 
Safety and Health Administration, the Pipeline and Hazardous Materials 
Safety Administration, and the Department of Homeland Security.
    Railroads are constantly incorporating new technologies to improve 
safety. Just a few examples: sophisticated detectors along tracks that 
identify defects on passing rail cars; ground-penetrating radar that 
identifies problems below ground, such as excessive moisture, that 
could destabilize track; and specialized rail cars that use 
sophisticated instruments to identify defects in tracks.
    Many railroad safety-related technological advancements were 
developed or refined at the Transportation Technology Center, Inc. 
(TTCI), the finest rail research facility in the world, in Pueblo, 
Colorado. TTCI is a wholly owned subsidiary of the AAR. Forty-eight 
miles of test tracks, highly sophisticated testing equipment, 
metallurgy labs, simulators, and other diagnostic tools are used to 
test track structure, evaluate freight car and locomotive performance, 
assess component reliability, and much more. The facility is leased by 
the FRA from the state of Colorado, but has been operated by TTCI since 
1984.
    Rail industry safety is also being enhanced by the Asset Health 
Strategic Initiative (AHSI), a multi-year rail industry program that is 
applying advanced information technology processes to improve the 
safety and performance of freight cars across North America. Through 
this program, advanced defect detection systems use a wide array of 
sensors to identify potential problems with freight cars and freight 
car components such as wheels, axles, bearings, and brakes. Advanced 
analytical programs flag suspect railcars so they can be removed from 
service and fixed before issues arise. Freight cars often travel across 
the networks of different railroads, but thanks to the sharing of 
information at the individual railcar level facilitated by AHSI, no 
matter where a particular railcar is at a particular time, preemptive 
action can be taken. The sharing of information across the industry 
allows problems to be detected that would not be detectable otherwise. 
AHSI is based on the recognition that the best approach to railcar 
health encompasses monitoring the entire railcar life cycle.
    Finally, freight railroads are committed to safely completing the 
implementation of positive train control (PTC) as quickly as possible 
so that further safety gains can be achieved. The seven Class I freight 
railroads all met statutory requirements by having 100 percent of their 
required PTC-related hardware installed, 100 percent of their PTC-
related spectrum in place, and 100 percent of their required employee 
training completed by the end of 2018. In aggregate, Class I railroads 
had 93 percent of required PTC route-miles in operation as of October 
2019. Each Class I railroad expects to be operating trains in PTC mode 
on all their PTC routes no later than 2020, as required by statute. In 
the meantime, railroads, in coordination with Amtrak, other passenger 
railroads, and other tenant railroads, are continuing to test and 
validate their PTC systems thoroughly to ensure they are interoperable 
and work as they should.
       Changing Markets Present a Serious Challenge to Railroads
    Freight railroads are what economists call a ``derived demand'' 
industry. This means that demand for rail service is a function of 
demand elsewhere in the economy for the products railroads haul. For 
example, automakers' demand for rail service rises when consumers are 
buying more cars but dries up if consumers stop buying cars. Therefore, 
what affects the broad economy affects railroads too.
    It's no secret that the economy has not been doing as well, 
especially recently, as we all would like, and rail traffic has 
suffered accordingly. Total rail carload and intermodal volume in 2019 
through October was down 4.4 percent over the same period last year. 
Weakness in U.S. rail volumes today is consistent with an economy in 
which manufacturing and commodity-related industries especially are 
hurting. The ongoing trade war and accompanying uncertainty has had the 
most direct impact on manufacturing and commodity-related industries 
that are heavily served by railroads. Railroads are hopeful that this 
uncertainty will be eliminated and that firms here and abroad can again 
devote full attention to helping our economies grow.
    Railroads are also impacted by what's happening in specific 
industries. Wheat is a good example. In a typical year, exports account 
for more than 40 percent of U.S. wheat production and railroads move 
approximately 60 percent of U.S. wheat exports. When wheat producers 
elsewhere in the world have good crops, or when trade restrictions are 
put into place, U.S. wheat exports--and, consequently, U.S. rail 
carloads of wheat--are impacted.
    All this illustrates that the U.S. and global economies are 
constantly evolving. Firms, even entire industries, can and do change 
rapidly and unexpectedly, and railroads must be able to deal with that 
flux. These broad, often unanticipated economic changes are reflected 
in changes not only in the volumes but also in the types and locations 
of the commodities railroads are asked to transport, and in the amounts 
and uses of railroad assets. When traffic changes occur in different 
areas--as is usually the case and has certainly been the pattern in 
recent years--the challenges to railroads become magnified.
    To successfully adapt to these challenges, railroads must be 
flexible and innovative while improving the efficiency and productivity 
needed to maintain their long-term financial health. Railroads may also 
have to invest in additional capacity to meet changing demand. Public 
policies that hamstring railroads by preventing or limiting this 
flexibility and innovation are sure to have a negative impact on 
railroads and on their ability to meet the transportation needs of our 
evolving economy.
             The Importance of Appropriate Public Policies
    Prior to passage of the Staggers Rail Act of 1980, excessive 
regulation put our nation's freight railroads in a huge financial and 
operational hole. By enacting Staggers, Congress recognized that 
regulation prevented railroads from earning adequate revenues and 
competing effectively. Survival of the railroad industry required a new 
regulatory scheme that allowed railroads to establish their own routes, 
tailor their rates to market conditions, and differentiate rates on the 
basis of demand.
    One of the fundamental principles of the Staggers Act was something 
that had been essentially ignored for decades prior to it: if our 
nation is to have a viable, efficient, privately owned freight rail 
system, someone has to be willing to pay for it, and the market is far 
superior to the government in determining who should pay.
    Importantly, the Staggers Act did not completely deregulate 
railroads. In addition to retaining authority over a variety of non-
rate areas, the Interstate Commerce Committee, and now its successor, 
the Surface Transportation Board (STB), retained the authority to set 
maximum rates if a railroad is found to have ``market dominance'' and 
to take other actions if a railroad engages in anticompetitive 
behavior.
    Nevertheless, some rail customers and their supporters in Congress 
and elsewhere want the STB to make major changes in the scope and 
intensity of railroad rate and service regulation. Most of these 
changes would, in one way or another, limit the prices that railroads 
can charge and therefore limit the revenue railroads can earn. If 
successful, these regulatory changes would make it much more difficult 
for railroads to make the investments they need to maintain and upgrade 
their networks and to provide the safe, efficient, and reliable service 
their customers need to prosper.
    It would be a grave mistake to let this happen. A fundamental tenet 
of the economics of competition says that where competition exists, 
there should be no regulatory intervention. Because the vast majority 
of rail freight movements are subject to strong competitive forces--
including competition from other railroads, from trucks and barges, 
product competition \1\, and geographic competition \2\--the vast 
majority of rail movements should likewise be free of governmental 
oversight. Moreover, no amount of rhetoric about ``competition'' can 
change the fact that if a railroad cannot cover its costs, it cannot 
maintain, replace, or add to its infrastructure and equipment. Nor can 
it provide the services upon which its customers depend. Simply put, if 
the existing balanced regulatory structure were changed, either 
taxpayers would have to make up the difference or the industry's 
physical plant would deteriorate, and needed new capacity would not be 
added. The rail industry would not collapse overnight, but over time 
rail service would become slower, less responsive, and less reliable.
---------------------------------------------------------------------------
    \1\ Substituting one product for another in a production process--
for example, generating electricity from natural gas (which is not 
carried in significant amounts by railroads) instead of coal (which 
is).
    \2\ The ability to obtain the same product from, or ship the same 
product to, a different geographic area. For example, clay is used for 
taconite pelletization in Minnesota. This clay is available from 
Wyoming mines served by one railroad and from Minnesota mines served by 
another. Iron ore producers can play one railroad against the other for 
clay deliveries.
---------------------------------------------------------------------------
    It's true that freight railroad financial performance in recent 
years has been better than it once was. However, policymakers should 
not view these improvements as a reason to cap rail earnings through 
price controls or artificial competitive constraints, since it would 
cause capital to flee the industry and severely harm railroads' ability 
to reinvest in their networks.
    Today, our nation faces a number of serious transportation-related 
problems, many of which this Committee, to its credit, is working hard 
to address. It makes no sense to add to that list by trying to fix 
something that isn't broken. The current rail regulatory system is 
working well. At a time when the pressure to reduce government spending 
on just about everything--including transportation infrastructure--is 
enormous, it makes no sense to enact public policies that would 
discourage private investments in rail infrastructure that would boost 
our economy and enhance our competitiveness.
    With respect to FAST Act reauthorization priorities, the freight 
railroad industry supports the following:
(1) Highway-Rail Grade Crossing Safety
    Reducing accidents and fatalities at highway-rail grade crossings 
is of paramount importance given that most collisions are preventable. 
Engineering solutions (such as closing unneeded crossings and upgrading 
warning devices), education and enforcement are key. Thanks in part to 
the Section 130 federal program, grade crossing collisions are down 37% 
from 2000 to 2018, but much work remains.
    <bullet>  The federal Section 130 program, which provides funds to 
eliminate hazards at highway-rail grade crossings, should continue to 
receive dedicated, formula funding out of the Highway Safety 
Improvement Program.
    <bullet>  Funding for Section 130 should be maintained at least at 
current levels ($245 million in fiscal year 2020) or increased.
    <bullet>  Increase Section 130 incentive payments for grade 
crossing closures from the current cap of $7,500 to $100,000.
    <bullet>  Expand flexibility in the use of Section 130 funds by 
eliminating the arbitrary 50% cap on spending for hazard elimination 
projects and by enabling replacement of certain protective warning 
devices.
    <bullet>  Enable costs by public and private entities incurred for 
preliminary engineering for grade crossing projects to be counted 
toward the non-federal share.
    <bullet>  Enable or incentivize states to bundle grade crossing 
projects into a single grant application under applicable discretionary 
grant programs, such as BUILD, INFRA or CRISI.
    <bullet>  Require or incentivize accelerated deployment of 
navigational warnings for motorists (e.g., smartphone apps) to warn of 
grade crossings.
    <bullet>  Require future fleets of automated vehicles to provide 
grade crossing warnings and/or prevention of incursions into grade 
crossings where gates or other devices have been activated.
    <bullet>  Require grade crossing safety training in driver 
education curricula at NHTSA through recommendations to states.
    <bullet>  Authorize at least $3 million per year for Operation 
Lifesaver through FHWA, FRA and FTA.
(2) Innovations for Deployment of Safety Technologies
    Freight railroads require a modernized approach to federal 
regulations that allows them to innovate with new technologies and 
processes for an even safer and more efficient rail network. The 
current regulatory approach to rail safety is largely prescriptive and 
does not easily allow for the incorporation of the best technologies to 
improve safety and performance. Safety and efficiency improvements 
should be encouraged by the FRA.
(3) Project Permitting Reforms
    While much has been done in recent years to cut the red tape 
associated with infrastructure project approval and construction, more 
can be done to fast-track routine maintenance and replacement 
construction projects without sacrificing environmental or historical 
preservation concerns. These include:
    <bullet>  Codify that a categorical exclusion and a Finding of No 
Significant Impact are the only NEPA documentation needed on projects 
where replacement of infrastructure on existing operating railroad 
right-of-way is the purpose.
    <bullet>  Convert select executive orders on streamlining the 
permitting process--such as timeclocks, intermediate deadlines and One 
Decision for large projects--to statute.
    <bullet>  Continue streamlining the Sec. 106 historic preservation 
review process, especially for projects needed to enhance or maintain 
safety.
(4) Support Funding for Amtrak & Public Partnering with Freight 
        Railroads
    The freight railroad industry supports funding for grant programs 
that enable the public sector, including state and local governments 
and passenger and commuter railroads, to partner with freight railroads 
to advance projects of mutual interest, including projects to help 
lessen road and port congestion, enhance safety at highway-rail grade 
crossings, improve port connectivity, facilitate intercity passenger 
and commuter rail service and improve the quality of life for 
communities. The following programs should continue to be authorized at 
existing or increased levels:
    <bullet>  INFRA Discretionary Grants ($1 billion in FY 2020). Caps 
should be upwardly adjusted or removed on multimodal freight 
eligibility in proportion to General Fund contributions to the HTF.
    <bullet>  BUILD Discretionary Grants (not authorized, but typically 
$1 billion appropriated).
    <bullet>  CRISI Discretionary Grants ($330 million in FY 2020).
    <bullet>  Federal-State Partnership for State of Good Repair ($300 
million in FY 2020).
    <bullet>  Funding and authorization for Amtrak and state-supported 
passenger routes.
(5) Restore the Highway Trust Fund to a True User-Based Fund
    The current underpayment by road users, especially commercial 
trucking, has required a transfer of some $144 billion in General Funds 
to the HTF over the past ten years. Consequently, the rail sector is 
perennially placed at an unfair competitive disadvantage.
    <bullet>  Support mechanisms such as an increase in the gas tax, a 
vehicle miles traveled fee or a weight-distance tax that could help 
remedy this fundamental imbalance.
    <bullet>  Oppose measures to fund the HTF that would increase taxes 
or fees on freight railroads.
    <bullet>  Retain a competitive tax environment for the private 
sector.
(6) Oppose Policies that Harm Railroads' Ability to Operate Safely and 
        Efficiently
    Congress must reject policies that would disadvantage the freight 
railroad industry, the most environmentally friendly way to move 
freight over land. These include:
    <bullet>  Proposals to allow longer and heavier trucks on roads, 
bridges and highways, until, at a minimum, trucks of all legal 
dimensions pay the full cost of the damage that they cause to publicly 
provided infrastructure.
    <bullet>  Mandates requiring specific operating models such as 
railroad crew size.
    <bullet>  Mandates resulting in property takings on railroad rights 
of way for utility or broadband access.
                               Conclusion
    America's freight railroads are working toward a single goal: to 
ensure that they remain the safest, most efficient, cost-effective, and 
environmentally-sound mode of transportation in the world. They are 
always willing to work cooperatively with you, other policymakers, 
their employees, their customers and all other interested parties to 
advance our shared interests in moving our nation forward with the help 
of our best-in-the-world freight railroads.

    Mr. Lipinski. I thank you, Mr. Jefferies. I am going to go 
back and make sure I say this, because I think I did--I forgot 
to do it: Mr. Jefferies is the president and CEO of the 
Association of American Railroads.
    And I was up here for Ms. Goodchild, so I know I skipped 
that, and Ms. Anne Goodchild is a Ph.D. and founding director, 
Supply Chain Transportation and Logistics Center, University of 
Washington. So I wanted to go back and correct that.
    And I will recognize Mr. Jason Mathers, the director of 
vehicle and freight strategy with the Environmental Defense 
Fund.
    Mr. Mathers, you are recognized.
    Mr. Mathers. Great, thank you, Chair Lipinski, Chair 
Norton, Ranking Members Davis and Crawford, and members of the 
subcommittee for having me here today.
    Now is the time to implement policies that will reduce air 
pollution and set us on a path of net zero carbon emissions by 
2050.
    Earlier this year, the Senate Environment and Public Works 
Committee unanimously approved its version of the highway 
reauthorization bill. And for the first time ever, it included 
a title on climate change. This committee can build on that 
effort in its version, and lock in the certainty needed to 
unleash public and private investment to clean up the 
transportation sector.
    Pollution from freight transportation has pernicious health 
impacts on communities near freight facilities and highways. 
Heavy trucks are, by far, the most significant source of 
freight pollution. Yet reducing pollution from freight movement 
is not primarily a technology matter. It is a matter of 
political will.
    The operational and equipment choices that can drive down 
air pollution are well-known. Many of these are being used 
today to create business value while improving community 
health. With congressional leadership we can make tremendous 
strides in reducing the nearly 11,000 premature deaths annually 
that occur from exposure to freight pollution in this country, 
and put the sector on a path to contribute to 100 percent clean 
economy by 2050.
    A few years back, I authored the ``Green Freight 
Handbook,'' which examined opportunities for freight shippers 
to reduce pollution. This work was based on projects EDF 
undertook with large companies, including Walmart, FedEx, Ocean 
Spray, and Caterpillar, among others. We condensed into three 
broad categories the range of tactics companies can use to 
reduce freight pollution and transportation costs. These are, 
first, get the most out of every move, which is about making 
sure that we use our freight capacity to the fullest; second, 
choosing the most efficient mode of transportation, which is 
about sending goods intermodally, rather than just by truck 
alone; and demand cleaner equipment.
    My testimony has examples of all these categories. I will 
focus now on this last category.
    Zero-emission heavy-duty vehicles are increasingly viable 
for freight. Services these trucks can do today include 
transporting cargo in and out of ports like NFI, one of the 
Nation's largest fleets, is doing today in L.A.-Long Beach; 
moving freight from a distribution center to a retail outlet 
like Penske is doing for a leading quick service restaurant 
chain; positioning trailers within a distribution yard, as 
Kraft is doing in Ohio; and delivering packages to businesses 
and homes, as FedEx is doing.
    We should invest in these trucks with policies that reward 
innovation and recognize the full cost of operating combustion 
engines. Investing in zero-emission trucks is a win-win 
opportunity. Fleets want these trucks, as they can drastically 
reduce fuel spend. Developing the manufacturing capacity for 
these vehicles will support good jobs. And households across 
this country will see lower cost goods.
    Congress can make this investment through policies that 
advance four objectives: first, encourage the production of 
zero-emission heavy-duty vehicles; second, increase the demand 
for these vehicles; third, ensure public expenditures drive 
just and equitable outcomes; and fourth, support the 
development of appropriate charging infrastructure.
    As this committee considers the highway reauthorization, I 
want to provide two specific ideas.
    First, create a commission to develop strategies for 
transitioning drayage trucks, those trucks moving goods in and 
out of ports and rail yards, to zero emission. The work 
performed by these trucks is a great match for the zero-
emission technology. And given that they typically operate in 
urban environments, these trucks are highly polluting. There 
are unique challenges to move this sector to zero emissions. 
These can be overcome. A Federal commission should be 
established to develop recommendations for fully transitioning 
these vehicles to zero emissions by 2030.
    Second, create a Federal revolving loan fund for the 
purchase and installation of EV charging infrastructure. 
Creating charging systems for trucks remains a barrier. 
Congress could create a fund to help offset costs associated 
with charging equipment, facility upgrades, and the grid 
improvements necessary to power large fleets.
    Thank you for the opportunity to be here today. I look 
forward to your questions.
    [Mr. Mathers' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Jason Mathers, Director, Vehicle and Freight 
                  Strategy, Environmental Defense Fund
    Thank you Chair Norton, Chairman Lipinski, Ranking Members Davis 
and Crawford and members of the subcommittees for the opportunity to 
testify today. My name is Jason Mathers. I am the Director of Vehicle 
and Freight Strategy for Environmental Defense Fund. EDF is a leading 
international nonprofit that creates transformational solutions to the 
most serious environmental problems. EDF links science, economics, law 
and innovative private-sector partnerships. With more than 2.5 million 
members and a global staff of 700 scientists, economists, policy 
experts, and other professionals, we're one of the world's largest 
environmental organizations.
                                Overview
    Now is the time to implement policies that will reduce carbon 
pollution and set us on a path of net-zero carbon emissions economy-
wide by 2050.
    Earlier this year, the Senate Environment and Public Works 
Committee unanimously approved its version of the Highway 
Reauthorization Bill and for the first time ever it included a title on 
climate change. This was a major step in accepting that the problem is 
real and the title provided some ways to start addressing it. This 
committee can build on that effort in its version and lock in the 
certainty needed to unleash public and private investment in the 
transportation sector, which is the leading source of climate pollution 
in the nation.
    Every mode of freight transportation has a significant pollution 
footprint and pernicious health impacts on communities near freight 
facilities and highways. Yet, reducing pollution from the freight 
movement is not primarily a technology matter. It is a matter of 
political will.
    The operational and equipment choices that can drive down air 
pollutants, including carbon emissions, are well-known. Many are being 
used today to create business value while improving community health 
and climate effects. Others will be ready to scale over just the next 
couple of years. The most significant uncertainty is whether we will 
have the policies in place to reward innovation and recognize the full 
cost of operating combustion engines.
    With Congressional leadership, we can--by the close of this coming 
decade--make tremendous strides in reducing the nearly 11,000 premature 
deaths annually that occur from exposure to freight pollution in this 
country and put the sector on a path to contribute to a 100% clean 
economy by 2050.
    As an environmentalist, father of young children and veteran who 
cares deeply about the future of this country, I urge us to act.
1. The freight movement has significant impacts on human health and the 
        environment.
    In 2015, transportation pollution resulted in 385,000 premature 
deaths globally, with on-road diesel vehicles accounting for half of 
this impact--by far the largest contributor. Collectively, on-road 
diesel accounted for 3.6 million lost years lived and over $450 billion 
in economic damage annually.\1\ In the U.S., international shipping and 
on-road diesel--two modes primarily used for moving freight--accounted 
for nearly 11,000 deaths in 2015. The health impacts of diesel-fueled 
heavy-duty vehicles are concentrated in urban areas, often in 
disadvantaged communities close to major freight hubs like distribution 
centers and port facilities.\2\
---------------------------------------------------------------------------
    \1\ Anenberg et al, ``A Global Snapshot of the Air Pollution-
related Health Impacts of Transportation Sector Emissions in 2010 and 
2015,'' ICCT and Climate & Clean Air Coalition. (2019)
    \2\ Houston, D, Disparities in Exposure to Automobile and Truck 
Traffic and Vehicle Emissions Near the Los Angeles-Long Beach Port 
Complex, Am J Public Health. 2014 January; 104(1): 156-164.
---------------------------------------------------------------------------
    EDF has been studying how pollution from fossil-fueled trucks dirty 
our air at a hyper-local level, leading to more asthma, heart attacks 
and premature deaths. New sensor technology is allowing EDF scientists 
to collect data in innovative ways using Google Street View cars and 
dense stationary pollution detection networks. With the help of our 
partners, we are better able to see how changes in air pollution lead 
to harmful health effects that are distributed unevenly.
    Our recent analysis in Oakland, California showed that residents 
living near one particular freeway that is home to much of the city's 
diesel-fueled traffic were exposed to concentrations of black carbon 
(soot) 80% higher than those living near a similar road that had less 
diesel traffic. The more polluted roadway produced 60% more nitrogen 
dioxide--a lung irritating and smog forming gas.
    Combining our Google Street View project data with Kaiser 
Permanente's electronic health records of over 40,000 people in 
Oakland, we found that elderly people living in areas with the most 
elevated traffic-related air pollution had a 40% higher risk of heart 
attack,\3\ compared to elderly people living in places with less 
pollution. This is similar to an individual having a history of 
smoking.
---------------------------------------------------------------------------
    \3\ Alexeeffet al, High-resolution mapping of traffic related air 
pollution with Google street view cars and incidence of cardiovascular 
events within neighborhoods in Oakland, CA, Environmental Health (2018) 
17:38
---------------------------------------------------------------------------
    EDF also looked at air pollution hotspots near the Port of Oakland 
where diesel-powered ships, trucks and trains transport goods 
throughout California and across the United States.
    <bullet>  At an intersection near the entrance to the port, EDF 
found that black carbon levels were more than three times higher than 
the West Oakland neighborhood average.
    <bullet>  In a West Oakland neighborhood where homes mix with 
industrial facilities and heavy-duty trucks often fill nearby parking 
lots, black carbon concentrations were about twice as high as the 
neighborhood average at certain busy times of the day.
    <bullet>  At a nearby park downwind from a trucking company, air 
monitors found increased pollution exposure for children and adults 
playing soccer, football and baseball.

    We are now undertaking a similar analysis in Houston. The people 
living along the heavily industrialized Houston Ship Channel face 
higher exposure to air pollution than the region at large.
    Freight is a significant--and fast growing--source of climate 
pollution. Globally, the sector is on pace to add four gigatons of 
additional climate pollution per year by 2050. In the U.S., the freight 
sector will emit 535 million metric tons of carbon dioxide emissions in 
2020. This pollution is on pace to increase by another 25 million 
metric tons annually by 2050.\4\
---------------------------------------------------------------------------
    \4\ U.S. Energy Information Agency, Annual Energy Outlook, Table 
19. Energy-Related Carbon Dioxide Emissions by End-Use, January 24, 
2019.
---------------------------------------------------------------------------
    Within freight, heavy trucks are--by far--the most significant 
source of climate pollution. The phase two EPA greenhouse gas emissions 
standards--originally adopted in 2016 with stringency increases in 
2021, 2024 and 2027--are critical in slowing the growth of emissions 
from this sector. Yet, even with these standards, pollution from 
freight trucks is projected to increase by 40 million metric tons of 
carbon dioxide between 2036 and 2050. We must do more to ensure long-
term pollution reductions from this sector if we have any hope of 
reining in climate pollution.\5\
---------------------------------------------------------------------------
    \5\ U.S. Energy Information Agency, Annual Energy Outlook, Table 
19. Energy-Related Carbon Dioxide Emissions by End-Use, January 24, 
2019.
---------------------------------------------------------------------------
2. Solutions exist today to significantly reduce this impact.
    Heavy-duty trucks require specific focus, as the leading source of 
both local and global air pollutants from freight. Zero-emission heavy-
duty vehicles are increasingly viable, as evidenced by the surge of 
product announcements over the past two years for parcel delivery 
trucks, urban delivery trucks, yard trucks, and regional trucking. Over 
two dozen truck models are in production or development. All major 
original equipment manufacturers and several new entrants have zero-
emission offerings (see table 1). Reflecting the industry's interest in 
a cleaner future, Cummins--which has engines in 70% of trucks on the 
U.S. roads--just announced a goal of net-zero emissions in its 
operations and products by 2050.\6\
---------------------------------------------------------------------------
    \6\ Gibson, London, Cummins' most ambitious environmental plan yet 
targets net-zero emissions by 2050, Indianapolis Star, November 15, 
2019
---------------------------------------------------------------------------
    While we build for a zero-emission future, we must also push for 
further improvements from combustion engine trucks. Reducing emissions 
of nitrogen oxides (NOx)--a precursor to ozone--is critical to 
providing cleaner air for communities and families across the nation. 
NOx emissions standards for heavy-duty vehicles were last issued in 
2001 and implementation was completed in 2010. In the nearly 20 years 
since the last standards were promulgated, technology has continued to 
advance.
    It is also clear that additional reductions in ozone forming NOx 
are needed from the heavy-duty sector. In places like California--where 
much of the state is hard hit by ozone pollution--heavy-duty trucks 
still account for 33% of statewide NOx emissions.\7\
---------------------------------------------------------------------------
    \7\ CARB presentation at Board Hearing, ``Update on the Proposed 
Federal Phase 2 GHG and Fuel Efficiency Standards for Medium- and 
Heavy-Duty Vehicles,'' Sacramento, July 23, 2015
---------------------------------------------------------------------------
    Developing technologies, together with the improvement of existing 
emissions controls, can provide additional cost-effective, meaningful 
in-use NOx reductions from the nation's heavy-duty fleet.\8\ California 
is researching the technologies needed to reduce NOx significantly.\9\ 
Other states recognize the need for further NOx controls.\10\ EPA 
announced a Cleaner Truck Initiative to ``update standards for nitrogen 
oxide (NOx) emissions from highway heavy-duty trucks and engines.'' 
\11\ EPA should issue standards that leverages the best technology 
options to reduce NOx emissions and protect human health. The agency 
should fully partner with California's Air Resources Board in this 
effort.
---------------------------------------------------------------------------
    \8\ CARB, upcoming ``Draft Technology Assessment: Lower NOx Heavy-
Duty Diesel Engines.''
    \9\ California Air Resources Board, Staff White Paper: California 
Air Resources Board Staff Current Assessment of the Technical 
Feasibility of Lower NOx Standards and Associated Test Procedures for 
2022 and Subsequent Model Year Medium-Duty and Heavy-Duty Diesel 
Engines, April 2019
    \10\ Marin, Arthur, Statement On the U.S. Environmental Protection 
Agency (EPA) Cleaner Trucks Initiative, Northeast States for 
Coordinated Air Use Management (NESCAUM), November 13, 2018
    \11\ U.S. EPA Press Office, EPA Acting Administrator Wheeler 
Launches Cleaner Trucks Initiative, November 2018.
---------------------------------------------------------------------------
    Solutions also exist for international shipping. International 
shipping can meet its target of at least halving its emissions by 2050, 
and can unleash trillions of dollars of investment opportunities in 
sustainable industrial infrastructure--particularly in developing 
countries--by using clean fuel such as ``green'' ammonia, as long as 
the fuel is produced using untapped renewable potential without 
increasing fossil fuel use.\12\ The International Maritime Organization 
(IMO) must act quickly to bring in legally enforceable measures to its 
April 2018 commitment to reduce the sector's greenhouse gas pollution 
by at least 50% by 2050 compared to 2008 levels, and to start reducing 
total emissions.
---------------------------------------------------------------------------
    \12\ Ash, N. and Scarbrough, T., `Sailing on solar: Could green 
ammonia decarbonise international shipping?', Environmental Defense 
Fund, London, 2019.
---------------------------------------------------------------------------
    Demand for air freight is expected to grow, especially with the 
dramatic increase in package delivery services. At the most local 
level, some shippers are starting to use drones. At the international 
level, the International Civil Aviation Organization (ICAO), the UN 
body that sets standards for international flights, has capped the net 
carbon emissions of these flights at 2020 levels, and adopted a four-
pillar strategy, including new technologies, operational efficiencies, 
alternative fuels, and a carbon offsetting and reduction system for 
international aviation (``CORSIA''). While considerable work remains to 
be done to ensure that CORSIA is implemented with integrity, it is 
already spurring investment in lower carbon innovation. The aviation 
industry has asked ICAO to adopt a long-term goal for the industry, and 
we respectfully suggest that goal should be zero climate impact by 
2050.
    There are also operational approaches that can reduce emissions 
today. EDF worked with leading companies to document three broad 
opportunities to reduce freight pollution.
    Get more out of every move: We are using only 43% of the capacity 
of our freight trucks on the road today, between empty miles and 
underutilized ones. Capturing just half of this under-utilized capacity 
would cut freight truck emissions by 100 million tons per year and 
reduce expenditures on diesel fuel by more than $30 billion a year.\13\
---------------------------------------------------------------------------
    \13\ Russell D. Meller, Kimberly P. Ellis, Bill Loftis ``From 
Horizontal Collaboration to the Physical Internet: Quantifying the 
Effects on Sustainability and Profits When Shifting to Interconnected 
Logistics Systems'' Final Research Report of the CELDi Physical 
Internet Project, Phase I. September 2012.
---------------------------------------------------------------------------
    A high profile example of further increasing truck productivity 
comes from Walmart. The company set a goal of doubling its freight 
efficiency between 2005 and 2015. In 2015, the company delivered 1 
billion more cases and drove 460 million fewer miles than in 2005 by 
improving truck loading.\14\
---------------------------------------------------------------------------
    \14\ Mathers, Jason, The Fast and the Furious: A Company's Guide to 
Reducing Transportation Emissions, a webinar for the Climate 
Collaborative. June 2017.
---------------------------------------------------------------------------
    Colgate and Kimberly-Clark demonstrated how companies can 
collaborate to reduce the number of trucks on the road. The two 
companies pooled trips to CVS. Instead of each sending partially filled 
trucks to CVS, the companies worked to co-load their freight on the 
same trucks. The result was less pollution, fewer trucks and increased 
levels of service for CVS.\15\
---------------------------------------------------------------------------
    \15\ Logistics Management, Getting from Me to We: Creating a Shared 
Distribution Infrastructure, June 2014.
---------------------------------------------------------------------------
    Choose the most carbon-efficient mode of transportation: Typically, 
the more carbon intensive option for transportation is also the most 
expensive. Air freight emits 47 times more carbon per ton-mile than 
container ships, while costing 6.5 times more.\16\ Because rail is 
about 3.5 times more fuel efficient than trucks, companies can lower 
costs at least 15-20% with intermodal rail based primarily on fuel 
savings.\17\
---------------------------------------------------------------------------
    \16\ Simchi-Levi, David, Operations Rules, 2010, Massachusetts 
Institute of Technology.
    \17\ Kane Is Able, Look Who's Riding the Rails, 2013.
---------------------------------------------------------------------------
    Ocean Spray was shipping products by truck from a manufacturing 
facility in New Jersey to a Florida distribution center. Both Ocean 
Spray facilities were a short distance from rail yards used by a 
competitor, Tropicana, which shipped orange juice north from Florida in 
special refrigerated boxcars, via CSX Rail. These boxcars often 
traveled empty back to Florida. Tropicana's third party logistics 
provider (3PL) saw an opportunity for collaboration and proposed that 
Ocean Spray operate an intermodal lane from New Jersey to Florida that 
would put Tropicana's empty cars to use. By going from truck to rail 
and taking advantage of ready rail capacity, Ocean Spray cut 
transportation costs more than 40% for that lane and reduced greenhouse 
gas emissions by 65%.\18\
---------------------------------------------------------------------------
    \18\ Bradley, Peter, Collaboration bears fruit, DC Velocity, May 
2013.
---------------------------------------------------------------------------
    Demand cleaner equipment: Companies using freight services have a 
responsibility to push for the cleanest equipment available.
    Anheuser-Busch is deploying 21 Class 8 battery-electric trucks. It 
is also testing Class 8 fuel cell trucks.\19\ The company set a goal to 
convert its long-haul dedicated fleet to renewable powered trucks by 
2025.\20\
---------------------------------------------------------------------------
    \19\ Transport Topics, Anheuser-Busch, Nikola, BYD Complete First 
Zero-Emission Beer Run, November 21, 2019.
    \20\ ABInBev, Climate Action: Anheuser-Busch Drives Leadership in 
Clean Energy, February 14, 2016
---------------------------------------------------------------------------
    IKEA is insisting on zero-emission home deliveries from its 
carriers. In 2020, it will demonstrate this model in five cities and 
expand it globally by 2025.\21\
---------------------------------------------------------------------------
    \21\ Peters, Adele, Ikea is quickly shifting to a zero-emissions 
delivery fleet, Fast Company, September 2018.
---------------------------------------------------------------------------
3. The United States of America would benefit by immediately adopting 
        these solutions
    By leading a transition to a freight industry that supports a 100% 
clean economy, the U.S. will be well positioned to retain and expand 
manufacturing jobs. Automotive manufacturing employs a million U.S. 
workers.\22\ These jobs occur across the country \23\ and support both 
the domestic and export market. Manufacturing zero-emission heavy-duty 
vehicles can provide good paying, union jobs.\24\
---------------------------------------------------------------------------
    \22\ U.S. Bureau of Labor Statistics, Automotive Industry: 
Employment, Earnings, and Hours, September 2019
    \23\ BlueGreen Alliance, VISUALIZING THE CLEAN ECONOMY: THE 
AUTOMOTIVE SECTOR.
    \24\ Dean, S., Unionizing L.A. bus workers and their CEO come 
together over fighting climate change, Los Angeles Times, Nov 2019
---------------------------------------------------------------------------
    Global markets will see much of the growth in truck fleets in the 
decade ahead.\25\ If the U.S. invests in developing zero-emission 
trucks, our manufacturers will be well positioned to serve these 
markets. Conversely, failure to invest in these trucks risks 
disadvantaging U.S. manufacturers in the global marketplace where other 
markets--notably China and Europe--are already investing in their 
domestic manufacturing capacity for zero-emission heavy-duty vehicles.
---------------------------------------------------------------------------
    \25\ McKinsey & Company, ``ROUTE 2030--A Regional View of Truck 
Industry Profit Pools,'' (2018)
---------------------------------------------------------------------------
    In addition to reducing healthcare costs associated with diesel 
pollution, an investment in zero-emission trucks will help cut costs 
for families. The average U.S. household spends $1,100 a year to fuel 
heavy-duty trucks,\26\ which are paid through higher prices at the 
store. Zero-emission trucks will significantly reduce fuel costs, while 
also lowering the total cost of ownership.\27\
---------------------------------------------------------------------------
    \26\ Cooper, Mark, PAYING THE FREIGHT: THE CONSUMER BENEFITS OF 
INCREASING THE FUEL ECONOMY OF MEDIUM AND HEAVY DUTY TRUCKS, Consumer 
Federation of America, August 2015
    \27\ California Air Resources Board, Advanced Clean Trucks Total 
Cost of Ownership Discussion Document Preliminary Draft for Comment, 
February 2019.
---------------------------------------------------------------------------
4. The U.S. Congress should pass policies that increase the adoption of 
        these solutions today and invest in the development of 
        solutions that can further drive progress over the next decade.
    Given the outsized pollution impact of trucking, I will focus my 
recommendations on this sector and outline how the U.S. Government can 
help accelerate a transition to a net-zero emissions future.
    Despite the recent zero-emission truck product announcements, the 
pace of progress remains much too slow. At our current pace of 
adoption, diesel trucks will still account for more than half of the 
trucks on the road in 2050.\28\ Federal policy leadership will be 
critical to accelerate the uptake of zero-emission vehicles, which 
would drive down carbon emissions; reduce air pollution, especially in 
urban communities; and strengthen a cornerstone manufacturing base that 
provides well-paying jobs. EDF urges Congress to enact policies that 
ensure zero emission vehicles account for at least 30% of new heavy-
duty vehicles sales nationally by 2030.
---------------------------------------------------------------------------
    \28\ EDF analysis: Extrapolated annual market growth rates 
Bloomberg New Energy Finance projected for each sector in its 2019 EV 
Outlook report. EDF assumed 12 year turn over cycle and that the 2050 
fleet volumes per sector reflect 2019 mix.
---------------------------------------------------------------------------
    A well-designed policy can advance four objectives that 
collectively will determine the impact and pace of adoption for zero 
emission trucks. These objectives are:
    <bullet>  Encourage the production of zero-emission heavy-duty 
vehicles.
    <bullet>  Increase the demand for zero-emission heavy-duty 
vehicles.
    <bullet>  Ensure public expenditures drive just and equitable 
outcomes.
    <bullet>  Support the development of appropriate charging 
infrastructure.
            Encourage the production of zero-emission heavy-duty 
                    vehicles.
    Policy can create the long-term certainty necessary to stimulate 
production investments from truck manufacturers and component 
suppliers. The federal government also has an important role in 
catalyzing the development and scaling of advanced technology solutions 
through robust R&D investments. To advance this objective, the U.S. 
Congress could:
    <bullet>  Launch a heavy-duty version of the Advanced Technology 
Vehicles Manufacturing Direct Loan Program. Through this program, the 
U.S. Government provided direct loans for light-duty vehicle 
manufacturers to produce fuel efficient cars. This program supported 
the production of over 4 million advanced technology vehicles and 
invested $8 billion into American auto manufacturing. A similar program 
would enable manufacturers to expedite bringing ZEV trucks to market.
    <bullet>  Increase and expand R&D funding for heavy-duty vehicle 
technologies. Through the DOE Office of Energy Efficiency and Renewable 
Energy, the U.S. Government supports critical research into advanced 
vehicle technology. The Super Truck program, for example, has played a 
critical role in accelerating the introduction of vehicle efficiency 
solutions. Increased funding could be targeted at technology 
advancements such as enhancing charging systems and advancing battery 
design to enable lighter, more energy-dense and lower-cost batteries.

    Additionally, the U.S. EPA should strengthen emission standards for 
heavy-duty vehicles. The EPA regulates greenhouse gas and criteria 
emissions from heavy-duty vehicles. The current GHG program standards 
increase in 2021, 2024 and 2027. However, criteria emissions standards 
have not changed since 2010. Technology advancements, including the 
emergence of zero-emission solutions, necessitate a significant 
strengthening of this program.
            Increase the demand for zero-emission heavy-duty vehicles.
    Another critical policy lever is to bolster market demand for these 
vehicles. To advance this objective, the U.S. Congress could:
    <bullet>  Expand the Low or No Emission Vehicle Program. Transit 
buses are largely purchased with funding contributions from DOT's 
Federal Transit Administration (FTA). FTA's Low or No Emission Vehicle 
Program provides competitive grants for state and local governments to 
purchase zero- and low emission transit buses and infrastructure. Given 
that electric buses are a viable option for much of the nation's fleet 
and will further expand their appeal as battery costs continue to fall, 
this program should be expanded significantly.
    <bullet>  Pass the Green Bus Act. EDF supports the Green Bus Act, 
introduced by Rep. Brownley, which would increase the funding for this 
program from $85 million in 2019 to $900 million in 2029 and require 
all new transit buses to be zero-emission by 2029.
    <bullet>  Expand the Diesel Emissions Reduction Act (DERA). DERA, 
which was first enacted in 2010, funded a highly popular and bipartisan 
set of projects that protect human health and improve air quality by 
curbing diesel emissions. It is currently funded at $75 million a year. 
A significant increase in this program to support the replacement of 
old diesel vehicles with ZEVs could help increase fleet turnover and 
get more ZEVs on the road as quickly as possible.
    <bullet>  Suspend the federal excise tax on zero-emission trucks. 
New heavy-duty trucks pay a 12% federal excise tax to provide funding 
for the Highway Trust Fund. This tax is based on the purchase price of 
the vehicle and therefore exacerbates the upfront cost discrepancy 
between diesel and ZEV vehicles, as the more advanced technology in 
ZEVs--which leads to significantly lower operating costs--currently 
results in higher upfront costs than diesel vehicles. Policymakers 
should waive this tax for ZEVs through the mid-2020s, when the upfront 
cost of diesel vehicles and ZEVs are expected to start converging.
    <bullet>  Enact the Clean School Bus Act. Introduced in both the 
House (Rep. Hayes) and the Senate (Sen. Harris), the Clean School Bus 
Act would authorize $1 billion over five years at the Department of 
Energy to fund a Clean School Bus Grant Program, which would award 
funding on a competitive basis to replace existing school buses with 
ZEV models. Several manufacturers are already producing quality ZEV 
buses, including Thomas and Blue Bird. EDF encourages these policies 
because the electrification of these vehicles will help reduce 
children's exposure to harmful diesel emissions while reducing GHG 
emissions.
            Ensure public expenditures drive just and equitable 
                    outcomes.
    The pernicious health impacts of diesel trucks disproportionately 
impact low-income communities and communities of color. Policies should 
prioritize replacing combustion vehicles with ZEVs in these 
communities. To advance this objective, the U.S. Congress could:
    <bullet>  Prioritize deployments of ZEVs within front-line 
communities. Grant programs that support the adoption of ZEVs, such as 
the Low/No Emissions Vehicle Emission program for transit buses and the 
DERA should give preference to vehicle deployments within highly 
impacted communities.
    <bullet>  Create a commission to develop strategies for 
transitioning drayage trucks to ZEVs. Drayage trucks--which transport 
goods over short distances, for example, hauling cargo in and out of 
ports and rail yards--are often old and poorly maintained. The low-
speed, high idling operation of these vehicles exacerbates the 
shortcomings of diesel emission control equipment. These vehicles also 
operate in densely populated areas. The combination of these factors 
results in drayage trucks being a significant contributor to poor air 
quality in numerous major metro areas. ZEV demonstrations are currently 
underway, but while the technology is ready, several systemic barriers 
remain to the wide-scale adoption of ZEVs for drayage. These include 
the lack of charging infrastructure to serve drayage drivers and few 
financing options for drayage operators seeking ZEVs. Given that the 
performance requirements of drayage operations pair well with the EV 
drivetrain, and the urgent need to drive down pollution around ports 
and rail yards, a federal commission should be established to develop 
recommendations for transitioning these vehicles to zero emissions by 
2030.
            Support the development of appropriate charging 
                    infrastructure.
    A well-developed charging network is essential to accommodating 
large-scale deployments of electric vehicles of all kinds. This 
infrastructure should be deployed to effectively alleviate range 
anxiety, mitigate expensive, unnecessary grid upgrades, and facilitate 
greater integration of renewable energy. To achieve a robust charging 
network, Congress should direct the Department of Transportation (DOT) 
and the Department of Energy (DOE) to work with states to define a 
comprehensive national EV charging infrastructure plan. Such a plan 
should, among other things, detail how Congress should:
    <bullet>  Create a grant program to help states and municipalities 
develop and implement charging programs. Provide technical assistance 
to states regarding technology choices, purchasing practices, 
infrastructure options and siting.
    <bullet>  Create a grant program to incentivize commercial fleet 
operators and owners of large, non-government-owned parking facilities, 
to install charging stations.
    <bullet>  Create tax incentives for private companies to develop 
employee and customer charging opportunities. Reward companies that tie 
their charging networks to renewables, local storage, and utility 
providers' demand response programs.
    <bullet>  Create a federal revolving loan fund for the purchase and 
installation of EV charging infrastructure. Such a fund could be 
targeted at state and local governments and multijurisdictional transit 
agencies. Separate portions of the funds should be dedicated to 
creating infrastructure designed for use by light-duty and by heavy-
duty vehicles. Large trucks and buses will have significantly different 
charging patterns than light-duty vehicles. These vehicles will have 
larger batteries, use most of their capacity daily and be mainly 
recharged at centralized facilities while also using some opportunity 
charging during their daily operations. Providing infrastructure funds 
specifically for this class of vehicle would help offset costs 
associated with charging equipment, facility upgrades and grid 
improvements necessary to power large fleets.
    <bullet>  Research, develop and fund best practices for depot 
charging. Given their distinct needs and patterns from light-duty 
vehicles, heavy-duty vehicles would benefit from dedicated research 
into how to manage their charging load. DOE should identify 
opportunities for heavy-duty vehicle electrification through a report 
similar in scope to the National Plug-In Electric Vehicle 
Infrastructure Analysis it conducted in September 2017. DOE should then 
make grants available to realize the opportunities identified in that 
report.
    <bullet>  Enact an investment tax credit for large-scale storage. 
Opportunities to enhance the use of renewables-based charging and to 
facilitate and encourage grid integration can be multiplied 
exponentially if Congress were to increase incentives for the 
deployment of large-scale storage. The goal would be to develop and 
advance--in Congress and in willing states--policies to achieve 
additional emissions reductions through the integration of electric 
charging infrastructure with local grids. Such initiatives would focus 
on policies that:
      <bullet>  Encourage the use of renewable energy and storage 
solutions to power charging stations. This work is a critical component 
of ensuring that electrification actually delivers the maximum 
potential emissions reductions.
      <bullet>  Demonstrate the use of smart charging infrastructure, 
storage and EV batteries to reduce utility grid impact through advanced 
services such as time-of-use rates, as well as balancing and ancillary 
services using ``virtual power plants.'' Leveraging the flexibility in 
these technologies can provide significant additional emissions 
reductions by, for example, alleviating the need for fossil fuel based 
short duration generation.
                               Conclusion
    Reducing pollution from the transportation sector presents a 
significant challenge for the U.S. and the world. However, EDF's work, 
and that of our partners and colleagues in the private sector, 
universities and research centers underscore that the solutions--most 
notably the electrification of heavy-duty vehicles--are cost-effective 
and technologically feasible. While freight is a major source of air 
pollution, solutions are at hand, and Congress should act to provide 
the needed support to make the transportation sector a part of a 100% 
clean economy. Doing so will help bolster our manufacturing base, 
create jobs, and position the U.S. to export solutions globally, while 
equitably reducing health impacts to communities and showing global 
leadership in fighting climate change. The Senate took the first step 
by including a climate title in its highway reauthorization bill. Now 
the House can build on that foundation to create investment certainty 
for businesses, towns, states and the federal government.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lipinski. Thank you, Mr. Mathers.
    I now recognize Mr. Jim Tymon, executive director, American 
Association of State Highway and Transportation Officials.
    Mr. Tymon, you are recognized.
    Mr. Tymon. Thank you. Chair Norton, Chairman Lipinski, 
Ranking Member Davis, Ranking Member Crawford, and members of 
the subcommittee, thank you for the opportunity to provide the 
perspective of the Nation's State departments of transportation 
on freight transportation.
    My name is Jim Tymon, and I serve as the executive director 
of the American Association of State Highway and Transportation 
Officials. And it is my honor to testify on behalf of AASHTO's 
membership, comprising the State departments of transportation 
for all 50 States, Washington, DC, and Puerto Rico.
    My remarks today center around the following key points: 
importance of freight transportation in the context of surface 
transportation reauthorization; AASHTO's core principles for 
reauthorization, including freight, Federal freight policy, and 
specific freight policy recommendations for the next surface 
transportation bill.
    State DOTs strive to deliver the most effective and 
efficient surface transportation system that strengthens and 
grows the economy. It is the interconnected national multimodal 
transportation system, with States as a principal owner and 
operator of that system, that has enabled the United States to 
become the most vibrant and powerful Nation in history. To that 
end, we strongly support your efforts to enact a well-funded, 
multiyear, surface transportation reauthorization bill prior to 
the expiration of the FAST Act on September 30th, 2020.
    Nearly 2 years ago, AASHTO began soliciting input from 
policy experts in all 50 States on surface transportation 
reauthorization. Based on this membership-driven approach, I 
would like to share with you our core policy principles.
    First, ensure timely reauthorization of a long-term Federal 
surface transportation bill. Getting the next bill completed on 
time will ensure uninterrupted investment in our freight 
transportation infrastructure, which, in turn, will enable us 
to build on the current economic expansion.
    Second, enact a long-term, sustainable revenue solution for 
the Highway Trust Fund. Our current funding challenges demand 
bold action to invest in our transportation infrastructure. 
This action has the clear support of the American public, and 
it is time for the President and Congress to make it happen.
    Third, increase and prioritize formula-based Federal 
funding provided to the States. In the next reauthorization, we 
urge you to focus on maximizing Federal formula-based dollars 
provided directly to States through the existing highway core 
formula programs. Efficient goods movement nationwide is 
dependent on the Interstate Highway System and the National 
Highway System. Many of these facilities are over 50 years old, 
and nearing the end of their useful life. States rely on these 
formula dollars to keep these assets in a state of good repair. 
The next bill should continue to provide 90 percent of highway 
funding to States by formulas, so that States can continue to 
provide an efficient system for the movement of people and 
freight.
    Fourth, we ask that you increase flexibility, reduce 
program burdens, and improve project delivery. We recommend 
increased flexibility of and transferability between the 
various Federal programs to enable States to target their 
scarce resources toward the most beneficial freight programs 
and projects. Transportation priorities here in the District of 
Columbia are different from the priorities in rural Arkansas, 
and we should continue to provide States the program-level 
flexibility to use Federal dollars as efficiently as possible. 
In addition, assigning more decisionmaking authority to the 
States and cutting unnecessary redtape will help these projects 
get built faster.
    Fifth, support and ensure State DOTs' ability to harness 
innovation and technology. Specifically, we need to preserve 
the 5.9 gigahertz spectrum for transportation, safety, and 
connectivity purposes. For example, a U.S. DOT-funded connected 
vehicle pilot program on I-80 in Wyoming has used the spectrum 
to improve snow-related incident management in the corridor 
that carries 55 percent of all traffic in that State.
    In addition to these core principles, we recommend in the 
next bill that you expand eligibility to use Federal freight 
program dollars on any portion of a State's multimodal freight 
network, as defined in the State's freight plan; increase FAST 
Act freight funding caps for multimodal projects; reinstate 
additional funding for the National Cooperative Freight 
Research Program; and help identify ways to improve 
coordination between States and railroad partners.
    State DOTs remain committed to assisting Congress in the 
development of the next surface transportation legislation that 
further enables freight transportation to improve our quality 
of life and grow the economy.
    I want to thank you again for the opportunity to testify 
today, and I am happy to answer any questions that you may 
have.
    [Mr. Tymon's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Jim Tymon, Executive Director, American 
       Association of State Highway and Transportation Officials
                              Introduction
    Chair Norton, Chairman Lipinski, Ranking Member Davis, Ranking 
Member Crawford, and Members of the Subcommittees, thank you for the 
opportunity to provide the perspective of the nation's state 
departments of transportation on economic, environmental, and societal 
impacts of freight transportation.
    My name is Jim Tymon, and I serve as Executive Director of the 
American Association of State Highway and Transportation Officials 
(AASHTO). Today it is my honor to testify on behalf of AASHTO, which 
represents the transportation departments of all 50 States, Washington, 
DC, and Puerto Rico.
    In my role, I oversee a staff of 120 dedicated professionals who 
support our state departments of transportation (state DOT) members in 
the development of transportation solutions that create economic 
prosperity, enhance quality of life, and improve transportation safety 
in communities, states, and the nation as a whole. Before, I was 
AASHTO's Chief Operating Officer and the Director of Policy and 
Management from 2013 to 2018, working closely with state DOTs in the 
development of AASHTO's transportation policy positions and overseeing 
the monitoring of legislative, administrative, and regulatory 
activities relating to transportation; as AASHTO's COO, I also oversaw 
the management of the Association's internal operations. Prior to 
AASHTO, I had the great honor to serve as a staff director of the 
Highways and Transit Subcommittee, working on both MAP-21 and SAFETEA-
LU.
    We appreciate your Subcommittees' focus on the topic of freight 
today because we share your recognition that the benefits of freight 
transportation to the economy are enormous. Freight transportation 
increases the value of goods by moving them to locations where they 
worth more. And it also encourages competition and production by 
expanding the spatial boundaries of commodity and labor markets where 
economic activities can take place. Freight transportation also 
facilitates the growing demand for goods and services and employs 
millions of people. Simply put, freight transportation and the 
infrastructure needed to support it is a significant component of our 
nation's wealth and productive capacity.
    My remarks today center around the following key points:
    <bullet>  Importance of freight transportation in the context of 
surface transportation reauthorization
    <bullet>  Core principles for reauthorization including federal 
freight policy
    <bullet>  Specific freight policy recommendations in the next 
surface transportation bill
    Importance of Freight Transportation in the Context of Surface 
                     Transportation Reauthorization
    From the very beginning of our developing nation, we have valued 
investment in our freight transportation infrastructure, starting with 
rivers, harbors, and post roads, and later taking major leaps through 
canals, the transcontinental railroad, and the Interstate Highway 
System.
    Built on this national heritage of transportation investment, state 
DOTs strive to deliver the most effective and efficient surface 
transportation system that strengthens and grows the economy by 
increasing productivity, enhancing jobs and labor market accessibility, 
opening new markets for businesses, and optimizing supply chain 
efficiency for freight movement. It is this interconnected national 
transportation system--with states as a principal owner and operator of 
a multimodal surface transportation infrastructure system--that has 
enabled the United States to become the most vibrant and powerful 
nation in history.
    As such, AASHTO's vision for policy recommendations are founded 
upon transportation serving as the key enabler for a higher purpose: to 
provide the safest system possible, highest possible quality of life, 
and most robust economic opportunities for everyone. And we strongly 
support your efforts to enact a well-funded, multiyear surface 
transportation reauthorization on time by September 30, 2020. We 
believe given the strong bipartisan support from the American public 
for robust infrastructure investment, it is time for the President and 
Congress to take bold action on this consensus national priority.
  Core Principles for Reauthorization Including Federal Freight Policy
    Over the past two years, our state DOT experts engaged in a bottom-
up policy development process that resulted in our comprehensive 
package of reauthorization recommendations, which was adopted by our 
Board of Directors in October. Based on our members' extensive work, I 
would like to share with you the following ``core principles,'' which 
we believe sets the appropriate federal framework, including for 
national freight transportation policy.
1. Ensure timely reauthorization of a long-term federal surface 
        transportation bill
    <bullet>  Funding stability provided by federal transportation 
programs is absolutely crucial to meet states' capital investment 
needs, which take multiple years to plan and construct.
    <bullet>  A long-term transportation bill is needed so that there 
is no authorization gap upon FAST Act expiration in September 2020. 
Short-term program extensions cause unnecessary program disruptions and 
delays safety and mobility benefits to states and communities.

    Our state DOT members do everything in their power to deliver 
needed priority projects to improve freight movement as quickly as 
possible, but due to the nature of large capital programs, including an 
extensive regulatory process, many of the projects take several years 
to complete. The lack of stable, predictable funding from the Highway 
Trust Fund makes it nearly impossible for state DOTs to plan for large 
projects that need a reliable flow of funding over multiple years. And 
these projects are what connect people, enhance quality of life, and 
stimulate economic growth in each community where they are built.
    Getting the next long-term surface reauthorization completed on 
time will ensure uninterrupted investment in our freight transportation 
infrastructure, which in turn will enable our nation to continue 
building on the current economic expansion.
2. Enact a long-term, sustainable revenue solution for the Highway 
        Trust Fund
    <bullet>  Ensuring Highway Trust Fund solvency in supporting a six-
year federal surface transportation bill that simply maintains current 
FAST Act funding levels, will require approximately $100 billion in 
additional revenues for the Highway Trust Fund.
    <bullet>  To achieve a state of good repair, USDOT's 2015 
Conditions and Performance Report estimates highway and bridge needs at 
$836 billion and transit needs at $90 billion, which would require 
significant additional investment.
    <bullet>  Federal funding solutions can draw upon the experience of 
31 states that have successfully enacted transportation revenue 
packages since 2012.

    Despite substantial and recurring funding challenges facing our 
transportation system, the investment backlog for transportation 
infrastructure continues to increase--reaching $836 billion for 
highways and bridges and $90 billion for transit according to the 
United States Department of Transportation. According to the 
Congressional Budget Office, in order to simply maintain the current 
Highway Trust Fund (HTF) spending levels adjusted for inflation after 
the Fixing America's Surface Transportation (FAST) Act, Congress will 
need to identify $100 billion in additional revenues for a six-year 
bill through 2026. At the same time, the purchasing power of HTF 
revenues has declined substantially mainly due to the flat, per-gallon 
motor fuel taxes that have not been adjusted since 1993, losing over 
half of its value in the last 26 years.
    Fortunately, infrastructure investment has been one of the top 
national policy agenda items for both Congress and the American people 
over these last few years, even if significant action is yet to be 
taken at the federal level. Americans get it--they understand the 
benefits, and they want to see investment in our transportation 
systems. According to a Politico and Harvard poll earlier this year, 79 
percent of respondents said that infrastructure investment is, 
``extremely important,'' falling just behind lowering prescription drug 
prices and substantially reducing the federal deficit on the list of 
issues polled.
    Infrastructure investment ranks high for both parties, with 88 
percent of Democrats and 81 percent of Republicans surveyed calling it, 
``extremely important.'' A crucial step we can take to harness this 
momentum is to complete the FAST Act reauthorization before October 
2020 without relying on any short-term extensions. We believe this 
truly is a unique window of opportunity to ensure the continued quality 
of life and economic vitality that make America a nation we are proud 
to call home. To do this, the situation demands bold action to invest 
in our transportation infrastructure at the appropriate level to 
guarantee the success of our nation's future. This action has the clear 
support of the American public, and it is time for the President and 
Congress to make it happen.
3. Increase and prioritize formula-based federal funding provided to 
        states
    <bullet>  The current federal highway program optimally balances 
national goals with state and local decision-making.
    <bullet>  Formula-based transportation funding reflects the 
successful federal-state partnership by ensuring the flexibility 
necessary for each state to best meet its unique investment needs.
    <bullet>  Congress should increase the formula-based program's 
share of the Federal-aid Highway Program from 92 percent currently in 
the FAST Act.

    The heart and soul of the Federal-aid Highway Program are the 
formula dollars supporting state and local investment decisions. This 
nation-building program, starting with the Federal-aid Road Act of 
1916, established the foundation of a federally-funded, state-
administered highway program, and has been perfectly suited to a 
growing and geographically diverse nation like ours. The stable federal 
investment enabled by the Highway Trust Fund has allowed states and 
their local partners to fund locally critical projects that at the same 
time serve the interests of the nation as a whole.
    As the full Committee unveils your reauthorization bill early next 
year, we urge you to focus on maximizing federal formula-based dollars 
provided directly to states though the existing core formula programs 
rather than looking at untested new programs and approaches that can 
divert the federal government's focus and role in the surface 
transportation program.
    Congress recognized in the MAP-21 legislation the need to 
consolidate a complex array of federal highway programs into a smaller 
number of broader programs, with the eligibilities generally continuing 
under such programs. This revised program structure was continued in 
the FAST Act and it has provided state DOTs with greater flexibility to 
deliver projects--including key freight projects--more efficiently, and 
it better supports data-driven investment decisions to meet national 
performance targets.
    Efficient goods movement nationwide has especially benefited from 
the formula-based program framework that built the Interstate Highway 
System and the National Highway System, the backbone of our national 
network of roads and bridges that drives our national economy. This 
remains the optimal approach to underpin the next surface 
transportation legislation that will serve all corners of our country--
by improving mobility and quality of life in urban, suburban, and rural 
areas.
4. Increase flexibility, reduce program burdens, and improve project 
        delivery
    <bullet>  Increase programmatic and funding flexibility to plan, 
design, construct and operate the surface transportation system.
    <bullet>  Reduce regulatory and programmatic burdens associated 
with federal programs that are not part of the project approval 
process.
    <bullet>  Modernize Clean Water Act, Clean Air Act, and Endangered 
Species Act processes to improve transportation and environmental 
outcomes and reduce delays.
    <bullet>  To streamline and improve project delivery, states should 
be provided with opportunities to assume more federal responsibilities 
and the associated accountability.

    As mentioned earlier, state DOTs are appreciative of the 
flexibility in the federal program that supports the right mix of 
projects to meet the unique investment needs of their own states. To 
further enhance the effectiveness of federal funding, we recommend 
increased flexibility of and transferability between the various 
federal programs, which will better enable states to target their 
scarce resources into the most beneficial freight programs and 
projects.
    Each program has rules that are not always flexible regarding how 
the funds may be used, and each program is governed by transferability 
provisions that are established in statute. Specifically, because some 
set-aside programs have strict guidelines for use or narrow purposes, 
these programs tend to be underutilized. Yet limitations in the 
flexibility of set-aside programs prevent states from prioritizing 
projects based on local needs, as well as limiting the ability of state 
DOTs to maximize the use of available funding if a partner is not ready 
to begin a set-aside project.
    In addition, given the difficulties that local transportation 
partners face in obligating federal fund, we can further improve the 
efficiency of how limited federal transportation dollars are put to 
work under the suballocated portion of the Surface Transportation Block 
Grant Program (STBGP). The latest available data shows that 80 percent 
of total unobligated STBGP funds nationwide belong to the suballocated 
STBGP even though it comprises 54 percent of total STBGP funding in 
2019, rising to 55 percent next year. Increased program-level 
flexibility for STBGP would enable state and local governments to 
target funding to better meet their needs, whether for preservation, 
capacity, safety, or other unmet needs.
    With regard to project delivery, even with significant progress 
being made in the past decade, getting the projects done--especially 
larger improvements--still takes too long and is unduly costly and 
delay-prone. We believe there remain opportunities to not only make 
continued improvement in the National Environmental Policy Act (NEPA) 
process itself, but also in making the NEPA process work more 
efficiently with other federal requirements, all the while carefully 
and responsibly stewarding optimal environmental outcomes.
    Beyond NEPA, AASHTO has identified a number of touchpoints where 
states can make determinations in lieu of seeking Federal Highway 
Administration (FHWA) approval. Examples include: federal funds 
obligation management, project agreements, right-of-way acquisition, 
preventive maintenance, repayment of preliminary engineering and right-
of-way costs, and credits toward non-federal share, among many other 
possible areas of current federal oversight.
5. Support and ensure state DOT's ability to harness innovation and 
        technology
    <bullet>  Innovative approaches and technologies should be embraced 
to achieve a safer and more resilient, efficient and secure surface 
transportation system.
    <bullet>  State DOTs, as infrastructure owners and operators, need 
the 5.9 GHz spectrum for transportation safety and connected vehicle 
deployment purposes.
    <bullet>  Preserve state and local government authority to regulate 
operational safety of autonomous vehicles.
    <bullet>  Preserve state and local government authority to 
responsibly manage data collected from transportation technologies.

    Today, the dramatic technological change underway within the 
transportation arena is no less significant than when the combustion 
engine was merged with the wagon in the early 1900s. Today, with the 
merger of technology between the car, truck and other vehicles--and 
with the roadway itself--we will enable unprecedented improvements to 
safety and mobility. This will change the way we move goods, services 
and people on our roads and highways. It is more important now than 
ever that we respect the roles at local, state and federal levels and 
work hard to develop a shared vision of this transportation future in 
order not to be a bottleneck to continued innovation.
    The top priority for the state DOTs and AASHTO has been--and will 
always remain--the safety of all transportation system users. The loss 
of 36,750 lives last year on our nation's highways and streets demands 
that we act boldly. To this end, connected vehicles (CV) utilizing 
Vehicle-to-Everything (V2X) communication in the 5.9 GHz spectrum will 
save lives by creating a seamless, cooperative environment that 
significantly improves the safety of our transportation system. This 
dedicated spectrum is currently at risk due to proposed action by the 
Federal Communications Commission next week to take away more than half 
of the safety band away from transportation safety and connectivity 
purposes.
    The FCC's proposed action would put great progress, such as what we 
recently saw in Wyoming, at risk. To improve safety along the 402 miles 
of Interstate 80, the Wyoming Department of Transportation implemented 
a USDOT pilot program using DSRC-enabled technology to connect vehicles 
to infrastructure and to other vehicles. This corridor along the 
southern section of Wyoming is prone to winter crashes affecting both 
commercial and private vehicles. It is subjected to some of the most 
extreme winter weather conditions--especially blowing snow and vehicle 
blow overs--of any highway on the Interstate Highway System. From 
October 2015 to September 2016, more than 1,600 crashes occurred on I-
80 in Wyoming, resulting in 18 fatalities and 271 injuries. During this 
period, all or parts of I-80 were closed to all vehicles for a total of 
over 1,500 hours--impacting not only travelers but also the trucks that 
make up roughly 55 percent of the state's total annual traffic stream 
and carry more than 32 million tons of freight across the state each 
year.
    The Wyoming pilot program tested applications, such as advanced 
forward collision warnings, to let travelers know of crashes ahead. It 
also provided immediate situational awareness warnings about weather 
alerts, speed restrictions, and parking availability; detailed and 
current work zone warnings; specialized spot weather impact warnings 
for ice, fog, and other hazards; and notifications from disabled 
vehicles. Other sites under the federal pilot program looked at hot, 
humid weather (Tampa, Florida) and congestion (New Jersey/New York 
City) applications.
    We recognize that oversight of communications technology may lie 
outside of your Committee's jurisdiction--but it is important to 
understand how the FCC's decision could impact the transportation 
sector and the policy priorities of this Committee. So we very much 
appreciate your willingness to stand with the state DOTs to make sure 
that our nation's highway infrastructure assets are provided the 
necessary technology to greatly improve safety outcomes for all users.
      Specific Freight Policy Recommendations in the Next Surface 
                          Transportation Bill
    Based on the extensive input from the freight policy experts at our 
state DOTs, the following are the specific recommendations we would 
like to make in the next bill.
Expand the Extent of both the Primary Highway Freight System and 
        National Multimodal Freight Network
    The current definition and limitations of the Primary Highway 
Freight System (PHFS), National Highway Freight Network (NHFN) and the 
National Multimodal Freight Network (NMFN) will not allow states to 
attain the comprehensive goals set forth in MAP-21 and the FAST Act and 
do not take into account the geographic and economic differences in 
states, including the challenges of rural, large, land-based states and 
other concerns of states.
    The PHFS network currently consists of 41,518 centerline miles, 
including 37,436 centerline miles of Interstate and 4,082 centerline 
miles of non-Interstate roads. The designation of PHFS roads in various 
states has resulted in a limited and disconnected network. The ability 
of a state to designate some additional mileage to the NHFN as critical 
urban and rural corridors still leaves an unduly limited and 
disconnected network. For the NMFN, the current draft network is 
limited and does not include all of the National Highway System (NHS) 
roads nor critical rural and urban transportation links.
    Since states are required to complete state freight plans, which 
must then be approved by USDOT, a framework exists to identify and 
define the appropriate freight network in any given state.
    We recommend the following changes:
    <bullet>  Expand eligibility of the National Highway Freight 
Program to include all of the NHFN. Eliminate the 2 percdent rule so 
states can spend funds on any NHFN route (to include Critical Urban 
Freight Corridors and Critical Rural Freight Corridors).
    <bullet>  Expand the PHFS to include all Interstate System roadways 
regardless of how much freight funding a state receives. Given that the 
Interstate System is just that--a system--a fragmented designation of 
the Interstate System is not appropriate to addressing freight 
transportation and goods movement. Freight program eligibility should 
include all Interstate miles by default.
    <bullet>  Remove restrictions on state authority to add mileage to 
the PHFS, NHFN and NMFN, including but not limited to mileage caps on 
critical urban and critical rural corridors.
    <bullet>  Add eligibility to use funds on any portion of a state's 
multimodal freight network as defined in a state's freight plan.
Expand Eligible Activities through National Highway Freight Program
    The use of the nation's transportation system for freight is 
increasing, and with it the need for integrated solutions to better 
move freight throughout the country. Currently, no more than 10 percent 
of NHFP formula funding may be used for intermodal, freight rail, or 
water transportation. Integrated freight management solutions, freight 
safety programs, and research supporting future investments should be 
codified as eligible for NHFP and INFRA funds in new surface 
transportation reauthorization legislation.
    We recommend the following changes:
    <bullet>  Reform the National Highway Freight Program, both the 
formula program to states and the discretionary program (INFRA), to 
more clearly include eligibility for investment in integrated freight 
technology, management and operations strategies and solutions, freight 
safety programs (including for emergency responders), and research 
supporting future investments.
    <bullet>  Remove the 10 percent multimodal cap to provide 
flexibility for states to use discretion in determining the amount of 
NHFP formula funding to go toward multimodal freight projects 
identified in the state's freight investment plan and to invest more in 
multimodal projects if appropriate for that state. Eligibility should 
include multi-state proposals and projects for regions and corridors to 
improve freight intermodal connectivity.
Changes to Infrastructure for Rebuilding America (INFRA) Discretionary 
        Grant Program
    The FAST Act established a new discretionary grant program for 
Nationally Significant Freight and Highway projects. Grant eligibility 
is limited to highway projects on the NHFN, highway or bridge projects 
on the NHS, railway-highway grade crossing or grade separation 
projects, or intermodal or rail projects, including those within the 
boundaries of public or private freight facilities.
    Under the FAST Act, not more than $500 million in aggregate of the 
$4.5 billion authorized for INFRA grants (previously known as FASTLANE 
grants) over fiscal years 2016 to 2020 may be used for grants to 
freight rail, water (including ports), or other freight intermodal 
projects that make significant improvements to freight movement on the 
National Highway Freight Network.
    We recommend the following changes:
    <bullet>  Reauthorize the program and remove or increase the caps 
used for grants to freight rail, water (including ports), or other 
freight intermodal projects.
    <bullet>  Add eligibility to use funds on any portion of a state's 
multimodal freight network as defined in a state's freight plan.
    <bullet>  Minimize annual changes to the Infrastructure for 
Rebuilding America (INFRA) Discretionary Grant Program for consistency 
in grant applications and award criteria.
Reinstate the National Cooperative Freight Research Program
    Throughout its history, a core element of the FHWA Research, 
Development, and Technology Transfer's (RD&T) mission has been to 
promote innovation and improvement in the highway system. Over the last 
decades, this critical mission element has developed into a broad array 
of research and technology activities covering the spectrum of advanced 
research, applied research, technology transfer, and implementation.
    The National Cooperative Freight Research Program, however, was 
last authorized under SAFETEA-LU. MAP-21 and the FAST Act provided much 
more emphasis on freight, while simultaneously reducing funding for 
freight research at the national level. States are concerned that 
freight research needs are not being met solely through the National 
Cooperative Highway Research Program (NCHRP). A dedicated national 
freight research program is needed.
    We recommend the following change:
    <bullet>  Reestablish the NCFRP to provide research products to 
assist states in their delivery of freight transportation projects with 
funding beyond the amount prescribed for the federally-managed Research 
Technology & Education programs and State Planning & Research funded 
programs.
Railroad Coordination
    We heard from our state DOT members in every region of the country 
this past summer that restrictions and delays imposed on transportation 
agencies by railroad owners, either intentionally or unintentionally, 
are significantly affecting the timely delivery of transportation 
projects.
    We recommend the following changes:
    <bullet>  Congress should establish consistent requirements, 
commitments, and timeframes across all public and private railroad 
owners to facilitate transportation work within and across railroad 
rights of way, and provide USDOT the authority to enforce those 
provisions with the railroads.
    <bullet>  Congress should require USDOT to establish template or 
model agreements for standard activities conducted by the state DOTs in 
railroad rights-of-way (and vice versa), and provide guidance on the 
establishment of agreements for special or more complex activities.
                               Conclusion
    State DOTs remain committed to assisting Congress in the 
development of the next surface transportation legislation that 
recognizes the importance of freight transportation, the investment 
needed to support freight transportation, and the ways in which demand 
for goods movement is growing and changing.
    Over the past year, AASHTO's members have been engaged with USDOT 
in their effort to develop a national freight strategic plan to 
identify bottlenecks on the multimodal freight network, including the 
cost to address each bottleneck and strategies to improve intermodal 
connectivity. We share your desire to see this national freight 
strategic plan come to fruition soon, which will enable all of us to 
take a holistic look at the national freight movement picture prior to 
reauthorization of the next long-term bill.
    I want to thank you again for the opportunity to testify today, and 
I am happy to answer any questions that you may have.

    Mr. Lipinski. Thank you, Mr. Tymon, and thank all of our 
witnesses for your testimony today. We are now going to move on 
to Member questions.
    Each Member will be recognized for 5 minutes, and I will 
start by recognizing myself. The first thing I wanted to 
address is the section 130 program for grade separations. I 
wanted to ask Mr. Jefferies.
    Can you elaborate on your thoughts in your written 
testimony where you talk about how we can improve the section 
130 grade crossing safety program?
    Mr. Jefferies. Absolutely. Thank you. So section 130 is one 
of our primary priorities when it comes to FAST Act 
reauthorization, and we have laid out a detailed proposal 
attached to my written statement.
    But a few examples that we would like to see is, one, any 
increase in funding, or even fully funding the authorized level 
of the program is a step in the right direction. But another 
example would be increasing the flexibility of how funds can be 
used.
    Right now, if you use section 130 funds to implement some 
grade crossing safety devices, time goes by, there are more 
effective devices that come available, you cannot use section 
130 funding to upgrade, and we think that is common sense to 
allow for upgrades, especially at those higher risk crossings, 
to make sure you have the most up-to-date technology available.
    Mr. Lipinski. Thank you. In grade separations--I mean 
section 130 covers all grade crossing safety programs. Grade 
separations are the best way to improve safety. I want to ask 
Ms. Aleman.
    Would the establishment of a dedicated Federal grade 
crossing separation program to help advance some of the grade 
separation still unfunded in CREATE be a good idea?
    CREATE has made great strides over the 15 years. But one 
thing that has lagged far behind is the grade separations. 
There are 25 that were included originally, and less than half 
of those have been funded.
    Ms. Aleman?
    Ms. Aleman. Yes, addressing the grade separations is of 
critical importance, not only to the CREATE program, but to the 
movement of freight in our region and beyond. Like you said, 25 
CREATE grade separations have been identified. Of those, only 
seven have been completed. This clearly shows that there is a 
need for additional funding to be able to address those 
critical cross points.
    Mr. Lipinski. Thank you. And I just wanted to ask about 
this, and I know a couple of our witnesses raised it, and I 
raised it in my opening statement--I just wanted to see, by 
show of hands, how many witnesses support eliminating or 
greatly raising the multimodal cap in the INFRA, or whatever 
kind of megaprojects program we are going to have.
    [Show of hands.]
    Ms. Goodchild. I am just abstaining. I am not not voting.
    [Laughter.]
    Mr. Lipinski. OK, thank you. I was going to ask that.
    The big question is how do we structure this program?
    And I don't want to keep talking about the INFRA program 
itself, because what we have done with each of the past 
reauthorizations is we create a somewhat different program. So 
I don't want to just say that we are going to move ahead with 
INFRA, but there has to be something for megaprojects.
    But how do we target that? And I want to start with Ms. 
Aleman. You know, given the limited amount of Federal dollars, 
should our freight strategic plan and our megaproject dollars 
focus on freight infrastructure bottlenecks, or improving the 
large freight network generally?
    How do we do that, in terms of targeting? What would you 
recommend?
    Ms. Aleman. I would recommend a comprehensive look at our 
national freight infrastructure as it exists today. I mean, 
really taking a comprehensive look across the United States 
will help Congress be able to evaluate the effectiveness of the 
programs that we have had to date, and will also allow you to 
shape future reauthorizations. So while we may not be able to 
increase funds, I think, thinking about this in a performance-
based way, where you are applying those metrics on a national 
system as opposed to locally, will help greatly improve the 
next transportation bill.
    Mr. Lipinski. Thank you. I just very quickly want to ask 
Dr. Goodchild. Yesterday, New York DOT announced a pilot 
freight program which will encourage the use of cargo electric 
bikes instead of trucks to move freight within New York City. I 
am just personally intrigued by this, and how this would 
actually work.
    I am not sure where these cargo bikes are going to go, but 
have you looked at this, and would this type of climate-
friendly transportation mode play an important role?
    Ms. Goodchild. So I am currently leading a project to 
evaluate a pilot of electric-assist cargo bikes in the city of 
Seattle. And so our task there is to evaluate the environmental 
safety and efficiency benefits of that approach.
    There is some complexity in that, because it doesn't 
replace a truck. It can only move smaller packages, and it has 
a much shorter range. And so it is used in complement with a 
truck. And it is important when we evaluate this system to look 
at the relationship between those two modes.
    Certainly, it is a more nimble vehicle. And depending on 
what the rules are, if it is allowed to use a bike lane, or if 
it is allowed to park in a sidewalk, or if it is allowed to 
park in a commercial vehicle load zone, it can provide some 
better maneuverability at a local scale. And if it is electric, 
then there is the local zero-emissions benefit of that mode.
    Mr. Lipinski. Thank you. We will look forward to seeing the 
results there.
    So my time is expired. I will now yield 5 minutes to Mr. 
Davis.
    Mr. Davis. Thank you, Mr. Chairman. And thanks again to the 
witnesses. I enjoyed your testimony. And I wish I had longer 
than 5 minutes to get to each of you to ask a few different 
questions. But I don't, so I will start with Mr. Tymon.
    In your testimony you mentioned the freight plans that each 
State has developed. And can you describe any trends that were 
identified across multiple States, and strategies that were 
employed to address these needs?
    Mr. Tymon. I am sorry. Across?
    Mr. Davis. Yes, can you describe any trends? You mentioned 
the freight plans that each State has. Are there any trends 
that kind of go beyond State lines that were employed to 
address kind of the freight strategies?
    Mr. Tymon. Well, I think the important point here is that 
each State is required to put together a State freight plan. 
And you are seeing that States are working with their partners 
across borders to identify projects that cut across States.
    As everybody here knows, freight doesn't just stop at the 
State line, and it is important that States are able to work 
with their neighbors to make sure that freight is moving as 
efficiently as possible. So most, I think, of the freight 
projects that are identified are done in concert with their 
neighbors to make sure that, once you get to a State border, 
that that freight doesn't back up there because the State on 
the other side of that border hasn't worked to make similar 
improvements.
    So we are seeing more and more coordination among States as 
they put together these plans to make sure that freight moves 
as efficiently as possible.
    Mr. Davis. Good. Have you seen the States finding strategic 
value in the plans that they have put in place? And have those 
plans helped to reduce congestion?
    Mr. Tymon. I don't think we have enough of a sample size to 
be able to say whether or not we are reducing congestion. But I 
think it is a step in the right direction. It has really 
required States to take a look at their entire inventory that 
handles freight transportation to make sure that they are 
making the investments that benefit freight as efficiently as 
possible.
    Mr. Davis. OK. Well, in my home State of Illinois, they 
took an innovative approach using their formula freight dollars 
to develop a transparent, competitive grant program that is 
open to stakeholder applications. It is like kind of a State-
level INFRA grant program.
    What other innovative approaches have other States taken to 
use their freight formula funds? And have they allowed States 
to leverage more dollars for reducing congestion and improving 
performance?
    Mr. Tymon. Absolutely. We are seeing the Federal dollars, 
in a lot of cases, being used as seed money to bring in local 
dollars to address freight bottlenecks. The example that you 
have given in Illinois is a great example of States having the 
flexibility to use those formula dollars to create a program 
that works in that State by, essentially, setting up a mini-
INFRA grant program, where it is competitive, and you are 
inviting other stakeholders to come to the table with their 
innovative ideas.
    If the States didn't have that flexibility, we wouldn't be 
able to do projects like that in Illinois.
    Mr. Davis. Great. Ms. Aleman, it is great to sit here with 
my good friend, Chairman Lipinski, who I know is always looking 
at improving the CREATE project. We have talked about it my 
entire 6\1/2\ years here working with him on this issue.
    And I know you mentioned how CREATE, in your testimony, 
will improve the rail system in our home State of Illinois. How 
does improved efficiency in the Chicago rail network benefit 
agriculture and manufacturers in the 13th Congressional 
District that I represent in central Illinois?
    Ms. Aleman. Sure. I think a great example is that in 2014 
there was a severe weather incident that really shut down and 
reduced the delivery service and infrastructure network in 
Chicago. And what that meant was that--it was prime agriculture 
movement season--produce was rotting on train cars, because 
they couldn't get through Chicago. And that produce wasn't 
headed toward Chicago, it was headed towards other parts of the 
country.
    So, you know, 25 percent of all freight trains and 50 
percent of all intermodal trains from the Nation's goods 
movement cross through Chicago. So this really is a national 
issue, and something that we really need to think 
comprehensively about.
    Mr. Davis. Great. It is important, obviously, being a 
center of freight movement in the Midwest. Not just the rail 
network, but also our locks and dams, waterways, and our 
roadways in infrastructure improvements.
    One last question. As somebody who believes we need to pass 
the USMCA through this institution, could you estimate how much 
traffic through the Chicago rail network would go to our 
greatest trading partners, Canada and Mexico?
    Ms. Aleman. I don't have those numbers at my fingertips, 
but I can get them for you for the record.
    Mr. Davis. Thank you, that would be great. I yield back the 
balance of my time.
    Mr. Lipinski. Now I will recognize Ms. Norton for 5 
minutes.
    Ms. Norton. Thank you very much. You will note the interest 
in this committee in multimodal investments, multimodal 
approaches. And, of course, our way in which we allocate funds 
is anything but that. It is stovepiped funding, which makes 
this even more challenging.
    We also know that the railroads, for the first time, were 
included--or at least freight needs were included in the FAST 
Act for the first time. That is really amazing, isn't it, 
considering how important freight has always been?
    And, of course, Mr. Lipinski spoke about the cap on 
funding. I am not sure how funding would operate, but I would 
like to ask perhaps Mr. Tymon, Ms. Aleman, why flexibility to 
pursue multimodal investments to meet freight needs, why that 
is important to States, or to cities, to planning agencies, and 
why you view it as an appropriate use of program funds.
    Ms. Aleman. So, from our perspective, freight doesn't move 
on highways alone, as you see from the stakeholders that are 
here today. We have got rail. Also in our State and across the 
country there are ports. And we believe that, where public 
goods are moving, public dollars should be invested.
    Mr. Tymon. And we absolutely agree that, you know, State 
DOTs right now are all departments of transportation. Gone are 
the days where we had departments of roads or departments of 
highways. All 50 States now have transportation as part of 
their name, and I think that reflects a movement towards a 
multimodal approach to transportation. It is not just about 
moving freight by one mode or another; it is an all-of-the-
above approach.
    And I think, in order to solve the challenges that we have, 
both on the freight and the passenger side, we need to be 
looking at all modes of transportation, and we need the Federal 
programs to provide that flexibility so that States can choose 
the projects and strategies that work best in that State.
    Ms. Norton. Thank you.
    Ms. Aleman, I was intrigued by a suggestion on--I think it 
is page 8 of your testimony--to develop a national strategy 
that guides long-term planning. And you even say that there 
should be an office of multimodal freight.
    We have heard here that everything from the curbs down to 
the last inch of infrastructure is simply not ready for the 
21st century. Would you talk more about this national strategy?
    Ms. Aleman. Thank you, Chairwoman. The national strategy is 
critical, because we have the data to know where the freight 
bottlenecks are across this country, and we can use that as our 
North Star for programming project funds, and making sure that 
the projects that are funded are advancing the goals of this 
country and of Congress. And so that allows you a measurable 
tool to be able to look back and track your progress over time, 
and hold these programs and these discretionary funds more 
accountable.
    Ms. Norton. So I take it--Dr. Goodchild, your testimony 
highlighted the importance of supporting cities and local 
communities to grapple with this rapidly changing freight 
supply chain. What kind of tools would help cities build the 
capacity to plan for the future of freight deliveries, which 
are changing and perhaps becoming obsolete, even as they 
develop those strategies?
    That is why I asked Ms. Aleman about long-term planning. 
But what kind of tools do you have in mind?
    Ms. Goodchild. So one would be data about goods movement 
that is relevant at sort of the municipal scale, or even 
megaregion scale. When we just look at State-to-State, or 
regional data, like the Puget Sound, it doesn't provide any 
insight about movements within the region of the Puget Sound.
    Another would be to encourage groups like the Urban Freight 
Lab, local collaborations that could contribute to defining 
local problems, and there could be a Federal role in 
supporting, and initiating, and in catalyzing those kinds of 
organizations.
    Ms. Norton. Thank you very much. I see my time has expired.
    Mr. Lipinski. Thank you, Chairwoman Norton. The Chair will 
now recognize Mr. Crawford for 5 minutes.
    Mr. Crawford. All right. Thank you, Mr. Chairman. I want to 
start with Mr. Jefferies.
    I am going to direct this question to you. The advancement 
of technology over the past few decades is undeniable. It has 
led to tremendous gains throughout the economy. Can you provide 
some examples of how technology is being used in the rail 
industry, and the impacts they are having?
    And what do you think Congress can do to ensure an 
environment where future technologies are not stymied by 
regulatory burdens?
    Mr. Jefferies. Absolutely, thank you. So, I mean, you hit 
the nail on the head, that technology has played an 
evolutionary role in the railroad. If you look at where it was 
10, 15, 20 years ago, today's railroad, while still steel-on-
steel, is a completely different animal.
    Locomotives are super-computers on wheels, and they are 
able to gather data throughout every aspect of the trip, pair 
that with detectors and other inspection equipment that is 
along the right-of-way throughout the system that is listening, 
watching, and analyzing not only the track as you go over it, 
but also the locomotive as it comes by, to identify potential 
flaws in the system, potential risk areas. It allows you to, 
through predictive analytics, to identify possible risks before 
they become serious problems.
    Even on the environmental side, using emissionless cranes 
in the yards, idle-reduction technology in the yards to reduce 
emissions in yard movements, which is where a lot of the 
emissions occur.
    And really, our main issue is, when we look at regulations, 
let's talk about where we want to go, and let railroads find 
that path to meet the outcome that Congress or the regulator is 
staking out. And let's not focus on the prescriptive way to get 
there, because I think ingenuity is a powerful tool, and it is 
amazing what people will come up with if you tell them the goal 
and let them get there via their best methods.
    Mr. Crawford. Excellent, thank you. This is just general. 
Anybody that wants to chime in, feel free.
    The current rate of highway capacity growth sufficient to 
address the growing freight demand and the--what do we need--
what is the expanded capacity that is needed the most?
    Mr. Tymon. So, Mr. Crawford, I think that that is a great 
question, because I think it varies, depending on what part of 
the country you are in. Right now I think that the number-one 
priority for State DOTs is maintaining the assets that they 
currently have. But there are certainly some parts of the 
country and on certain facilities where additional highway 
capacity will help improve the efficient movement of both 
people and freight.
    With the projected growth that we are going to see in 
freight transportation in the future, I would have to assume 
that there are multiple projects in each State across the 
country where additional capacity will help make sure that that 
freight continues to move as efficiently as possible.
    Mr. Crawford. Do you think the demand for freight 
transportation is directly correlated to highway capacity, or 
is it more closely tied to other factors like economic growth?
    Mr. Tymon. I think that it is a combination of things. I 
think that, as the economy grows and the country demands more 
products and goods, there is just going to be more of a demand 
on the system. How we meet that demand, I think it will have to 
be a multimodal approach. I think it is going to have to be an 
all-of-the-above approach. It will have to be a, in some cases, 
additional highway capacity, but it will also have to be 
additional freight rail capacity in some way, shape, or form.
    So, you know, I think State DOTs out there are looking for 
multimodal solutions, not just one solution. But I do think 
that highway capacity increases are part of that solution.
    Mr. Crawford. In your view, what are the most significant 
trends in transportation and distribution that will impact 
where, how, how much freight will be moving over the Nation's 
highways in the coming years?
    Mr. Tymon. I am sorry, could you repeat that, again? It 
is----
    Mr. Crawford. What are the most significant trends that you 
see in transportation and distribution that would impact where, 
how, and how much freight would be moving over the Nation's 
highways in the years to come?
    Mr. Tymon. I think the number-one trend that we are seeing 
is changes in how people expect to get their goods and 
services, right?
    I mean I think Chairman DeFazio mentioned earlier we are 
just through Black Friday and Cyber Monday, and the real-time 
nature of what people expect and now demand, as consumers, is 
going to put a different stress on the system than we were 
thinking about 20, 30 years ago. And the system is going to 
have to adapt to be able to meet those demands. I think the 
consumers are now--you know, we thought 2- or 3-day delivery 
was a push 10 years ago. Now we have 4- to 6-hour delivery 
windows. If consumers are going to expect that kind of 
responsiveness, the system is going to have to adapt, and there 
is going to have to be some expansion and innovation within the 
system to be able to accommodate that.
    Mr. Crawford. Thank you, I yield back.
    Ms. Norton [presiding]. Chairman DeFazio for 5 minutes.
    Mr. DeFazio. Thanks, Madam Chair.
    Mr. Mathers, you point out that we are using 43 percent of 
the capacity of our freight trucks. You give some examples. You 
had examples of Ocean Spray, Colgate, Kimberly-Clark, and 
Walmart. What Federal policies could we adopt to encourage 
higher utilization so we don't have part-full trucks running 
everywhere?
    Mr. Mathers. Thank you, Mr. Chairman. It is a great 
question. I think, as we have seen, there is a lot of, you 
know, just operational choices that the shippers themselves 
have to make. So it is less clear to me exactly on Federal 
policy choices.
    But, I would think that part of this is kind of 
information- and data-sharing between companies. I think we see 
a great opportunity between shippers to co-load and collaborate 
in their shipping. And that was the example in the testimony of 
Colgate and Kimberly-Clark, right, where they are taking trucks 
off the road, they are delivering more products to CVS, 
inventory costs are going down.
    I think the big barrier there is data and transparency and 
companies working together. And so I think it could be an 
effort to study that issue, to bring shippers together, and 
really try to understand how they can get better data 
transparency amongst shippers.
    Mr. DeFazio. OK. I am still thinking about what the Federal 
policies would be, but I agree with the transparency and the 
data-sharing. But I have got to figure out ways to incentivize 
that or encourage that.
    Mr. Jefferies, as you know, a couple of decades ago 
Congress gave Amtrak trains preference over freight. And DOJ 
can enforce that preference. They have only done it once. And 
under PRIIA, Congress directed the FRA and Amtrak to develop 
minimum performance standards.
    And then, of course, the freight industry sued, and now our 
delays and on-time performance are up dramatically.
    I just was recently meeting with Richard Anderson.
    And, you know, I live 112 miles from Portland. I would 
rather not drive on Interstate 5, but their scheduled time is 
3\1/2\ hours for 112 miles. And they frequently don't meet 
that.
    We now have freights that are running 3 miles long, they 
don't have 3-mile-long sidings.
    How do you recommend that we might better deal with this 
issue? Because I am pretty much getting to the point of some 
pretty strong legislation. So do you have any suggestions, 
short of that?
    Mr. Jefferies. So I think we are happy to see FRA moving 
forward with a rule. They estimated at a hearing in the Senate 
Commerce, Science, and Transportation Committee they expect to 
have that out next June, I believe. We think they are taking 
the right approach by taking information from all stakeholders 
and moving forward.
    I think, on the----
    Mr. DeFazio. Was that the FRA?
    Mr. Jefferies. Yes, sir.
    Mr. DeFazio. Well, yes. We had Mr. Batory here. He is one 
of the most embarrassing witnesses we ever had, to tell the 
truth. So I am not putting a lot of stock in his rule, but we 
will see how that works out.
    But you have got to do something here, or we are going to 
have to do something in the surface bill that you are probably 
not going to like, and it is going to be very prescriptive. So 
I just want to get that----
    Mr. Jefferies. Well, we think it is important that FRA move 
forward with a rule to get metrics and standards----
    Mr. DeFazio. Yes, message across.
    Ms. Goodchild, you point out a whole host of issues, but I 
guess you are an academic. It is kind of short on solutions at 
this point, particularly the urban congestion, the last-mile 
delivery stuff.
    Ms. Goodchild. Well, I think that the industry is 
experimenting. I think if you look at--the example was raised 
of e-bikes in New York City. I am encouraged by the motivation 
to try new solutions. And those need to be tried before we can 
identify them as well-established solutions. So I think there 
is a need for experimentation.
    We can start with ideas. There are lots of ideas. But it is 
important to move from ideas to evaluation and consensus and 
establishing those as things we might want to set forth as 
solutions that communities should consider.
    So I think, you know, experimentation and test and 
supporting that, to the extent possible, allowing that to the 
extent possible, is important right now. And part of that also 
comes from having data and information, investing in data that 
we can use to actually evaluate and compare and contrast.
    Also, to the point about sort of trucks not being 
particularly well utilized, there is a very strong market 
incentive for trucking companies to utilize their equipment. 
They are very good at that. And the reason they don't is that 
they are responding to customer demands. And so, I think 
allowing--you know, considering the motivation and the role of 
the private carrier, listening to what would help them run a 
more efficient system, is important.
    So we have zero visibility about parking availability. If 
you run a tour in the city of Seattle and your goal is to do 
that quickly and efficiently, you have no idea what parking 
will be available, at what time. And it is essential to having 
good performance.
    So investing in technology that allows us to see what 
infrastructure is available, and to measure its performance, 
will result in benefits in supply chain efficiency.
    Mr. DeFazio. OK. That is interesting, thank you.
    I thank you, Madam Chair.
    Ms. Norton. Mr. Gibbs?
    Mr. Gibbs. Thank you, Madam Chair. Well, I will say the 
good news is the economy is really strong, so that gives us 
more stuff to move. Consumers are buying a lot of stuff, they 
are driving this economy. And plus, just earlier, the consumer 
demands--the attitudes are changing. More challenges for all of 
us in the transportation sector, right?
    I wanted to say, also, we need all modes. I think we all 
agree to that. If one mode breaks down or stumbles, it is going 
to affect all the other modes. So we always should be 
conscious, we--you know, keep that in mind.
    And I know we don't have any representation here, I guess, 
from the trucking industry, but hopefully we can in the future.
    I know we have met with the auto manufacturers. And on the 
passenger side they are pretty much saying they are going to be 
all electric at some point on passenger vehicles, all electric.
    Now, Mr. Mathers, I see in your testimony on the trucks, 
you are talking about heavy trucks, all electric. I just got a 
few questions on that.
    On your charts here, you have got urban delivery, regional 
haul. There is not long haul on there. So the first thing that 
comes to my mind is horsepower. Is the technology there? Where 
are we on the technology for the horsepower and also the cost 
for the, you know, industry driving this?
    And then take that a bit further, because I think we have 
reduced our greenhouse gas emissions in this country in the 
last decade about 13 to 15 percent, the reports I have seen, 
and that is from natural gas. And I think most people agree to 
that. If we have an all-electric passenger fleet, and we move 
to an all-electric freight fleet, has anybody studied what does 
that do to our demands on our grid, our electric generation, 
and the overall emissions, overall?
    So I guess my question is--most to Mr. Mathers, I think--do 
you know what the costs are to make these heavy-duty trucks 
electric in their operating costs, how that compares to a CNG 
or an LNG vehicle, and then also how it relates from the start 
of generation all the way through.
    Mr. Mathers. Great. Well, thank you. Thank you, Mr. Gibbs.
    I think that maybe the first thing to talk around is the 
horsepower, right? You are asking about, you know, right now, 
Daimler has--I believe it is 20 e-Cascadias pulling cargo out 
of L.A.-Long Beach. The horsepower is there, and the technology 
is working for drayage applications and kind of making inroads 
in the regional haul, which are, you know, 150-, 200-mile kind 
of duty cycles.
    And I think that is what we are looking for when we think 
about zero-emission, Class 8 trucks is having that day cab 
operation, going from a distribution center to a grocery store.
    And then, for the long haul, I think the question is how do 
you use that capacity in the long haul to the fullest, how do 
you use intermodal? And I actually think there is a great 
pairing between using intermodal to move freight for the long 
haul and using the zero emission to deliver the freight 
regionally.
    On the cost question, I think just yesterday Bloomberg New 
Energy Finance came out with their annual update of the cost of 
EV battery packs. And it was $156 per kilowatt hour. That is 
down from $1,100 per kilowatt hour in 2010. We are seeing a 
dramatic reduction in----
    Mr. Gibbs. How about cost of heavy-duty trucks, electric, 
the cost----
    Mr. Mathers. The trucks. Yes. So, like, the trucks on the--
there is a paucity of data right now on the trucks themselves, 
because the trucks in operation right now are largely 
demonstrational projects. Where you have electric, heavy-duty 
vehicles is in the transit space.
    And right now, the electric transit buses cost more 
upfront, but they deliver savings over the life cycle of cost--
--
    Mr. Gibbs. I am running out of time. Your organization, the 
Environmental Defense Fund, are you pro or con, integrating 
more natural gas where it makes sense to move this, or----
    Mr. Mathers. It is a great question. So I think I will make 
two really quick points on that.
    One is that electric power is inherently more efficient. So 
if you want to take natural gas and get miles out of it, you 
will get twice the miles by making electricity, and putting 
that electricity into a battery, and using that to move the 
vehicle.
    The second point is freight has two sources of emissions: 
criteria emissions that harm local air pollution, and global 
climate emissions. Natural gas can help with one. It hurts with 
global climate emissions because of the serious issue of 
methane leaks throughout the supply chain.
    Mr. Gibbs. I am out of time, so I have to yield back.
    Ms. Norton. The gentleman's time has expired. Mrs. 
Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair.
    Ms. Aleman, you have discussed economic importance of 
freight investments. You also represent local communities 
throughout which freight moves, much like the Alameda Corridor 
in my district. Would you discuss the community impacts of 
freight movement on the quality of life impacts and concerns, 
and what projects are best at addressing these issues?
    And should the freight industry be more invested in 
addressing local impacts of rail?
    Ms. Aleman. Thank you for the question, Congresswoman. You 
know, we estimate the motorist delay in the Chicago region cost 
about $58 million in 2018, but we are reexamining that research 
to really look at what the local impacts are of congestion on 
communities across our region.
    We have 284 municipalities in 7 communities that I 
represent here, as the MPO. You know, and we are seeing that 
perhaps the number, just based on our preliminary research and 
the data that we are collecting, that perhaps the number of 
congestion is even worse in our communities.
    And, you know, to local communities, the impacts of 
congestion are real. Air quality impacts are real. The 
deterioration of their local roads, the safety impacts, and the 
noise impacts, these are things that communities are grappling 
with.
    So, as a planning organization, we are working with 
communities to help them address these projects, these 
concerns, proactively. We are doing local plans, we are helping 
them build their capacity at the local level, and really trying 
to get ahead of freight movement and freight demand increases 
by helping them figure out where trucks should be, and what 
time of day those trucks should be in different places. So 
thank you.
    Mrs. Napolitano. Thank you for your answer.
    Mr. Mathers, I represent part of southern California, which 
is home to the Ports of Los Angeles and Long Beach. Forty-five 
percent of the Nation's imports and exports go through it.
    Our ports have done a remarkable job in the past 10 years, 
and continuously greening their drayage trucking fleets.
    One problem with the retrofits is that their costly 
upgrades get passed on to the truck drivers themselves. This is 
a problem to where many corrupt trucking agencies force their 
employees to lease-own trucking models and then severely 
underpay drivers and force them into bankruptcy trying to pay 
for engines. How do we deal with this problem?
    Mr. Mathers. Thank you for the question. I think the 
drayage space is a complex and challenging space. As we are 
thinking about zero-emission opportunities there, I think the 
big challenge is just the connect between the cost of the 
technology and the availability of capital for the drivers 
themselves.
    And so I think one of the things I am noting here is hoping 
that this committee moves forward and brings stakeholders 
together to create a plan for moving that industry to 100 
percent zero-emission drayage trucks by 2030, and a key part of 
that is going to be financing mechanisms for the drivers and 
understanding the roles that the shippers should be playing, 
and that other folks, other stakeholders have, to make sure 
that drayage drivers can move into zero-emission vehicles.
    Mrs. Napolitano. Thank you very much.
    Ms. Aleman and Mr. Tymon, the FAST Act created two freight 
funding programs, one at 4.5 competitive grant, and the other 
at 6.3 formula for the States. We are all concerned that 
competitive freight has been overly politicized, and that 
projects are not being awarded.
    Should transportation put all the freight funding into the 
formula National Highway Freight Program so that each State is 
given freight equity?
    Ms. Aleman. I want to be sure that I understood your 
question, Congresswoman. Was it about the equity of the 
distribution of the funds in the program?
    Mrs. Napolitano. Should we move----
    Ms. Aleman. Yes.
    Mrs. Napolitano [continuing]. All the funds into the 
National Highway Freight Program, instead of having the other 
competitive--by the administration.
    Ms. Aleman. So I think both programs are necessary. I mean 
one of the things that I saw when I was at the DOT is that, you 
know, freight impacts across the State are very different than 
the freight programs where folks would come together across 
jurisdictional borders to work on those highly complex 
projects. And those competitive funds were really an incentive 
for communities, for multistates to be able to work together.
    And then, at the local level, to the distribution of those 
funds to the States, we are helpful in them addressing sort of 
the intrastate commerce challenges.
    Mrs. Napolitano. Mr. Tymon?
    Mr. Tymon. May I weigh in on that, as well? I think that 
that is--you bring up a great point. And I do think there is a 
role for both discretionary and formula programs.
    But the fact that there is such variation from Congress to 
Congress, or administration to administration, in how those 
discretionary dollars are distributed, I think, really adds 
more merit to the formula-based program, because it is a 
predictable stream of funding that will allow project sponsors 
such as States to be able to pick the projects that they need 
to do over a long period of time.
    So I just think that what you have highlighted there is a 
great supporting statement for formula dollars and the value 
for them.
    Mrs. Napolitano. I think you are right, and I think we 
should move them.
    Thank you, Madam Chair.
    Ms. Norton. Thank you, Mrs. Napolitano. We move on to Mr. 
Stauber.
    Mr. Stauber. I thank you, Chair Norton and Ranking Member 
Pence.
    Before I go into questioning, I think it is important to 
illustrate the freight networks in my district of Minnesota, 
and how they interact with each other.
    In northeastern Minnesota we have freight rail lines that 
carry taconite from the Iron Range to the Port of Duluth to be 
shipped by lakers across the Great Lakes through the Soo locks, 
and to be made into American steel.
    We have freight lines that transport coal and ag products 
from the upper Midwest to the Port of Duluth to be shipped to 
the east coast and across the Atlantic Ocean.
    The Port of Duluth, the most inland port in the Nation, 
accepts intermodal traffic, from trucks that must navigate 
through a treacherous traffic interchange to drop off or pick 
up their products. Our entire freight network in northeastern 
Minnesota is interconnected and codependent on each other. This 
means that if and when parts of the network fail, or are 
inefficient, the entire system suffers.
    Mr. Baker, can you please speak to the importance of the 
45G tax credit--which I support, by the way--to the 
interconnectedness of freight networks?
    Mr. Baker. Thank you very much for the question. Normally 
people ask me to stop talking about 45G, because I do it so 
frequently, but I appreciate you asking.
    It is the most critical policy that we have identified to 
help with short line railroads. We are largely a privately 
funded network. But given the nature of short line railroads, 
preserving service into small towns in rural America, Congress 
has long seen the wisdom in helping out a little bit.
    The credit has been expired since the end of 2017. It is 
beyond critical and crucial for us at this point. It is an 
extraordinarily effective way to get upgrades done in small 
railroads and----
    Mr. Stauber. Remain competitive?
    Mr. Baker. To remain competitive, and those small railroads 
can do an awful lot with just a little bit of help.
    Mr. Stauber. Thank you very much.
    Mr. Tymon, as I mentioned before, the Twin Ports 
Interchange project, also known as the ``Can of Worms''--so 
this tells you a little bit about the nature of this traffic 
issue just coming out of the Port of Duluth and in the city of 
Duluth. It is a major inefficiency, and endangers the freight 
network in my district around the port.
    Can you please speak a little bit about how the highways--
and specifically, the interchanges such as the ``Can of Worms'' 
in Duluth, Minnesota, can impact freight travel, and how 
important it is to ensure there are efficiencies to maximize 
our shipping capabilities?
    Mr. Tymon. Thank you for that question. You know, I think, 
first, you mentioned safety. And safety is the number-one 
priority for every State DOT across the country. So, in 
addition to making sure that we can move that freight as 
efficiently as possible, we need to make sure that the system 
operates as safely as possible.
    So, you know, I think that the project that you have 
described, there is probably a project like that in every State 
across the country, whether it is called the ``Spaghetti 
Bowl,'' or the ``Zoo,'' or the ``Can of Worms''--I can't say I 
have heard that one before.
    You know, there are strategies that States can do to work 
with localities to make sure that they either look for ways to 
operate that facility as efficiently as possible, whether it is 
use of technology, or, in some cases, you know, looking at that 
facility and seeing if there are changes that need to be made, 
from an infrastructure standpoint, to help it operate 
efficiently.
    I think that the biggest problem there is funding. And if 
there aren't the resources that are necessary for a State or a 
locality to take on a major project like that, if you are 
talking about reconstituting that interchange in a way that 
looks significantly different than what it does now, you are 
going to need a significant amount of dollars to be able to do 
that.
    So, having a robust Federal program that will be able to 
fund those types of projects would be extremely helpful in 
having a State be able to tackle something like that.
    Mr. Stauber. So would you say that, in our case, if the 
``Can of Worms''--and they are working on it--if that was 
fixed, if it was safer and more efficient, what would be the 
timetable that you would see an economic increase? Would it be 
immediate, or over a period of time, in your experience?
    Mr. Tymon. Well, I think you would see both immediate 
impacts as well as long-term impacts for a major project like 
that. You would see probably an immediate impact, from a 
congestion standpoint and from a safety standpoint. But then, 
you are making that area more economically competitive if you 
are able to increase throughput and increase the reliability 
and efficiency of that facility.
    Mr. Stauber. Thank you for your questioning. And to all the 
witnesses, thanks for your testimony. It is greatly 
appreciated.
    And Madam Chair, I yield back.
    Ms. Norton. Thank you, Mr. Stauber. Next would be Mr. 
Malinowski.
    Mr. Malinowski. Thank you. Thank you, Madam Chair.
    Mr. Jefferies, you and I had an exchange the last time I 
was here that I wanted to follow up with you on, and I want to 
say at the outset that I very, very clearly understand the 
essential role that freight railways play in our economy, and 
the profoundly beneficial role that they play in helping us 
maintain a transportation system, while keeping the environment 
clean, and dealing with climate change. It is undeniable.
    I do have concerns about safety, though. And in our last 
exchange you placed a great emphasis on data, on basing 
decisions on data, which, of course, I agree with. And you came 
today with data about falling accident rates in the freight 
rail system. And it was interesting to me that you chose a 
timeframe going back to the year 2000, which is quite a long 
time.
    Well, we actually have data that came out, I think, even 
today on 2019 that allows us to look, I think, at a more 
significant time period, given changes in the freight rail 
industry just the last few years. So let me read you some data.
    Since 2016, from 2016 to 2019, total fatalities are up from 
519 to 617, almost a 16-percent increase. Trespasser deaths, up 
by over 25 percent. The rate of train accidents per million 
freight train-miles, up by around 9 percent since 2016. Hazmat 
cars damaged or derailed, up by over 20 percent since 2016.
    Since you are so focused on data, I wonder if you could 
offer us an explanation as to why things have gotten so much 
worse in just the last 3 years.
    Mr. Jefferies. So, first, thank you for that. Let's start 
with the deaths. You know, you mentioned trespassers. Grade 
crossings, I don't know if you mentioned grade crossings 
specifically, but that is an area of challenge, absolutely. 
Ninety-six percent of rail fatalities are at grade crossings or 
are trespassers. And that is an area where we continue to focus 
on driving that number down. And it is certainly a 
responsibility, it is a shared responsibility with the 
railroads, with the communities, with individuals involved. And 
it is something that we need to continue to work on. And 
absolutely, we will do that.
    That number is dramatically lower than it was, 
historically, but it is not low enough, because it is still 
above zero. So we have more work to do.
    Mr. Malinowski. Well, it is not just that these numbers are 
above zero. Of course, we always want to get down----
    Mr. Jefferies. Right.
    Mr. Malinowski [continuing]. To zero. It is that they have 
been going up.
    Mr. Jefferies. Well, I think----
    Mr. Malinowski. Really, across the board, not just----
    Mr. Jefferies. Every year we want to drive them down, but--
--
    Mr. Malinowski. Well, since 2016, virtually every safety-
related statistic looks worse and worse----
    Mr. Jefferies. Well----
    Mr. Malinowski [continuing]. In the freight rail industry. 
And, you know, you are touting this miraculous technology. 
Locomotives are super-computers on wheels, identifying all 
these----
    Mr. Jefferies. Absolutely.
    Mr. Malinowski [continuing]. Problems before they arise. 
And yet things are getting worse. And I----
    Mr. Jefferies. Well, I----
    Mr. Malinowski. And I would stress this----
    Mr. Jefferies. I would challenge they are getting worse. I 
am not looking at the same data you are, but----
    Mr. Malinowski. I am looking--I am happy to share this. 
This is from the FRA.
    Mr. Jefferies. Yes. When we look at hazmat transportation--
--
    Mr. Malinowski. The category----
    Mr. Jefferies [continuing]. We are in the safest era ever, 
99.998 of hazmat movements move from point to destination 
without any incident, whatsoever.
    Mr. Malinowski. Compared to the early 20th century----
    Mr. Jefferies. That is not 100 percent----
    Mr. Malinowski [continuing]. Perhaps, but in the last few 
years something has happened.
    Mr. Jefferies. That is actually current data, but----
    Mr. Malinowski. And, look, I am stressing this because you 
are up here advocating for certain things.
    Mr. Jefferies. Right.
    Mr. Malinowski. You are advocating that we do nothing on 
the length of freight trains, that we do nothing on crew 
requirements for freight trains. You are advocating that we 
allow increasingly hazardous materials, like LNG, to move on 
freight trains.
    You said something earlier today. It was really an eloquent 
statement in its way. You said, ``Let's not focus on the 
prescriptive way to get there.'' What do you mean by that? Are 
you suggesting we do nothing?
    Mr. Jefferies. No, I am saying let's talk about the goal we 
want to get to, and let's set benchmarks for getting to that 
goal. But let's not set one way and one way only for how to get 
there.
    Mr. Malinowski. So, basically, no way. You want us to 
basically tell you--have safer railways, but allow the industry 
to figure out how we do it.
    Mr. Jefferies. I think that----
    Mr. Malinowski. And no regulation.
    Mr. Jefferies [continuing]. When you prescribe one and only 
one way to get to a desired outcome, you miss opportunities.
    I think we have a shared interest. I mean this conversation 
shows we have a shared interest in maximizing safety. And so we 
can agree on that. Like I said, we may disagree on data 
interpretation, but I think we can agree on shared goals of 
safety. So something I am certainly happy to have more 
conversations with to see where we can----
    Mr. Malinowski. Sir, you know, a couple weeks ago the CEO 
of Boeing was sitting right in that chair. And right over there 
we had families of people who lost their lives because the 
airline industry lobbied us for 20 years for less and less 
regulation. And he had to look them in the eye and apologize. I 
really hope that you don't find yourself in that position at 
some point in the future.
    There has to be a prescriptive way to get there, and we 
have to work together to find it. Thank you. I yield back.
    Ms. Norton. Mr. LaMalfa?
    Mr. LaMalfa. Thank you, Madam Chair, I appreciate it.
    Mr. Mathers, EDF is known for its attempt to use market-
based policies--its claims on taxing--or increasing costs, 
fines, whatever, on things it doesn't favor, while decreasing 
costs on environmentally friendly vehicles or other energy-
consuming means.
    So do you support the repeal--for heavy-duty trucks we are 
talking about--of Federal excise tax that has been around since 
World War I--I am carrying a bill on this--that adds to the 
cost of heavy-duty trucks--$10,000, $12,000, $15,000--as a 
means of getting cleaner, more environmentally friendly, 
cleaner running diesel engines onto our roads?
    Mr. Mathers. Thank you for the question, Congressman. I 
think it would be great to target that tax break for zero-
emission vehicles, zero-emission trucks, and that the focus 
should be on incentivizing a move to the cleanest technology we 
have available.
    Mr. LaMalfa. The diesel engines produced these days are 
much cleaner than the ones that are 10 years old or more.
    Mr. Mathers. And yet there is still significant room for 
improvement, particularly in the low-speed, high-idle duty 
cycles. And that is why the EPA and the California Air 
Resources Board are currently both working on regulations to 
further reduce NOx emissions. And we are happy to see that, and 
it is desperately needed.
    Mr. LaMalfa. Well, there is a time period between now and 
when this technology becomes available, whether you are talking 
all-electric vehicles, or lower NOx, or what have you, that 
people still need to buy and purchase trucks.
    Mr. Mathers. Sure.
    Mr. LaMalfa. And utilize, upgrade the fleet, California 
would see CARB coming down on people right now by January 1. 
Many trucks are going to be unavailable to folks, so they got 
to replace them with something. So shouldn't they replace them 
with the best available technology today? Or do you just want 
to make them have nothing until then?
    Mr. Mathers. I think that there are programs that exist, 
such as the Diesel Emissions Reduction Act, through the EPA, 
that help get dirty diesel trucks off the road, and we fully 
support that. And I think there are lots of opportunities.
    I think the question is, where should we target taxpayer 
money. And I think that is to move forward with really----
    Mr. LaMalfa. You made a good point there.
    Mr. Mathers [continuing]. Cutting-edge technology----
    Mr. LaMalfa. This is taxpayer money. These truckers are 
paying these additional taxes on a vehicle they are trying to 
replace older vehicles with that are achieving 99 percent 
cleaner emissions than one that is 10 or 15 years old.
    So it is, indeed, their money. So why aren't they allowed 
to keep more of their money so they can replace a truck sooner?
    Mr. Mathers. Well, I mean, again, I think it is great to 
incentivize the advanced technology such as zero-emission 
trucks.
    Mr. LaMalfa. We are not talking zero emission. We are 
talking extremely low-emission trucks available right now.
    Mr. Mathers. Mm-hmm.
    Mr. Tymon. Mr. LaMalfa, do you mind if I weigh in on this?
    Mr. LaMalfa. Quickly, please.
    Mr. Tymon. I think you are referring to the Federal excise 
tax on--are you referring to the Federal excise tax on the 
purchase of new trucks and trailers?
    Mr. LaMalfa. Yes, sir.
    Mr. Tymon. I see, absolutely, the merits of your argument 
in saying that if you eliminate that tax, that there is less of 
a barrier for trucking companies to purchase new equipment.
    I would say that is a great argument there. I think the 
concern for a lot of us in the transportation community is the 
loss of revenue associated with that tax. So I don't think that 
a lot of folks in the transportation community are opposed to 
the elimination of it. It is the fact that it would leave a 
pretty large gaping hole in Highway Trust Fund revenue for a--
--
    Mr. LaMalfa. It is a pretty small percentage of the overall 
Highway Trust Fund, but it is a big barrier for somebody, 
especially owner-operators, trying to replace a truck.
    Mr. Tymon. Absolutely, and----
    Mr. LaMalfa. It is only several billion dollars of a giant 
fund.
    Mr. Tymon. It is----
    Mr. LaMalfa. So you would rather keep that in place to keep 
a barrier for small operators, especially, to buy these trucks?
    Mr. Tymon. No, I am not saying that. I am just saying that 
we need to be cognizant of making sure that, whatever hole that 
leaves, that it is replaced by some other revenue source.
    We are already spending about $15 billion a year more from 
the Highway Trust Fund than we are bringing in revenue. So a 
change like that, if that increases that delta, which--I am not 
saying that folks are opposed to it, I just think that that 
revenue needs to be replaced in some way, shape, or form.
    Mr. LaMalfa. There is a lot of ways to replace revenue. But 
certainly sacking the small--or any of these folks.
    If you all want to talk about wanting to have cleaner 
running trucks on the road immediately, especially with CARB 
coming down on California truckers on January 1, just days away 
from now, and you make it a much higher bar by having this 
World War I-era tax still in place, then you are not achieving 
cleaner air, you don't have the electric vehicles that are 
available in any kind of volume these days, or even seen as 
viable. You know, maybe in short hauls, short-term use, and 
things like that, but over-the-road trucks still need to have 
available the current technology that is improved to 99 percent 
cleanliness.
    And that is what nobody acknowledges around here, is that 
they have achieved much, much cleaner tailpipe, whether we are 
talking trucks or cars, and still we go down this path where 
people are going to have much fewer choices. Instead, you have 
the club of Government saying you have to use this kind of 
vehicle. And that is not going to work for a lot of folks.
    Ms. Norton. The gentleman's time----
    Mr. LaMalfa. I yield back.
    Ms. Norton [continuing]. Has expired.
    Ms. Finkenauer?
    Ms. Finkenauer. Thank you, Chairwoman. I appreciate you all 
being here today, too, and taking all of your time to come and 
testify. It is an important topic. And my first question 
happens to be for Mr. Jefferies.
    In your testimony I know you mentioned how the ongoing 
trade war with China is hurting two industries that are heavily 
served by railroads, both agriculture and manufacturing, which 
we feel pretty strongly in Iowa 1 right now.
    As a result, the demand for rail service has gone down. I 
heard this firsthand when I was visiting Iowa Northern Railway 
in August--one of our short line railroads in Iowa--and learned 
about the problems that the trade war has created very 
specifically for their business.
    With Brazil now having taken over most of our market share 
of soybean imports to China, the railway is moving less grain 
and facing more competition from larger railways for shipments 
to local processors.
    John Deere, one of their customers, a large employer in my 
district, has seen their sales drop because of this ongoing 
trade war with China. When our farmers are not doing well, they 
are not buying new machinery, meaning that Iowa Northern 
Railway is moving less of their freight.
    Mr. Jefferies, how are railroads responding to the reduced 
demand for freight services?
    Mr. Jefferies. Thank you, Congresswoman. You know, you hit 
the nail on the head, just about trade uncertainty in general, 
whether it is China, whether it is north-south trade 
uncertainty right now with the USMCA----
    Ms. Finkenauer. But very specifically, China right now----
    Mr. Jefferies. Absolutely.
    Ms. Finkenauer [continuing]. Specifically when it comes to 
steel, when it comes to----
    Mr. Jefferies. When it comes to grain exports.
    Ms. Finkenauer [continuing]. Specifically our agriculture 
products.
    Mr. Jefferies. Absolutely.
    Ms. Finkenauer. It is devastating our State right now.
    Mr. Jefferies. Absolutely.
    Ms. Finkenauer. Yes.
    Mr. Jefferies. And, you know, when your customers and your 
farmers aren't moving stuff, the railroads aren't moving stuff. 
So it is a chain reaction.
    We feel strongly and have advocated that we need to address 
the tariff situation with China, and we need a positive 
outcome.
    No one says there aren't issues that need to be dealt with.
    Ms. Finkenauer. Yes.
    Mr. Jefferies. But that uncertainty is having a dramatic 
effect. We went from exporting colossal amounts of grain out 
through the Pacific Northwest to virtually nothing now. And, 
like you said, other markets are moving in to substitute U.S. 
grain shippers.
    Ms. Finkenauer. Yes.
    Mr. Jefferies. And it is incumbent upon us to get a deal in 
place to allow those shippers to thrive again. And railroads 
are there.
    I think 42 percent of our overarching traffic is direct 
import-export-related. So----
    Ms. Finkenauer. Yes.
    Mr. Jefferies. It is grain, it is all products. It is 
intermodal. So we----
    Ms. Finkenauer. Well, and----
    Mr. Jefferies. We are with you on that.
    Ms. Finkenauer. Thank you.
    And, Mr. Baker, I know specifically for our short lines, 
one of the things, again, that I heard, you know, they are 
struggling right now because the bigger competitors are coming 
in to markets that they typically aren't in, because of 
lacking, you know, their own markets right now that they would 
typically have. And it has been harder and harder and harder 
for them to be able to continue to compete.
    Are you seeing this in other areas in the country? I know, 
again, in Iowa it is--we are getting hit on all sides of it, 
whether it is the ongoing trade war with China, or whether it 
is the refinery waivers that we saw that have hurt our corn 
growers, our ethanol plants that are struggling right now, as 
well. It is just, again, getting hit on all sides.
    But are you seeing this through the rest of the country, as 
well?
    Mr. Baker. No question, the huge percentage of the U.S. 
economy and then, of course, a huge percentage of rail business 
is dependent on trade--China, Canada, Mexico, all over the 
globe.
    Just to put it as simply as possible, we believe in free 
and fair trade. We desperately need Congress and the 
administration to get to a resolution on the China tariffs 
problem and USMCA.
    And if you wouldn't mind me riffing for 10 seconds on my 
other favorite topic, the 45G tax credit, I have to bring it up 
only because I know that you have been extremely vocal on the 
biodiesel tax credit, which would be part of the same tax 
extenders package. So I just wanted to thank you for your 
leadership on that for Iowa, for the whole country. And you are 
doing the Lord's work, so thank you.
    Ms. Finkenauer. No, it is important for the future of my 
State, which is my home, and I care a lot about it. And I am 
really concerned, as this trade war continues, about how this 
is going to impact our short line railroads, in particular, 
about making those investments that they typically do.
    I understand that short lines invest an average of 25 to 33 
percent of their revenue into their infrastructure. And this is 
something that, again, is hitting my State on all sides. And I 
continue to just listen to folks and make sure that I hope the 
administration is hearing us, as well.
    So thank you for being here, and uplifting the need to get 
a resolution sooner than later, and not after the 2020 
election, when it comes to China. So thank you.
    Ms. Norton. Mr. Babin?
    Dr. Babin. Yes, ma'am. Thank you, Madam Chair. And thank 
you, witnesses, for being here. We really appreciate all this 
valuable information.
    My question is for Mr. Tymon. As this committee prepares 
for the reauthorization of the FAST Act, the growing use of 
technology throughout the entire transportation sector will 
play a huge role in our deliberations and our considerations. 
What are the most critical issues that this committee should be 
focusing on at the Federal level when it comes to the use of 
technology? And how can Congress be helpful, rather than 
getting in the way of innovation in private industry?
    Mr. Tymon. Thank you for that question, Congressman. I 
think you have highlighted, really, the crux of my answer, 
which would be to get out of the way----
    Dr. Babin. Absolutely.
    Mr. Tymon [continuing]. As much as possible, and let States 
be those incubators for innovation that they always have. You 
are seeing more and more States incorporate technology into 
their transportation solutions.
    Again, I think the issue of the day is the 5.9 gigahertz 
spectrum, and making sure that that stays reserved for 
transportation safety. I appreciate that several members of 
this committee have come out extremely strong in pushing back 
against the FCC to make sure that the FCC knows that State DOTs 
and transportation stakeholders in general want to see the 5.9 
gigahertz spectrum reserved for transportation safety.
    Dr. Babin. Right.
    Mr. Tymon. I think that is--as I said before, safety is our 
number-one priority. Our goal is to get to zero highway 
fatalities. The only way we are able to get to zero highway 
fatalities is to incorporate more and more technology into our 
transportation network. A key part of that is utilization of 
the 5.9 gigahertz spectrum.
    Dr. Babin. Yes, sir. Excellent, excellent.
    Also, I represent nine counties--Texas counties, that is--
from Houston over to the Louisiana line. And that includes the 
Port of Houston.
    As you know, the entire Nation depends on the efficient 
movement of freight and goods out of southeast Texas, which is 
a huge center for transportation, and lots of modes of 
transportation. Could you share with this committee what 
technological innovations State DOTs--you mentioned that a 
little bit in a previous answer, but maybe a little more 
specifically, and what these State DOTs are utilizing to 
address the increasing movement of goods across the country, 
across towns, and in our neighborhoods.
    And if there is any time left, I would like to ask someone 
else, too.
    Mr. Tymon. Sure, so I will be quick in saying that, you 
know, it really varies from State to State.
    But one area that I think you are seeing States utilize 
more often is data. They are analyzing the data that they have 
to be able to better target the limited amount of dollars that 
they have to invest in infrastructure.
    I would say that is absolutely true on the freight side, as 
well. You are able now to be able to take the data on where 
freight is moving, from point A to point B----
    Dr. Babin. Right.
    Mr. Tymon [continuing]. Be able to look at it on a map, and 
be able to tell which facilities need improvement. And I think 
that the utilization of data, and how State DOTs are being able 
to analyze that and then target investments based on that data, 
is really having an impact on how we move freight and people, 
and I think that is only going to improve as we move forward in 
the future.
    Dr. Babin. Absolutely. Thank you so much.
    And Mr. Jefferies, could you add to that?
    Mr. Jefferies. Yes. Certainly, to echo Mr. Tymon's 
comments, on the freight rail side, whether it is in the port, 
en route to destination, that data is driving visibility into 
the system. It is allowing for optimization and how things are 
moved in the port to increase throughput, decrease dwell time, 
increase customer visibility as to where their products are en 
route--not quite to the level of maybe an Amazon yet, but 
working towards that end goal.
    Dr. Babin. Absolutely. And Mr. Baker?
    Mr. Baker. The use of technology in rail is huge, a huge 
focus of the owners and operators of the system.
    I would agree that the data and, essentially, the freight 
transparency, the customers knowing where is my stuff, when is 
it going to get there, when are the empties going to arrive is 
crucial.
    And there is--since the environmental aspect of this has 
also been a big topic, I would also add on the locomotive side, 
TR4 locomotives are the--are sort of the hot, new thing in rail 
rolling stock, and it is a massive improvement over previous 
locomotives. And railroads are implementing them as fast as 
they can. And some railroads, particularly smaller railroads, 
do get some help from the Federal Government through programs 
like DERA, and that is much appreciated in a big way to help 
reduce emissions.
    Dr. Babin. Absolutely. Thank you all for that great 
information. Information is very valuable as we deliberate over 
this important issue.
    So I will yield back. Thank you very much, Madam Chair.
    Ms. Norton. Thank you, Mr. Babin.
    Mr. Stanton?
    Mr. Stanton. Thank you very much, Madam Chair. Thank you to 
the witnesses. Outstanding testimony here today.
    The movement of freight and goods plays a critical role in 
our daily lives by providing us the things we need or want. But 
it is also key to our country's economic future and maintaining 
our global competitiveness.
    Growth over the last 20 years, improvements in the 
manufacturing process, and new technology are placing ever-
greater strain on the capacity to move goods. And this growth 
is only expected to continue increasing. In fact, the U.S. 
Department of Transportation estimates by 2040 freight volumes 
across all modes of transportation will increase by 42 percent.
    Expanding freight transportation capabilities and working 
towards creative solutions is something we here in Congress 
must focus on.
    In my State of Arizona the Maricopa Association of 
Governments has been working on a regional transportation 
strategy that looks closely at how we prioritize freight-driven 
investments to ensure goods are transported safely and 
efficiently. The effort has brought together a number of 
stakeholders to find ways to expand commerce, strengthen our 
economy as it relates to freight.
    My first questions are for Ms. Aleman. Arizona is a 
significant link in the national freight network. Large volumes 
of freight move by rail from the Ports of Los Angeles and Long 
Beach to Chicago through Arizona. In fact, more than 74 percent 
of all freight entering Arizona, measured by value, is moving 
through my State, meaning that many markets outside of Arizona 
are dependent upon the health of the infrastructure within 
Arizona.
    In my district, residents feel the pinch of this nationally 
significant movement when they are stuck in traffic congestion 
or at rail crossings.
    Likewise, I recognize that Chicago's role as a national 
rail hub means that your residents face many of the same 
challenges. Can you talk a bit about the need for the Federal 
investment in regions like ours that are critical to our 
Nation's economy?
    Ms. Aleman. Thank you, Congressman, for the question. You 
know, freight is a commodity that we need to look at, 
nationally. I think the burden, again, for paying for these 
nationally significant projects can't be shouldered by the 
States that are dealing with sort of the near-term local 
impacts, because they aren't seeing the benefits. This really 
is a global marketplace here.
    And so this is why, from the perspective that we have been 
looking at, the $12 in unique requests for every $1 of INFRA 
available, and it would advocate for a $12 billion program of 
competitive funds.
    Like I said, in the Chicago region our CREATE program is an 
example of how that brings stakeholders together who wouldn't 
otherwise be focused on these issues.
    Mr. Stanton. As we have discussed before, but worth 
repeating, you have called for removal of the 10-percent cap on 
nonhighway funding under the freight formula program, as well 
as a cap under the INFRA program--grant program. Can you 
explain why removal of this cap is important, once again, for 
the national goods movement goals?
    Ms. Aleman. Absolutely. Our freight across this country 
doesn't move on our highways alone. And that is really why we 
need to employ strategies like removing the cap on the 
multimodal dollars given to States. Really, because we need 
States to be able to work together to address their most 
pressing freight needs.
    Mr. Stanton. Thank you so much. In our urban centers, last-
mile deliveries face regular delays, due to traffic congestion.
    Dr. Goodchild, in your curb allocation change project, you 
suggest that reforming curb space allocation such as adding 
drop-off and loading zones, could improve things. Could you 
discuss this a little bit more, and what else could lessen the 
economic and environmental impact from urban road congestion 
caused by freight?
    Ms. Goodchild. Yes, thank you. So the status quo of how we 
manage curbs is we put yellow paint on it, or white paint, and 
sometimes some red paint. And we haven't updated that approach. 
So there is a lot that we could do, use it differently at 
different times of day, more dynamically allocate that curb, 
and price that curb in a more responsive way. We certainly need 
to do that, and many cities are interested in doing that at 
this time, including Seattle.
    In terms of reducing the impact on communities, there is 
certainly a need to use some low-emissions solutions. So e-
bikes--some of that is actually very simple. There is walking 
deliveries that happen from--you know, we bring five people to 
a delivery truck, and they can walk with hand trucks from 
there. It is actually a very cost-effective, fast solution in 
dense, urban areas. So using less fuel-intensive modes in that 
last mile reduces the impact on those communities.
    Mr. Stanton. All right. Thank you for your outstanding 
answers. I am just about out of time, so I will yield back.
    Ms. Norton. I thank the gentleman. Mr. Balderson?
    Mr. Balderson. Thank you, Madam Chair. Thank you, panel, 
for being here. And I have got a couple questions. My first 
question is for Mr. Tymon.
    Thank you very much for being here today. In your testimony 
you mentioned the need for Congress to increase flexibility, 
reduce regulatory burdens, and improve project delivery in our 
surface transportation system. AASHTO believes Congress should 
modernize the Clean Water Act, Clean Air Act, and the 
Endangered Species Act to reduce infrastructure and 
construction delays.
    I would like to hear your thoughts on specific ways 
Congress should change these laws. Can you please provide 
examples of how these changes would benefit our infrastructure 
system and help our State departments of transportation?
    Mr. Tymon. Thank you for that question. What I would like 
to request is that I could provide specific recommendations for 
the record. But if you allow me the opportunity to provide more 
of an overview, I can say that the changes that we are looking 
to make to those laws are really updating them. Many of them 
have not been touched in 20 or 30 years.
    And it is not that we are looking to not continue to 
safeguard the environment, far from it. We think that we can 
make improvements and changes to those laws, but still make 
sure we are doing right by the environment. It is the fact that 
many of them have not been changed at all, or changed very 
little in the last 20 or 30 years that we think that it is time 
for Congress to at least take a look at those laws to see if 
there are some improvements or modernizations that can be made.
    Mr. Balderson. OK, thank you very much. The next question 
is for Mr. Jefferies.
    Mr. Jefferies, thank you for being here. In your testimony 
you note that the operations and capital investment of 
America's freight railroads support over 1 million jobs, $219 
billion in economic output, and $71 billion in wages.
    Additionally, railroads generated nearly $26 billion in tax 
revenues in 2017. I know a couple other of my colleagues have 
mentioned and talked about the USMCA, and that is kind of the 
path that I want to go down. But international trade accounts 
for about 35 percent of the U.S. rail revenue, 27 percent of 
the U.S. rail tonnage, and 42 percent of the carloads and 
intermodal units U.S. railroads carry.
    Can you discuss the needs for Congress to ratify the USMCA, 
and what impact the trade agreement would have on the railroad 
and freight industry and their workers?
    Mr. Jefferies. Thank you, Congressman. That is a fantastic 
question.
    You know, I cannot reiterate more the need to move forward 
on USMCA. North-south trade with the U.S., obviously, our 
largest trading partners, and the amount of goods that flow out 
of the country via rail to both the north and the south--grain, 
for example, into Mexico, is our largest export product--it is 
staggering, quite honestly. It is a job creator, it is an 
economic uplifter for our customers.
    And not only that. When you look at the supply chain that 
has been built up over the past several decades, it is an 
international supply chain. So on a lot of products--
automotive, for example--you will see parts move back and forth 
across the border multiple times. So it is not something that 
can just be ripped up and air-dropped in in another fashion.
    So, 50,000 rail jobs rely directly on international trade. 
A lot of those are north-south movements, again. And so I 
cannot state enough our support for getting USMCA done as soon 
as possible.
    Mr. Balderson. All right. Thank you very much.
    Madam Chair, I yield back my remaining time.
    Thank you, panel.
    Ms. Norton. I thank the gentleman. Mr. Johnson?
    Mr. Johnson of Georgia. Thank you, Madam Chair.
    Passing the USMCA will increase trade. But what direct 
impact will it have on the ability of the Nation to sustain the 
need for increased spending to repair and replace our crumbling 
infrastructure?
    Mr. Jefferies. Well, from the rail perspective----
    Mr. Johnson of Georgia. Mr. Jefferies or anybody. Anybody.
    Mr. Jefferies. OK, I will start, and someone else can take 
it from me.
    But from the rail perspective, we are making long-term 
investments year in, year out, because these are 50-year 
investments. Certainly the same could be said on the highway 
system.
    So it is the certainty that trade deals put in place. So 
you can plan----
    Mr. Johnson of Georgia. Well, I understand that.
    Mr. Jefferies [continuing]. To make these investments.
    Mr. Johnson of Georgia. I understand we want to increase 
trade, and we are projected to do that as the years move 
forward. But my question is in terms of repairing and creating 
new infrastructure upon which freight can move.
    We need Federal revenues in place to do that. Does 
everybody agree with that?
    Mr. Jefferies. Certainly on the highway side.
    Mr. Tymon. Yes----
    Mr. Johnson of Georgia. And would you----
    Mr. Tymon. Thank you, Mr. Jefferies.
    Mr. Johnson of Georgia. Would anyone disagree with me that 
it has been Federal revenues that have enabled the growth of 
our transportation network up to this point?
    Mr. Tymon. Mr. Johnson, absolutely, I agree with you on 
that. We need a robust Federal program in order to be able to 
fund our transportation network. If we are going to make sure 
that we are providing for interstate commerce, both from a 
freight standpoint, but also from a passenger standpoint, we 
need a robust Federal program.
    Right now the program is not meeting the existing state-of-
good-repair needs that we have, as--the crumbling 
infrastructure reference that you had mentioned. We need 
something to be done to fix the Highway Trust Fund, to provide 
additional revenue, and to increase the size of these programs.
    Mr. Johnson of Georgia. Now, you know, we have been cutting 
revenue, Federal revenues, for decades. We have recently cut 
taxes again. And while we have been cutting taxes for decades, 
the needs for funding have continued to grow.
    And at the same time, my friends on the other side of the 
aisle have signed on to the Grover Norquist no new tax pledge, 
which is one reason why the gas tax has not been raised since 
1993. What impact does this have on our ability to grow our 
infrastructure to accommodate the increased trade that we all 
agree that we want the Nation to experience?
    What impact are our policies of cutting taxes and failing 
to raise revenues with increasing needs having on this Nation's 
ability to sustain our prosperity into the future?
    Ms. Aleman. If I may, Congressman, you know, one of the 
points that I made was that private-sector industries are 
spending approximately $27 billion annually, due to the cost of 
congestion. And that is a cost that I don't imagine that they 
are just taking on and not passing on to the consumer. And the 
consumers, in return, you know, could be getting so much more 
value if we were to put revenues forward to address the 
congestion problems at the forefront, as opposed to seeing 
those fees, those dysfunction taxes, being passed along on the 
back end to consumers.
    Mr. Johnson of Georgia. Yes. So when the recent $5.8 
trillion tax cut passed, 83 percent of which went to the top 1 
percent, then that means that, in addition to consumers paying 
higher taxes, or paying a greater proportion of the remaining 
tax burden that is in place, they are also getting hit with 
increased prices for goods that are incurred by the businesses 
that have to build the infrastructure to move the goods that 
the consumers pay for. So the bottom 99 percent are catching a 
double whammy in this kind of a situation, as our multinational 
corporate friends are able to escape their fair share of the 
tax burden.
    And so, as we talk about these subjects, I think we need to 
look at our policies, the policies that we put into place here 
in Congress, and stop avoiding the fact that we need to deal 
with a revenue shortfall from the Federal Government in order 
to sustain the kind of economic growth that we are going to 
need for our future.
    And with that I will yield back.
    Ms. Norton. Thank you, Mr. Johnson.
    Mr. Perry?
    Mr. Perry. Thanks, Madam Chair. I thank the panel members 
for their attendance today.
    Mr. Mathers, in your testimony you stated zero-emission 
heavy-duty vehicles are increasingly viable. But this 
statement, in my opinion, is not completely based in reality. 
If they were economically viable and provided a lower total 
cost of ownership, as you claim, then the industry would be 
embracing them due to the market incentives, alone.
    However, the high cost of current battery technology, 
combined with its limited energy density level makes EV trucks 
infeasible for long-haul operations, currently, and an 
expensive alternative for shorter operation.
    It is also vital to remind everyone that the phrase ``zero-
emission vehicle'' is a deceptive and misleading labeling 
practice, as it fails to account for the emissions related to 
energy-intensive battery manufacturing processes, and the very 
power generation necessary to recharge the battery. This 
reality not only limits the net emissions reductions offered by 
a transition to these vehicles, but it requires significant 
amounts of the rare earth minerals necessary for the production 
of the batteries themselves.
    As you know, China has a stranglehold over the component 
mineral supply chains in the battery manufacturing industry. 
Also, China is projected to supply around two-thirds of global 
battery demand in 2020. Not coming from America, they are 
coming from China.
    The extremely energy-intensive manufacturing process will 
be powered largely by coal well into the future in China. Today 
70 percent of China's power is generated at coal-fired plants, 
and they will continue to generate over half of the nation's 
power through 2040, which, according to Mark Mills at the 
Manhattan Institute, quote, ``means that, over the life span of 
the batteries, there would be more carbon-dioxide emissions 
associated with manufacturing them than would be offset by 
using those batteries to, say, replace internal combustion 
engines.''
    It is important to note that these projections likely 
underestimate the emissions in question, as they were published 
prior to China's recently announced plans to massively expand 
coal-generating capacity while simultaneously cutting funding 
for renewables by 40 percent.
    The threat posed by Chinese influence over our critical 
infrastructure has been acknowledged by this very House and 
this committee, as we prohibited FTA funding of projects using 
Chinese railcars and buses.
    I was going to ask you about your justification for the EDF 
support of the significant threat to our national security, 
just by using the vehicles, but also the significantly higher 
consumer cost, the net increase in greenhouse gas emissions, 
and the economic harm that it does to the workers in the United 
States. But maybe I will just ask if the EDF would consider 
including the emissions that are commensurate with the 
production of the batteries, and everything else that goes into 
the production and the use of the batteries into their 
assessment of the economic viability. Maybe that is a better 
question.
    Mr. Mathers. Thank you, Mr. Perry, for the question. And we 
do, right?
    I am not familiar with the Manhattan Institute study, but I 
am very familiar with work that the U.S. Government is 
sponsoring through Argonne National Labs that has looked at the 
life-cycle impact of electrification in electric vehicles, and 
found that the fuel consumption, right, is still, by far, the 
most significant source of emissions, and that the creation of 
the battery is on par with the creation of the vehicle.
    So it is, I think, on the order of about 20 percent of the 
life cycle. I don't have the numbers off the top of my head, 
but would be more than happy to follow up and put those on the 
record.
    I think the questions around China and the life-cycle cost 
all kind of come together in the fact that the direction of 
this industry is clear. You are seeing Daimler putting in $1 
billion to build these vehicles. You are seeing Cummins invest 
half a billion dollars. These manufacturers are doing this 
because they see that is where the future is. And right now, 
China has a head start on us.
    And so I think we, as a country, have a choice to make. Do 
we want to out-compete China and make those vehicles here? And 
I think we are better off if we do. And that is better for the 
environment, that is better for our economy, and that is better 
for our national security.
    Mr. Perry. But the point is we are not making them here 
yet. So the policy that you are advocating for is kind of--the 
cart is before the horse, as opposed to backwards. And I don't 
necessarily disagree that it would be great if that weren't the 
case, but that is not the case now, and I would----
    Mr. Mathers. Let's let----
    Mr. Perry [continuing]. Just like your estimates----
    Mr. Mathers. Let's just let----
    Mr. Perry [continuing]. To include all these other things, 
and don't paint such a rosy picture which isn't commensurate 
with reality. And that is what I am saying.
    Ms. Norton. The gentleman's time has expired.
    Mr. Lamb?
    Mr. Lamb. Thank you, Madam Chairwoman.
    Ms. Aleman, I represent an area outside of Pittsburgh, 
Pennsylvania, which shares some things in common, economically 
and culturally, with the Chicagoland area. I am just curious. 
Your review of the CREATE model since it has been built, it 
looked to me like you said about 40 percent of the revenue was 
Federal, and then, I guess, the 60 percent comes from the other 
partners that you have enlisted.
    So do you think that an area like mine has much to learn 
from CREATE? How would you describe the breakthroughs that you 
have made using that model, or the efficiencies that you have 
gained? Because it must not be just more Federal funding. There 
must also be some efficiencies that you have established with 
that model.
    Ms. Aleman. Yes, thank you for the question, Congressman.
    You know, the CREATE model, while we have seen some very 
significant successes, in terms of getting a Federal match, and 
also substantial matches from our private-sector partners, I 
think some of the benefits that we have seen are being able to 
have a list of projects that we have prioritized and are lining 
up to move forward at any point that funding opportunities 
arise.
    For the projects that have been completed, there are about 
70 projects in the entire program, about 35 of which have been 
completed. We have seen that those projects have come in on 
time, under budget, and I think that that is exemplary of the 
public-private partnership that we have with our railroad 
partners, and leveraging their expertise on some of these 
projects, where, you know, inherently, the State side, and the 
Federal side, and then the private sector are coming together. 
So that is what I would say would be one of the primary 
benefits.
    Mr. Lamb. And at the start of it, who was kind of the 
driver of CREATE in the beginning? Was it more of a public 
project in which you recruited the private partners? Or was it 
the railroads coming to you and asking for it? Or vice versa? 
Or how did it go?
    Ms. Aleman. Yes, I would say that there was leadership 
between the city of Chicago and Cook County, which is the 
county that the city of Chicago sits in, and through that 
strong partnership we were able to get on board the State, the 
railroads, and other partners because it is a mutually 
beneficial program, overall.
    Mr. Lamb. OK, thank you.
    Ms. Aleman. Thank you.
    [Ms. Aleman submitted the following post-hearing correction 
to her preceding remark:]

                                 <F-dash>
  Post-hearing Correction of Remarks Submitted for the Record by Erin 
 Aleman, Executive Director, Chicago Metropolitan Agency for Planning, 
 and Board Member, Coalition for America's Gateways and Trade Corridors
    At approximately 2 hours and 20 minutes into the hearing, in 
response to a question from Representative Lamb, I misspoke about the 
history of the CREATE Program. I stated that the city of Chicago and 
Cook County initially spurred the program. In fact, it was leadership 
from the city of Chicago, the State of Illinois, and railroad partners 
that in 2003 spurred the program. Cook County became an official 
partner in 2018.

    Mr. Lamb. Ms. Goodchild, I was wondering if you could talk 
a little bit more about the University Transportation Centers. 
We have one back in Pittsburgh, as well, at Carnegie Mellon 
University that is doing some really strong work. How would you 
evaluate that program so far? Has it worked well at Washington? 
Are there challenges? Are there things we could do better with 
it?
    Ms. Goodchild. The University Transportation Center has 
sponsored a center at the University of Washington for, I 
think, since the beginning of the program. And, in terms of our 
ability to train transportation professionals, it is essential. 
Without that program, we would have--you know, at a public 
university, the rest of our sort of resources have really been 
stripped away.
    And so, to provide students with opportunities to hear 
additional lectures, to travel to TRB, to participate in any 
kind of professional development is really supported through 
that program. So, in terms of developing the next generation of 
transportation professionals, it is essential, and we wouldn't 
be able to do that without the program.
    Research-wise----
    Mr. Lamb. So, sorry, just to interrupt for a--so would you 
say, then, that the main benefit you are concentrating on is 
the teaching benefit to students, as opposed to, like, external 
work product that it is----
    Ms. Goodchild. Right. No, I was going to speak to the----
    Mr. Lamb. OK.
    Ms. Goodchild [continuing]. To the research outcomes. I 
think also having--you know, really, as a source of 
complementary Federal funding--so those grants, you know, if 
you have a grant from a UTC that has to be matched by some kind 
of non-Federal, local money--so I think that structure of 
matching locally driven and locally motivated projects by 
Federal grant money is also a really essential way to develop 
regional with national benefit work.
    And we don't--there is no substitute. We don't have the 
NCFRP program, we--so it is essential, as well.
    Mr. Lamb. OK. Thank you, Madam Chair, I yield back.
    Ms. Norton. Thank you, Mr. Lamb.
    Mrs. Miller?
    Mrs. Miller. Thank you, Chairwoman Norton, and thank you 
all for being here today.
    Transportation infrastructure is the lifeline that connects 
my home State of West Virginia to the rest of the country. Our 
highways and rail lines are essential for moving products from 
West Virginia, and connecting the country.
    Our inland waterways also ship over 80 million tons of 
natural resources every year. And shipping via waterways will 
continue to play an important role to meeting the growing 
demand for goods well into the future.
    I think that shipping should be a central part of these 
discussions, moving forward. West Virginia is a transportation 
State, and we are proud to work hard to deliver the goods that 
America and the world needs.
    We are all gathered here today because we realize the 
importance of our Nation's infrastructure development, and I 
thank you all for appearing before this subcommittee today to 
help us make some of these tough decisions.
    Ms. Aleman, my district of southern West Virginia was one 
of the hardest hit by the recession, and it is still recovering 
from the war on coal, which caused so many to lose their jobs. 
With the dramatic growth of long-haul freight traffic in the 
United States, how does the freight industry plan to recruit 
new drivers to meet this increased demand?
    Ms. Aleman. I am going to defer to my partner here.
    Mrs. Miller. Fine.
    Mr. Baker. And I would love also for Ian to weigh in, but I 
would say we in the rail industry, we actually are not finding 
a problem recruiting conductors and engineers for the trains. 
It is a well-paying job with railroad retirement benefits, and 
it is typically pretty attractive. We have lots of 
infrastructure challenges, but I would say at the moment 
finding folks to operate freight trains is not one of our 
challenges.
    Mr. Jefferies. Just to add onto that, absolutely, the 
freight rail industry is blessed with folks who are 
multigenerational and 45-year veterans.
    And while there is no shortage because they are very, very 
well-compensated jobs, one area where we are facing challenges, 
quite honestly, is the opioid issue. That continues to 
challenge us, along with every other manufacturing industry, as 
far as--we have a strict drug testing program, and areas that 
are most hit by the opioid epidemic, certainly that impacts the 
number of possible candidates out there, and has certainly 
diminished the potential job pool in certain situations. So 
that is an area where we continue to want to work with Congress 
to address.
    Mrs. Miller. That is a very good point.
    Mr. Jefferies. But as far as the--I don't know, the 
trucking side, I don't know if you have any comments there.
    Mr. Tymon. You know, I would just say that I think 
workforce development issues continue to be a top priority for 
State DOTs across the country, and that includes maintenance 
workers and operators of vehicles. It is becoming harder and 
harder, I think, for State DOTs or, I am sure, trucking 
companies to be able to recruit new entrants into the business.
    You know, I think that there are a lot of other 
opportunities for folks right now, with the economy doing so 
well, and employment rates so low. It is hard, I think, to 
attract people into some of those jobs that aren't easy jobs, 
you know, for truck drivers. You are on the road a lot of days 
out of the year. If there are a lot of other choices to make, I 
can see why it is hard to be competitive in this job market.
    Mrs. Miller. Well, and my point is, in the coal fields, for 
those people who have had good-paying jobs who are now 
unemployed, are you doing anything to recruit them?
    Mr. Tymon. I can tell you that, from a State DOT 
standpoint, recruitment and retention is a top priority. I 
can't speak specifically to what is going on in West Virginia, 
but I will tell you that what I hear more from our members is a 
shortage of workers, as opposed to, you know, trying to--or--
yes, a shortage is the bigger issue.
    Mrs. Miller. So that could go through some of the community 
college or career teaching that needs to happen.
    Mr. Baker, what role do short line and regional railroads 
play in connecting parts of rural America with the greater 
transportation network?
    And what role can Congress play in making sure that these 
railroads are not left behind?
    Mr. Baker. Thank you. Short lines largely exist as the 
first-mile/last-mile of the freight rail network, and 
particularly in smalltown and rural America. West Virginia is a 
huge State for short lines.
    My written testimony goes into somewhat excruciating detail 
on some of the policy recommendations I have, but just in a few 
seconds here there are programs that the Transportation and 
Infrastructure Committee has supported and championed that are 
key for short lines: the CRISI grant program; the issue that 
has been referenced here multiple times, the idea of taking off 
the multimodal caps on the INFRA program and the State freight 
program would be really effective; our favorite topic, the 45G 
tax credit, would be effective.
    And there is more, too, but those would be great, great 
places to start. And I think you have been champions of all of 
those, so thank you.
    Mrs. Miller. Thank you. I yield back my time.
    Ms. Norton. I thank the gentlewoman. Her time has expired.
    Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Madam Chair.
    Ms. Aleman, you know as well as anyone here that freight 
movement depends upon a complex, interconnected system of 
transportation infrastructures. Deficiencies in any one link of 
the supply chain affect the efficient movement of goods for 
everyone. That is why I appreciate in your testimony and that 
of other witnesses--and you have mentioned it again today, both 
in written and in oral--the need to remove barriers like the 
cap on nonhighway projects under the Federal freight program.
    I am also very appreciative that, especially in your 
written testimony, you mention the coalition support for my 
proposal to establish a multimodal freight infrastructure trust 
fund that would help make these critical intermodal 
improvements.
    But your testimony also mentions a potential improvement to 
the national freight strategic plan, including the addition of 
a comprehensive freight needs analysis. Why is that so 
important, to have a comprehensive freight needs analysis?
    Ms. Aleman. Thank you for the question, Congressman. A 
comprehensive look at our national freight infrastructure is 
really going to help us be more coordinated in Congress' effort 
to provide oversight and guidance to U.S. DOT. It will also 
help Members of Congress shape future programs in future 
Federal reauthorization bills, and make sure that, really, the 
goals and objectives that you set forth in the policies are 
being achieved through a transparent, performance-based 
framework.
    Mr. Lowenthal. I want to follow up on that. And while I 
personally strongly support the INFRA program and agree with 
you that a competitive grant program is better positioned to 
fund large-scale infrastructure projects that improve freight 
movement, I am concerned about the lack of transparency in the 
selection of projects for these funds.
    Would a freight needs analysis allow Congress and 
stakeholders to better evaluate if the Department is directing 
these funds to the most important and urgent projects?
    Ms. Aleman. Yes. So I will reference the recent GAO report 
that stated that merit-based project selection is necessary, 
and also there is room for improvement in the way that projects 
are selected today.
    And I think our region has seen that, and come a long way. 
For instance, the competitive freight program that Illinois DOT 
put together laid out in a transparent way the goals and 
objectives, and how the measures that they were going to use to 
evaluate projects were going to achieve those goals. And 
essentially, we created a tool that said to potential 
applicants, ``You can fill this tool out yourself and evaluate 
your project.''
    I think one of the fears is that it is going to open the 
door to a floodgate of projects coming through and people 
gaming the system. What we found, instead, was that the 
projects that were submitted were better and more oriented 
toward the goals of the program and the program dollars.
    And at the regional level, too, the programming of our 
funds, we make those data, criteria, the scoring transparent so 
that all can see. And while you may not get the project you 
wanted, or the funding you requested, you at least respect the 
process, and you understand where your project could have had 
room for improvement.
    Mr. Lowenthal. Thank you. I want to follow that up and--you 
may have answered it--do you have any additional suggestions to 
increase the transparency in the INFRA evaluation process?
    Ms. Aleman. Yes. Specifically, it is tying those metrics 
that you are going to use to the goals and objectives that you 
are trying to achieve, and then I would say making those 
projects and the scoring publicly available.
    Again, you know, that, in and of itself, making that 
transparent, allowing people to see where their projects fell 
short, is a critical tool to making sure that you are achieving 
your goals.
    Mr. Lowenthal. Thank you. And in my minute left, does 
anyone else want to comment on the transparency, how we can 
improve the INFRA project?
    Mr. Baker?
    Mr. Baker. Well, I was largely just going to agree with 
you, that the importance of increasing the transparency, I will 
say we have quite a few short line railroads that partner with 
State agencies to apply for these grants, and they do find it 
extraordinarily frustrating, how opaque the process is. And it 
is difficult to understand what was selected, or what the 
reasons for the selection were. So I think the transparency 
would help everybody.
    Mr. Lowenthal. Thank you. I concur. As one who represents 
the port areas of Long Beach, Los Angeles, that transparency 
would be great for the process.
    With that I yield back.
    Ms. Norton. Thank you, Mr. Lowenthal.
    Mr. Pence?
    Mr. Pence. Thank you, Madam Chair, and thank you all for 
being here today.
    I hail from Indiana, which is the crossroads of America. I 
have always emphasized the necessity of reliable and safe 
freight in transport options in my home State. I am a 
businessman by background, and I came to Congress to address 
the challenges facing our critical infrastructure.
    We need to face both the short term and the long term and 
put Hoosiers back in the driving seat, as well as all those 
across the United States.
    The 29,600 miles of highway and 4,500 miles of rail track 
in our State contribute to the prosperity of not only Hoosiers, 
but all Americans.
    We are a national leader in intrastates, home to the second 
largest FedEx hub worldwide, and have the third most freight 
railroads, with 41 lines, including 6 short line regional 
railroads in my district, the Sixth Congressional District of 
Indiana.
    We are also very proud that Cummins engine company, 
headquartered just 1\1/2\ miles from my house in Columbus, 
Indiana, is developing world-class, innovative solutions to 
advance cleaner technology. In October of this year, Cummins 
unveiled cutting-edge technology that would use hydrogen fuel 
cell solutions to create a Class 8 heavy-duty truck with zero 
emissions.
    With our Nation's truck and rail freight transport system 
accounting for 74 percent of all movement of goods, it is in 
the best interest of companies like Cummins to embrace fuel-
efficient alternatives to be profitable and, most importantly, 
reduce the impact on the environment. The American 
Transportation Research Institute cites greater congestion as a 
source of excessive idling and resulting in higher emissions.
    With companies like Cummins modernizing our vehicles, we 
should also consider more solutions for reliable freight 
infrastructure such as increased rail investment and truck-only 
lanes, or critical commerce corridors.
    In 2017, truckers alone lost 1.2 billion hours of 
productivity from nationwide congestion. I firmly believe that 
economic growth in both the trucking and rail industries will 
lead to greater economic, environmental, and societal impact.
    Mr. Tymon, in your testimony you mentioned addressing 
freight corridors in the next surface transportation bill. I 
wish more of the industry would join you to highlight the 
benefit of these corridors, or truck lanes, to physically 
separate cars and trucks in the congested areas. Even though 
truckers already pay more than any other entity in our Nation's 
highways, the industry is coming to the table with creative 
ways to affect these projects.
    At the beginning of November, Indiana broke ground on a 
similar project called the Heavy Haul Transportation Corridor, 
which will pull semi-trucks off the highway with new rail 
connections, providing easier access to State roads and improve 
multimodal shipping. Solutions like these are not only tackling 
congestion, but also create a safer and more fuel-efficient 
freight system for Hoosiers.
    Mr. Tymon, I know AASHTO has done studies in the past 
detailing how truck-only corridors can alleviate congestion and 
promote safety. How would reducing restrictions on State 
multimodal freight network funding to allow, for example, more 
miles for railroad coordination and CCCs help propel our 
economy?
    Mr. Tymon. Well, thank you for that question, Congressman. 
I think the easiest and the best way to promote those types of 
projects is----
    Ms. Norton. Is your mic on?
    Mr. Tymon. It is. Is that better?
    I think the easiest and best way to provide opportunities 
for those types of projects is to continue to provide 
flexibility to the States and to provide funding to them by the 
formula programs. These core formula programs that have been 
the foundation of the Federal highway program for over 50 years 
provide States the predictability to know year in and year out 
how much money they are going to get. And that will enable them 
to take on innovative approaches as you are describing in 
Indiana.
    So I think removing some of the redtape and the barriers, 
and providing States the flexibility to be creative and 
innovative, as they are in Indiana, is the easiest, and it is 
the best thing that we can do to promote those types of 
projects.
    Mr. Pence. Thank you, Madam Chair. I yield back.
    Ms. Norton. Thank you, Mr. Pence.
    Ms. Plaskett?
    Ms. Plaskett. Thank you very much, Madam Chair.
    Mr. Tymon, I agree with you that the formula is very, very 
important. And, as a Member of the Territories, we were taken 
out of the formulas in the late 1990s. And so it is our hope to 
go back in them, because we believe that that is the best way 
for us to plan how we are going to use our infrastructure and 
support. So I am glad to hear you agree that that is a really 
important thing to do.
    I have been harassing the chair of our committee. The last 
time the Territories was on it was the last time a Member of 
the Territories was on this committee. So I am hoping that me 
being on this committee will get us back in there.
    But I wanted to go back to something that one of my 
colleagues, Mr. Lowenthal, was talking with you all about, 
about transparency and the INFRA program as an example, and in 
others, some of the other application and programs that DOT has 
in other agencies.
    We talked about how transparency would be more important, 
and support in predictability for those that are applying. Do 
any of you have any specific examples where--the types of 
guidelines or additional support that would be helpful to 
jurisdictions and municipalities and others that are applying 
for some of these grants?
    Mr. Tymon. You know, one thing that I guess--one thing that 
I would add is sometimes having consistency across years would 
help, I think, the applicants, because I think we are seeing, 
year to year, that the notice of funding availability will 
change kind of what they are trying to emphasize. And I think 
that causes project sponsors to then have to kind of retool, 
year to year, if they are not selected in that 1 year.
    So having, I think, some consistency across the years--the 
great thing about the FAST Act was that, for those 
discretionary programs that were created there, they spelled 
out, I think, specific criteria that provided at least a little 
bit of predictability for the applicant----
    Ms. Plaskett. Right.
    Mr. Tymon [continuing]. So that they could come back to the 
table if they weren't successful in the first year.
    I do think that the administration is doing a good job of 
following up with project sponsors if their application does 
not go through, and then letting them know where the 
application fell short. But having that level of transparency, 
so that everybody knows which projects have been successful, 
and why they have been successful or unsuccessful, I think, 
would help all project sponsors.
    Ms. Plaskett. I know that the Virgin Islands, along with 
some of our private partners, did have that meeting at DOT. And 
I am really grateful that the Department was willing to sit 
down with them and explain what was needed, where they fell 
short.
    Of course, having that on the front end is a better way, 
because then you have to wait another year or so to put in what 
is missing, so that you can have a better application and meet 
the needs of what it is you are trying to grow.
    Does anyone else have anything else that they thought might 
be helpful in there?
    Mr. Jefferies. Just at a very high level, in a prior life I 
worked at GAO, and I think they have been on record, just 
talking about the need for very objective, articulated criteria 
that are then evaluated in a fully transparent manner. So, 
hopefully, you do get that information on the front end, and 
don't have to wait until it is too late to get the feedback 
that----
    Ms. Plaskett. Right.
    Mr. Jefferies [continuing]. That would be helpful.
    Ms. Plaskett. So several months ago--I am also the chair of 
the New Democrat Coalition Infrastructure Task Force, and I 
have had the pleasure of going around the country to some of my 
colleagues' districts to see what is working, what is not 
working. And Mr. Colin Allred invited me to Dallas. I was 
really excited to see the rail that is going on there between 
Dallas and Houston, and the types of goods and services that 
can be moved in that.
    Dr. Goodchild, I wanted to ask you, you know, that is a 
public-private partnership. It is really being driven by the 
private sector. What is the role that you believe that the P3s 
can play in helping to meet freight infrastructure needs 
throughout the country?
    Ms. Goodchild. Yes, thank you. I think it is essential that 
the private sector be consulted and engaged and participate as 
we build infrastructure.
    If you think about building big infrastructure projects 
with no insight as to how it is going to be used, or what 
benefit it might bring, or why it might bring that benefit, you 
can really make huge mistakes, and invest a lot of money in 
projects that don't bring the benefit that you thought they 
were going to to the ones who are using it.
    So I think, as we move forward and we believe that we are 
building infrastructure to serve industries, we must understand 
those industries, and they must be engaged in some of that 
decisionmaking. So I think it is a really important principle, 
particularly in the freight space, to good decisionmaking and 
efficient, cost-effective use of public money.
    Ms. Plaskett. Thank you. And, the Virgin Islands, although 
we don't have freight, we recognize that all of our goods are 
imported, and that, unless the end--those individuals who are 
manufacturing are doing it at a port city, that all of the 
goods that are coming to us are coming through freight. So 
bottlenecks in that system affect those of us who don't 
necessarily have freight going through our districts. And we 
all need to be part of the solution in making sure that this is 
done efficiently, and the best it can get to the end users.
    So thank you all.
    Ms. Norton. Thank you, Ms. Plaskett.
    Are there any further questions from members of the 
subcommittees?
    Seeing none, I would like to thank our colleagues, but 
especially each of our witnesses for your testimony today. It 
has been very helpful to me.
    I have listened very carefully to see how your testimony 
might improve our upcoming bill. I found your testimony to be 
informative and helpful in that regard.
    I now ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing. And I invite Members who have such questions to do 
so.
    And I also ask unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittees 
now stand adjourned.
    [Whereupon, at 12:45 p.m., the subcommittees were 
adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Madam and Mr. Chairman, I appreciate the joint subcommittees 
holding this hearing today. The purpose is to explore the importance of 
freight transportation, investments needed to support freight 
transportation, and the ways in which demand for the timely movement of 
goods are growing and changing.
                  Importance of Freight Transportation
    It is without question that freight transportation is critical to 
our economy in the US. I understand that the nation's freight system 
transports, on average, 51 million tons of freight, valued at 
approximately $55 billion, on a daily basis, which amounts to 
approximately 17.7 billion tons of freight, valued at approximately 
$16.8 trillion, annually. Additionally, this demand is increasing each 
year.
                           Investments Needed
    Continuous increases in freight transportation demand across the 
United States requires us to make the necessary investments today. Most 
investments are done at the state and local levels. We know that our 
national highway congestion negatively affects the freight delivery 
system because it impedes trucking's ability to deliver goods on time. 
Reliable and precise scheduling is essential to the freight rail and 
trucking systems.
    In Dallas, we have worked to battle, and are continuing to battle, 
congestion issues. It is reported that more than two out of every five 
miles of America's urban interstates are congested. Congestion costs 
the trucking industry $74.5 billion in 2017, $66.1 billion of which 
occurred in dense urban areas like Dallas.
    Ways in Which Demand for Goods Movement is Growing and Changing
    Investments in new technology are important to the growth and 
development of our national freight delivery systems. As we look to 
grow our markets internationally, we also have to ensure that our 
domestic systems do not impede the international growth of products 
that we sell abroad. As we continue to expand our markets, the need for 
new and improved domestic and international freight delivery systems 
will only increase.
    We cannot stop the development and use of new technology. We need 
it for continued growth and advancement. However, I am concerned with 
the use of new technology displacing our workers. We must provide 
opportunities for retraining and new jobs for people who may lose their 
jobs.
    In Texas, I am also concerned with the shortage of drivers for 
freight trucks. With rising gas prices and increasing congestion on our 
highways, it is clear that we need long term transportation 
infrastructure solutions that meet the current demand for the movement 
of goods, while also allowing for future growth. To help alleviate the 
shortage of truck drivers, I am looking at how we can allow more young 
people to drive trucks and enter into the trucking industry.
               Environmental Impact of Freight Railroads
    We must seek viable environmentally sensitive solutions to expand 
our nation's freight rail capacity, as we make the necessary freight 
rail investments. Advancements have been made, such as in the freight 
railroads' use of technology systems to help monitor and gain maximum 
fuel efficiency. However, we still have a long way to go.
    Madam and Mr. Chairman, I am excited about the many possibilities 
in helping to improve our nation's freight transportation 
infrastructure. I look forward to working with the committee to 
strengthen our nation's capacity to move goods efficiently and in a 
timely manner.

                                 <F-dash>
 Prepared Statement of Hon. Steve Cohen, a Representative in Congress 
                      from the State of Tennessee
    Thank you, Chairwoman Norton and Ranking Member Davis and Chairman 
Lipinski and Ranking Member Crawford for holding this important 
hearing.
    I appreciate the opportunity to examine the challenges and 
opportunities of freight transportation, especially since my district 
is the transportation hub of the United States.
    In Memphis, we've got five Class 1 railroads, seven primary 
highways, two interstates, the 4th largest inland port in the nation, 
and Fed Ex's super hub.
    As for trucking, we have more than 400 companies that operate from 
Memphis.
    It's no wonder that we have been dubbed America's Distribution 
Center.
    While it's true that no one moves like Memphis, it doesn't come 
without its challenges.
    As the demand for freight continues to increase, it's important we 
look at how it affects all our road users.

                                 <F-dash>
  Statement of Erin Aleman, Executive Director, Chicago Metropolitan 
Agency for Planning, and Board Member, Coalition for America's Gateways 
 and Trade Corridors, Submitted for the Record by Hon. Peter A. DeFazio
    During the hearing, several Members of Congress asked questions 
pertaining to the Nationally Significant Freight and Highway Projects 
Program (INFRA). Questions addressed funding levels, award selection 
transparency, and the difference between formula and competitive grant 
distribution approaches.
    While I answered each of these questions during the hearing and 
also addressed these questions in my written testimony, I am taking 
this opportunity to restate the following:
    <bullet>  The INFRA program is underfunded. CAGTC calls for an 
annual investment of $12 billion in multimodal freight investment 
through a competitive grant program.
    <bullet>  To ensure the best and highest use of federal dollars, 
the award selection process must be transparent and employ merit-based 
criteria that identify and prioritize projects with a demonstrable 
contribution to national freight efficiency. Goals should include 
increasing national and regional economic competitiveness, improving 
connectivity between freight modes, reducing congestion and 
bottlenecks, and improving the safety, efficiency, and reliability of 
the movement of freight and people. Likewise, a national freight 
strategic plan that identifies key freight gateways and trade corridors 
should guide investment decisions.
    <bullet>  Competitive grant programs, such as INFRA, are critical 
to large-scale infrastructure projects, which often span modes and 
jurisdictional borders and are difficult, if not impossible, to fund 
through traditional distribution methods such as formula programs. 
Likewise, formula programs play an important role--but there is no 
``one size fits all'' approach to funding freight projects and formula 
dollars cannot supplant the role of a competitive grant program that 
awards projects through the use of merit-based criteria. A federally 
administered competitive grant program is necessary to advance 
nationally significant freight projects in a timely and efficient 
manner.

                                 <F-dash>
Letter of December 4, 2019, from Catherine Chase, President, Advocates 
 for Highway and Auto Safety et al., Submitted for the Record by Hon. 
                         Eleanor Holmes Norton
                                                  December 4, 2019.
Hon. Peter A. DeFazio,
Chairman,
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.

    Dear Chairman DeFazio and Ranking Member Graves:
    As you prepare for tomorrow's hearing, ``Where's My Stuff? 
Examining the Economic, Environmental, and Societal Impacts of Freight 
Transportation,'' we urge you to prioritize safety in considering 
America's freight transportation system. Each day on average, over 100 
people are killed and nearly 7,500 more are injured in motor vehicle 
crashes. This preventable toll also comes with a serious financial 
burden. Annually, crashes impose comprehensive costs of over $800 
billion on society, $242 billion of which are economic costs--amounting 
to a ``crash tax'' of $784 per person each year. Yet, available 
solutions to the problems that perpetuate crashes continue to languish. 
Moreover, year after year proposals are considered to weaken or repeal 
the minimal safety protections that do exist. We encourage you to take 
action preventing deaths and injuries as part of any legislative 
package advanced by your Committee and respectfully request your 
consideration of our positions during the hearing.
    Truck crashes deaths continue to rise; immediate action is needed. 
In 2018, 4,951 people were killed in crashes involving a large truck--a 
staggering 46 percent increase since a low in 2009. Additionally, 
151,000 people were injured in crashes involving a large truck that 
same year. Commercial motor vehicle (CMV) crashes amounted to $134 
billion in costs in 2016, the latest year for which data is available. 
These grim statistics are unacceptable and more must be done to prevent 
this needless carnage.
    Proven countermeasures that would bring about safer conditions for 
both truck drivers and those with whom they share the road must be 
implemented. Technologies including speed limiting devices, automatic 
emergency braking (AEB), and comprehensive underride guards could be 
saving lives now if they were fully deployed. Similarly, a required 
minimum number of behind the wheel hours should be established as part 
of entry level driver training. We call on Congress to take swift 
action on legislation requiring these crucial upgrades.
    Oppose efforts to weaken or repeal existing truck safety rules. In 
the last few years, special interests have been relentless in their 
attempts to increase truck driver hours of service and evade compliance 
with the electronic logging device (ELD) rule, despite the known 
dangers associated with ``tired truckers.'' It is also alarming that 
efforts have been underway to allow for ``teen truckers'' by lowering 
the age to obtain an interstate commercial driver's license (CDL) from 
21 to 18. This ill-conceived concept is especially egregious because 
truck drivers under the age of 21 are anywhere from 4 to 6 times more 
likely to be in a fatal crash, according to studies of intrastate truck 
drivers. These dangerous proposals pose a direct threat to the safety 
of all road users and should be resoundingly rejected.
    Bigger, heavier trucks would endanger all motorists and our 
infrastructure. Congress should oppose all attempts to further degrade 
safety by increasing truck size and weight limits. According to the 
2017 Infrastructure Report Card from the American Society of Civil 
Engineers, America's roads receive a grade of ``D'' and our bridges 
were given a ``C+''. Nearly 40 percent of our 615,000 bridges in the 
National Bridge Inventory are 50 years or older and one out of 11 is 
structurally deficient. The U.S. Department of Transportation (DOT) 
Comprehensive Truck Size and Weight Study found that introducing double 
33-foot trailer trucks \1\, would be projected to result in 2,478 
bridges requiring strengthening or replacement at an estimated one-time 
cost of $1.1 billion. This figure does not even account for the 
additional, subsequent maintenance costs which will result from longer, 
heavier trucks. In fact, increasing the weight of a heavy truck by only 
10 percent increases bridge damage by 33 percent. The Federal Highway 
Administration (FHWA) estimates that the investment backlog for 
bridges, to address all cost-beneficial bridge needs, is $123.1 
billion. The U.S. would need to increase annual funding for bridges by 
20 percent over current spending levels to eliminate the bridge backlog 
by 2032.
---------------------------------------------------------------------------
    \1\ ``Double 33'' is a configuration of a tractor pulling two 33-
foot trailers, amounting to an eight-story office building on its side. 
Despite being aggressively pushed by certain segments of the shipping 
and trucking industry, this proposal has been rejected on a bipartisan 
basis.
---------------------------------------------------------------------------
    Longer trucks also come with operational difficulties such as 
requiring more time to pass, having larger blind spots, crossing into 
adjacent lanes, swinging into opposing lanes on curves and turns, and 
taking a longer distance to adequately brake. And, not surprisingly, 
trucks heavier than 80,000 pounds have a greater number of brake 
violations, which are a major reason for out-of-service violations. 
According to a North Carolina study by the Insurance Institute for 
Highway Safety (IIHS), trucks with out-of-service violations are 362 
percent more likely to be involved in a crash. This is also troubling 
considering that tractor-trailers moving at 60 mph are required to stop 
in 310 feet--the length of a football field--once the brakes are 
applied. Actual stopping distances are often much longer due to driver 
response time before braking and the common problem that truck brakes 
are often not in adequate working condition.
    Increasing truck size and weight will exacerbate safety and 
infrastructure problems, negate potential benefits from investments in 
roads and bridges, and divert rail traffic from privately owned freight 
railroads to our already overburdened public highways. Also, despite 
claims to the contrary, bigger trucks will not result in fewer trucks. 
Following every past increase to federal truck size and weight, the 
number of trucks are on our roads has gone up. Since 1982, when 
Congress last increased the gross vehicle weight limit, truck 
registrations have more than doubled. The U.S. DOT study also addressed 
this meritless assertion and found that any potential mileage 
efficiencies from the use of heavier trucks would be offset in just one 
year.
    Progress to reduce motor vehicle crash deaths has stagnated despite 
available, proven technology. Tremendous focus has been placed on the 
future potential of autonomous vehicles (AVs), also known as driverless 
cars, to eliminate crashes. While it is claimed that AVs may someday 
make meaningful reductions in deaths and injuries, this promise is 
still likely decades away. Further, at least four people have already 
been killed in crashes involving vehicles in the relatively small fleet 
of cars equipped with self-driving technologies. The real risks posed 
by experimental driverless cars must be addressed through strong 
federal regulation--including safety standards and oversight--before 
AVs are deployed on a large scale.
    As AVs are being developed and deployed, advanced vehicle 
technologies, which prevent and lessen the severity of crashes, should 
be required as standard equipment in all new vehicles. In fact, the 
National Transportation Safety Board (NTSB) has included increasing 
implementation of collision avoidance technologies in its Most Wanted 
Lists of Transportation Safety Improvements since 2016. Proven 
technologies such as automatic emergency braking, lane departure 
warning and blind spot detection should be made standard equipment on 
all new vehicles now. We urge Congress to require the U.S. DOT to 
establish minimum performance requirements for these lifesaving 
technologies and require that all new vehicles be equipped with them.
    Infrastructure upgrades will be critical as driverless cars are 
deployed. As AVs are tested and eventually commercialized on our 
Nation's roads, it will be vital that infrastructure improvements be 
made to ensure their safe operation. For example, research shows that 
driverless vehicles can easily be confused by poor infrastructure 
conditions leading to dangerous errors. In one experiment a standard 
stop sign with only a few alterations was interpreted by a driverless 
car as a 45 mph speed limit sign. The potential consequences of these 
types of mistakes could be catastrophic. Substantial investments in our 
infrastructure that benefit human drivers now and help to prepare our 
roads for self-driving cars must occur before driverless vehicles are 
ubiquitous on our streets. Additionally, despite claims that driverless 
technology will improve our congested roads, transportation experts 
have already found that the proliferation of mobility services like 
Lyft and Uber (precursors for mass deployment of driverless vehicles) 
have instead increased congestion and reduced mass transit use. In 
addition, a recent study predicted that AVs could exacerbate clogged 
arteries by constantly traveling at low speeds instead of parking while 
waiting for their next trip. These, and numerous other, issues must be 
comprehensively addressed before driverless vehicles are deployed on a 
large scale. In order to realize the full potential of AVs to be a 
catalyst for positive change, protections must be put in place to 
ensure the safety of all road users.
    As you consider important issues surrounding freight movement, we 
urge you to prioritize efforts that will reverse the high number of 
crash fatalities, injuries and costs from large truck crashes. 
Effective solutions are readily available to save lives now.
        Sincerely,

 
 
 
Catherine Chase, President, Advocates for   Georges C. Benjamin, MD,
 Highway and Auto Safety                     Executive Director,
                                             American Public Health
                                             Association
 
Harry Adler, Executive Director, Truck      Jason Levine, Executive
 Safety Coalition                            Director, Center for Auto
                                             Safety
 
Joan Claybrook, Chair, Citizens for         Jack Gillis, Executive
 Reliable and Safe Highways (CRASH) and      Director, Consumer
 Former Administrator, National Highway      Federation of America
 Traffic Safety Administration
 
Steve Owings, Co-Founder and President,     Stephen W. Hargarten, M.D.,
 Road Safe America                           MPH, Society for the
                                             Advancement of Violence and
                                             Injury Research
 
Janette Fennell, Founder and President      Daphne Izer, Lisbon, ME,
 KidsAndCars.org                             Founder, Parents Against
                                             Tired Truckers (PATT),
                                             Mother of Jeff Izer, Killed
                                             in a truck crash 10/10/93
 
Dawn King, Davisburg, MI, President, Truck  Linda Wilburn, Weatherford,
 Safety Coalition (TSC), Board Member,       OK, Board Member, PATT,
 Citizens for Reliable and Safe Highways     Mother of Orbie Wilburn,
 (CRASH), Daughter of Bill Badger, Killed    Killed in a truck crash 9/2/
 in truck crash 12/23/04                     02
 
Larry Liberatore, Severn, MD, Board         Beth Badger, Columbus, GA,
 Member, PATT, Father of Nick Liberatore,    Volunteer, Truck Safety
 Killed in a truck crash 6/9/97              Coalition, Daughter of Bill
                                             Badger, Killed in truck
                                             crash 12/23/04
 
Tami Friedrich Trakh, Corona, CA, Board     Sally Greenberg, Executive
 Member, CRASH, Sister of Kris Mercurio,     Director, National
 Sister-in-Law of Alan Mercurio, Aunt of     Consumers League
 Brandie Rooker & Anthony Mercurio, Killed
 in a truck crash 12/27/89
 
Rosemary Shahan, President, Consumers for   Andrew McGuire, Executive
 Auto Reliability and Safety                 Director, Trauma Foundation
 
Jane Mathis, St. Augustine, FL, Vice        Ed Slattery, Lutherville,
 President, TSC, Board Member, PATT,         MD, Board Member, PATT,
 Mother of David Mathis, Mother-in-Law of    Volunteer, Truck Safety
 Mary Kathryn Mathis, Killed in a truck      Coalition, Husband of Susan
 crash 3/25/04                               Slattery, Killed in a truck
                                             crash 8/16/10, Sons Matthew
                                             & Peter Slattery critically
                                             injured in a truck crash 8/
                                             16/10
 
Ron Wood, Washington, D.C., Volunteer,      Gary Wilburn, Weatherford,
 Truck Safety Coalition, Son of Betsy        OK, Volunteer, Truck Safety
 Wood, Brother of Lisa Wood Martin, Uncle    Coalition, Father of Orbie
 of Chance, Brock, and Reid Martin, Killed   Wilburn, Killed in a truck
 in a truck crash 9/20/04                    crash 9/2/02
 
Christina Mahaney, Jackman, ME, Volunteer,  Nancy Meuleners Bloomington,
 Truck Safety Coalition Injured in a truck   MN, Volunteer, Truck Safety
 crash 7/19/11, Mother of Liam Mahaney,      Coalition, Injured in a
 Killed in a truck crash 7/19/11             truck crash 12/19/89
 
Debra Cruz, Harlingen, TX, Volunteer,       Laurie Higginbotham,
 Truck Safety Coalition, Injured in a        Memphis, TN, Volunteer,
 truck crash 8/8/08                          Truck Safety Coalition,
                                             Mother of Michael
                                             Higginbotham, Killed in a
                                             truck crash 11/18/14
 
Kate Brown, Gurnee, IL, Volunteer, Truck    Peter Malarczyk, Hastings-on-
 Safety Coalition, Mother of Graham Brown,   Hudson, NY, Volunteer,
 Injured in a truck crash 5/2/05             Truck Safety Coalition,
                                             Injured in a truck crash 12/
                                             29/15, Son of Ryszard and
                                             Anita Malarczyk, Killed in
                                             a truck crash 12/29/15
 
Monica Malarczyk, Hastings-on-Hudson, NY,   Randall Higginbotham,
 Volunteer, Truck Safety Coalition,          Memphis, TN, Volunteer,
 Injured in a truck crash 12/29/15, Son of   Truck Safety Coalition,
 Ryszard and Anita Malarczyk, Killed in a    Father of Michael
 truck crash 12/29/15                        Higginbotham, Killed in a
                                             truck crash 11/18/14
 
Alan Dana, Plattsburgh, NY, Volunteer,      Julie Branon Magnan, South
 Truck Safety Coalition, Son of Janet        Burlington, VT, Volunteer,
 Dana, Uncle of Caitlyn & Lauryn Dana,       Truck Safety Coalition,
 Brother-in-law of Laurie Dana, Killed in    Injured in a truck crash 01/
 a truck crash 7/19/12                       31/02, Wife of David
                                             Magnan, Killed in a truck
                                             crash 01/31/02
 
Cindy Southern, Cleveland, TN, Volunteer,   Jennifer Tierney,
 Truck Safety Coalition, Wife of James       Kernersville, NC, Board
 Whitaker, sister-in-law Anthony Hixon and   Member, CRASH, Daughter of
 aunt of Amber Hixon, Killed in a truck      James Mooney, Killed in a
 crash 9/18/09                               truck crash 9/20/83
 
Amy Fletcher, Perrysburg, OH, Volunteer,    Steve Izer, Lisbon, ME,
 Truck Safety Coalition, Wife of John        Board Member, PATT, Father
 Fletcher, Killed in a truck crash 1/24/12   of Jeff Izer, Killed in a
                                             truck crash 10/10/93
 
Sandra Lance, Chesterfield, VA, Volunteer,  Tina Silva, Ontario, CA,
 Truck Safety Coalition, Mother of Kristen   Volunteer, Truck Safety
 Belair, Killed in a truck crash 8/26/09     Coalition, Sister of Kris
                                             Mercurio, Sister-in-Law of
                                             Alan Mercurio, Aunt of
                                             Brandie Rooker & Anthony
                                             Mercurio, Killed in a truck
                                             crash 12/27/89
 
Bruce King, Davisburg, MI, Volunteer,       Melissa Gouge, Washington,
 Truck Safety Coalition, Son-in-law of       D.C., Volunteer, Truck
 Bill Badger, Killed in truck crash 12/23/   Safety Coalition, Cousin of
 04                                          Amy Corbin, Killed in a
                                             truck crash 8/18/97
 
Kim Telep, Harrisburg, PA, Volunteer,       Marchelle Wood, Falls
 Truck Safety Coalition, Wife of Bradley     Church, VA, Volunteer,
 Telep, Killed in a truck crash 8/29/12      Truck Safety Coalition,
                                             Mother of Dana Wood, Killed
                                             in a truck crash 10/15/02
 
Ashley McMillan, Memphis, TN, Volunteer,    Bernadette Fox, Davis, CA,
 Truck Safety Coalition, Girlfriend of       Volunteer, Truck Safety
 Michael Higginbotham, Killed in a truck     Coalition, Best friend of
 crash 11/18/14                              Daniel McGuire, Killed in a
                                             truck crash 7/10/14
 
Warren Huffman, Odessa, MI, Volunteer,      Paul Badger, Davidson, NC,
 Truck Safety Coalition, Brother of Tim      Volunteer, Truck Safety
 Huffman, Killed in a truck crash 5/6/13     Coalition, Son of Bill
                                             Badger, Killed in truck
                                             crash 12/23/04
 
Frank Wood, Falls Church, VA, Volunteer,    Morgan Lake, Sunderland, MD,
 Truck Safety Coalition, Father of Dana      Volunteer, Truck Safety
 Wood, Killed in a truck crash 10/15/02      Coalition, Injured in a
                                             truck crash 7/19/13
 
Santiago Calderon, Arcata, CA, Volunteer,
 Truck Safety Coalition, Injured in a
 truck crash 4/10/14
 

cc: Members of the U.S. House Committee on Transportation and 
Infrastructure

                                 <F-dash>
   Statement of Chris Spear, President and Chief Executive Officer, 
   American Trucking Associations, Submitted for the Record by Hon. 
                         Eleanor Holmes Norton
    Chair Norton, Chairman Lipinski, Ranking Members Davis and 
Crawford, and members of the subcommittees, thank you for holding this 
important hearing and for providing the American Trucking Associations 
(ATA) \1\ with the opportunity to submit testimony for the record. ATA 
is an 86-year old federation that represents every sector of the 
trucking industry, with affiliates in all 50 states. Our federation has 
members in every Congressional district and every community. More than 
80 percent of U.S. communities rely exclusively on trucks for their 
freight transportation needs. Trucking is the glue that connects all 
modes in support of the American economy.
---------------------------------------------------------------------------
    \1\ American Trucking Associations is the largest national trade 
association for the trucking industry. Through a federation of 50 
affiliated state trucking associations and industry-related conferences 
and councils, ATA is the voice of the industry America depends on most 
to move our nation's freight. Follow ATA on Twitter or on Facebook. 
Trucking Moves America Forward.
---------------------------------------------------------------------------
    The trucking industry has made great strides over the last several 
decades to reduce its environmental footprint, and trucking companies 
continually work with their suppliers, customers and other partners to 
improve fuel efficiency. Not only is this beneficial to public health 
and the future of the planet, but it makes good business sense. 
Depending on market conditions, fuel is the highest or second highest 
line item cost for motor carriers.\2\ Therefore it is incumbent on 
trucking companies to do all they can to reduce their fuel consumption. 
Congress can assist in this regard by making the investments in highway 
infrastructure necessary to reduce congestion, which caused the 
trucking industry to consume an additional 6.87 billion gallons of fuel 
in 2016. This represented approximately 13 percent of the industry's 
fuel consumption, resulting in 67.3 million metric tons of excess 
carbon dioxide (CO2) emissions.\3\ Congress can also eliminate a major 
disincentive for carriers who want to buy newer, cleaner trucks by 
eliminating the 12% excise tax on new trucks.
---------------------------------------------------------------------------
    \2\ An Analysis of the Operational Costs of Trucking: 2019 Update. 
American Transportation Research Institute, Nov. 2019.
    \3\ Fixing the 12% Case Study: Atlanta, GA. American Transportation 
Research Institute, Feb. 2019.
---------------------------------------------------------------------------
    Trucking was the first freight industry to widely use advanced 
diesel engine emissions control systems. In 2002, the industry began 
buying new trucks which incorporated exhaust gas recirculation (EGR) 
combined with other emission control technologies to reduce tailpipe 
emissions of nitrogen oxides (NOx) by half. The additional cost of 
purchasing this new engine technology has been estimated to be as much 
as $250 million annually.
    Beginning in 2007, the new diesel trucks purchased by the industry 
began incorporating diesel particulate filters (DPFs) to reduce 
tailpipe emissions of particulate matter (PM) by at least 90 percent. 
These trucks also achieved the first half of a 90 percent reduction in 
NOx emissions which was fully implemented in 2010. In other words, 
every 10 new trucks purchased today equal the NOx and PM emissions 
produced by a single truck purchased thirteen years ago.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    To enable the use of these new emission reduction technologies, the 
trucking industry began transitioning to ultra-low sulfur diesel fuel 
(ULSD) in 2006. By late 2010, all of the highway diesel fuel sold in 
the United States contained near-zero levels of sulfur (<15 parts/
million). The additional cost of purchasing this new low-emission 
engine technology and fuel has been estimated to be as much as $4 
billion annually.
    Today, 43 percent of large commercial trucks registered in the 
United States meet the most stringent NOx and PM emissions standards. 
And with each new truck purchase further expanding the use of NOx and 
PM controls, emissions from heavy-duty diesel engines are projected to 
significantly decrease over the next decade. According to the 
Environmental Protection Agency, these stringent emissions standards 
cut nationwide NOx and PM emissions from heavy-duty diesel trucks in 
half between 2007 and 2015. By 2030, these emissions will be reduced by 
roughly 90 percent.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Achieving Reductions: U.S. Heavy-Duty Diesel Engine Emissions Trends
    Beginning in 2014, new diesel trucks began to incorporate enhanced 
aerodynamics, low rolling resistance tires and other innovative 
technologies to improve fuel efficiency and reduce carbon dioxide (CO2) 
emissions. By 2018, these first-ever standards will reduce fuel 
consumption and CO2 emissions by as much as 23 percent over a baseline 
2010 truck. The additional cost of purchasing this new technology has 
been estimated to be as much $8 billion which is expected to be offset 
through savings in fuel purchases. A second phase of fuel efficiency 
and CO2 standards has been adopted that will achieve an additional 34 
percent reduction from trucks and the trailers they pull by 2027. The 
estimated cost of the innovative technologies which will be used to 
achieve these additional reductions is estimated to be $20-$30 billion.
    According to the Federal Highway Administration, trucks transport 
more than two-thirds of U.S. freight tonnage. By 2020, while trucking's 
share of U.S. freight tonnage is projected to increase, less than 40 
percent of U.S. freight-related NOx and PM emissions are expected to be 
produced by trucks. These achievements in sustainability and cleaner 
air are primarily the result of the trucking industry's investment in 
new trucks with advanced diesel engine emissions control systems, the 
purchase of ultra-low sulfur diesel fuel to power these engines and 
advancements in vehicle design.
    This year, the trucking industry will move 70 percent of the 
nation's freight tonnage, and over the next decade will be tasked with 
moving three billion more tons of freight than it does today while 
continuing to deliver the vast majority of goods.\4\ Some claim that 
large shifts in freight from trucks to an alternative mode--primarily 
rail--would reduce emissions and congestion. This is no doubt true. 
However, it is also highly unrealistic to assume that the 40-year 
trend-line toward the more nimble, reliable and flexible freight 
transportation provided by trucks will suddenly reverse course. Indeed, 
over the past 20 years rail market share has fallen by 42 percent, 
while the trucking industry's market share has increased by nine 
percent.\5\ While pipelines are projected to grow their market shares 
as capacity continues to expand and energy production increases, rail 
carload traffic is expected to continue to stagnate--both in terms of 
market share and amount of volume--and rail intermodal shares will 
remain flat. In fact, the annual growth in truck volumes over the next 
decade is nearly equal to the total amount of freight moved by 
intermodal rail each year. While rail may have a price advantage over 
trucks, shippers show no sign that they are ready to abandon the higher 
quality, more reliable service that only trucks can provide. In fact, 
as e-commerce grows, the trend toward trucking is likely to accelerate. 
Therefore, it would be unwise to redirect money designated for 
highways--particularly funds currently going toward the two freight 
programs created by the FAST Act, to non-highway freight projects when 
it is clear that for the foreseeable future the vast majority of 
freight will continue to move on the highway system.
---------------------------------------------------------------------------
    \4\ Freight Transportation Forecast 2018 to 2029. American Trucking 
Associations, 2018.
    \5\ Commodity Flow Survey 1997 and 2017 Preliminary tables, U.S. 
Department of the Census.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The federal government has a critical role to play in the supply 
chain. Freight knows no borders, and the constraints of trying to 
improve the movement of freight without federal funding and 
coordination will create a drag on all freight providers' ability to 
serve national and international needs. The critical role that only the 
federal government can play is to look at investment decisions in the 
context of national impacts and determine which investments can produce 
the greatest economic benefits regardless of jurisdictional 
considerations. Only the federal government can break down the 
artificial constraints of geographic boundaries that hamper sound 
investment in our nation's freight networks. Only the federal 
government can provide the resources necessary to fund projects whose 
benefits extend beyond state lines, but are too expensive for state or 
local governments to justify investments at the expense of local 
priorities. This is why devolution of funding highway projects to state 
and local governments cannot and will not address our most important 
national needs.
    A well-maintained, reliable and efficient network of highways is 
crucial to the delivery of the nation's freight and vital to our 
country's economic and social well-being. However, the road system is 
rapidly deteriorating, and costs the average motorist nearly $1,600 a 
year in higher maintenance and congestion expenses.\6\ Highway 
congestion also adds nearly $75 billion to the cost of freight 
transportation each year.\7\ In 2016, truck drivers sat in traffic for 
nearly 1.2 billion hours, equivalent to more than 425,000 drivers 
sitting idle for a year.\8\
---------------------------------------------------------------------------
    \6\ Bumpy Road Ahead: America's Roughest Rides and Strategies to 
make our Roads Smoother, The Road Information Program, Oct. 2018; 2015 
Urban Mobility Scorecard. Texas Transportation Institute, Aug. 2015.
    \7\ Cost of Congestion to the Trucking Industry: 2018 Update. 
American Transportation Research Institute, Oct. 2018.
    \8\ Ibid.
---------------------------------------------------------------------------
    Most troubling is the impact of underinvestment on highway safety. 
In nearly 53 percent of highway fatalities, the condition of the 
roadway is a contributing factor.\9\ In 2011, nearly 17,000 people died 
in roadway departure crashes, over 50 percent of the total.\10\ Many of 
these fatalities result from collisions with roadside objects, such as 
trees or poles located close to the roadway.
---------------------------------------------------------------------------
    \9\ Roadway Safety Guide. Roadway Safety Foundation, 2014.
    \10\ Ibid.
---------------------------------------------------------------------------
    The Highway Trust Fund (HTF), the primary source of federal revenue 
for highway projects, safety programs and transit investments, is 
projected to run short of the funds necessary to maintain current 
spending levels by FY2021.\11\ While an average of approximately $42 
billion per year is expected to be collected from highway users over 
the next decade, nearly $60 billion will be required annually to 
prevent significant reductions in federal aid for critical projects and 
programs.\12\ It should be noted that a $60 billion annual average 
federal investment still falls well short of the resources necessary to 
provide the federal share of the expenditure needed to address the 
nation's surface transportation safety, maintenance and capacity 
needs.\13\ According to the American Society of Civil Engineers, the 
U.S. spends less than half of what is necessary to address these needs. 
As the investment gap continues to grow, so too will the number of 
deficient bridges, miles of roads in poor condition, number of highway 
bottlenecks and, most critically, the number of crashes and fatalities 
attributable to inadequate roadways.
---------------------------------------------------------------------------
    \11\ The Budget and Economic Outlook 2019-2029, January 2019 
Congressional Budget Office.
    \12\ Ibid.
    \13\ 2015 Status of the Nation's Highways, Bridges, and Transit: 
Conditions & Performance. USDOT, Dec. 2016; see also 2017 
Infrastructure Report Card. American Society of Civil Engineers, 2017.
---------------------------------------------------------------------------
    While the cost and scale of addressing highway improvement needs is 
daunting, it is important to note that much of the congestion is 
focused at a relatively small number of locations. Just 17% of National 
Highway System (NHS) miles represents 87% of total truck congestion 
costs nationwide.\14\ Many of these locations are at highway 
bottlenecks that are identified annually by the American Transportation 
Research Institute. ATRI recently released its annual freight 
bottleneck report, which identifies the top 100 truck bottlenecks 
around the country.\15\ The Washington, DC area had two major 
bottlenecks, while Illinois had four. While most of the bottlenecks 
were in large metropolitan areas, the report found trouble spots even 
in smaller cities like Baton Rouge, LA, San Bernardino, CA, Birmingham, 
AL, Chattanooga, TN, and Greenville, SC. ATA's highway funding 
proposal, described below, would adopt a strategy for funding 
improvements at these costly choke points.
---------------------------------------------------------------------------
    \14\ Ibid.
    \15\ https://truckingresearch.org/2019/02/06/atri-2019-truck-
bottlenecks/
---------------------------------------------------------------------------
    A recently released report \16\ by the Transportation Research 
Board (TRB) requested by Congress focused specifically on the current 
state and future needs of the Interstate Highway System. This critical 
network binds our nation together and reaps immeasurable economic and 
national security benefits for the United States. Most importantly, 
because interstates are far safer than surface roads, since 1967 its 
construction has prevented nearly a quarter million people from losing 
their lives in vehicular crashes.\17\ The Interstate Highway System 
accounts for about one-quarter of all miles traveled by light-duty 
vehicles and 40 percent of miles traveled by trucks.\18\ The TRB report 
estimates that conservatively, the state and federal investment 
necessary to address the Interstate system's maintenance and capacity 
needs will have to double or triple over today's expenditures in the 
next 20 years.\19\
---------------------------------------------------------------------------
    \16\ Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future (2018). Transportation Research 
Board, National Academy of Sciences.
    \17\ Ibid, p. 2-18
    \18\ Ibid, p. 2-10.
    \19\ Ibid, p. S-5
---------------------------------------------------------------------------
    ATA's proposed solution to the highway funding crisis is the Build 
America Fund. The BAF would be supported with a new 20 cent per gallon 
fee built into the price of transportation fuels collected at the 
terminal rack, to be phased in over four years. The fee will be indexed 
to both inflation and improvements in fuel efficiency, with a five 
percent annual cap. We estimate that the fee will generate nearly $340 
billion over the first 10 years. It will cost the average passenger 
vehicle driver just over $100 per year once fully phased in.\20\ While 
much of the money under the BAF would fund existing programs, we 
recommend that $5 billion annually should be dedicated to addressing 
major highway freight bottlenecks.
---------------------------------------------------------------------------
    \20\ Federal Highway Administration, Highway Statistics 2016, Table 
VM-1. Average light-duty vehicle consumed 522 gallons of fuel.
---------------------------------------------------------------------------
    We also support a new fee on hybrid and electric vehicles, which 
underpay for their use of the highway system or do not contribute at 
all. We look forward to working with the committee to identify the best 
approach to achieve that goal.
    The fuel tax is the most immediate, cost-efficient and conservative 
mechanism currently available for funding surface transportation 
projects and programs. Collection costs are less than one percent of 
revenue.\21\ Our proposal will not add to the federal debt or force 
states to resort to detrimental financing options that could jeopardize 
their bond ratings. Unlike other approaches that simply pass the buck 
to state and local governments by giving them additional ``tools'' to 
debt-finance their infrastructure funding shortfalls for the few 
projects that qualify, the BAF will generate real money that can be 
utilized for any federal-aid project.
---------------------------------------------------------------------------
    \21\ Ibid.
---------------------------------------------------------------------------
    Beyond infrastructure needs, Congress can assist in addressing a 
major safety and efficiency challenge facing the trucking industry. 
Research and feedback from carriers and drivers suggest there is a 
significant shortage of available parking for truck drivers in certain 
parts of the country. Given the projected growth in demand for trucking 
services, this problem will likely worsen. There are significant safety 
benefits from investing in truck parking to ensure that trucks are not 
parking in unsafe areas due to lack of space. In addition, locating 
truck parking in strategic areas can help to alleviate congestion by 
allowing trucks to stage their deliveries and get to their destinations 
before peak congestion periods begin.
    Funding for truck parking is available to states under the current 
federal-aid highway program, but truck parking has not been a priority 
given a shortage of funds for essential highway projects. Therefore, we 
support the creation of a new discretionary grant program with 
dedicated funding from the federal-aid highway program for truck 
parking capital projects.
    Once again, thank you for holding this hearing and giving ATA the 
opportunity to submit testimony. The safe, efficient and sustainable 
movement of freight is both critical and attainable. While trucking 
companies work hard every day to achieve these goals, some things are 
beyond their control. The trucking industry cannot determine how much 
money is invested in highways, or which projects are selected. We all 
rely on our elected representatives to make these decisions. ATA's 
members have offered to help pay for improvements to the highway 
system, and we hope you make the right decision by accepting that 
assistance and by investing the money where it is needed most--in 
highway bottlenecks and the expansion of truck parking capacity where 
shortages exist.

                                 <F-dash>
Statement of the Association of Equipment Manufacturers, Submitted for 
                the Record by Hon. Eleanor Holmes Norton
    Dear Chairwoman Holmes Norton, Chairman Lipinski, Ranking Member 
Davis, and Ranking Member Crawford:
    The Association of Equipment Manufacturers (AEM) appreciates the 
opportunity to submit a statement for the record on the hearing 
entitled ``Where's My Stuff? Examining the Economic, Environmental, and 
Societal Impacts of Freight Transportation.'' AEM represents more than 
1,000 members in the construction, agriculture, forestry, utility and 
mining sectors and advocates for an industry that employs more than 1.3 
million U.S. men and women and contributes $159 billion a year to our 
national economy. AEM's membership is dependent on a well-maintained 
and reliable freight network to ensure that raw materials, goods, and 
components are transported efficiently and cost effectively. As such, 
we continue to urge policymakers to pursue sensible legislative 
solutions that target intermodal network bottlenecks.
    Many of our members manufacture products in rural areas, acting as 
important employers for these communities; however, operation in rural 
communities presents unique shipping challenges. For instance, rural 
facilities frequently operate along two-lane highways that are ill-
equipped to accommodate significant freight traffic, yet raw materials 
need to make their way to the facilities to allow products to be 
manufactured and finished goods and components need to get to 
customers. Poorly maintained roads and those that are unable to 
accommodate freight traffic as well as freight rail congestion 
increases shipment transportation time.
    Likewise, significant freight delays at our nation's ports have 
created additional challenges for our membership. In some cases, 
significant delays and freight congestion have even forced our members 
to divert shipments to non-domestic ports. Infrastructure capacity and 
reliability challenges raise logistics costs which are ultimately 
passed onto customers in the form of higher prices. Transportation 
funding directed towards freight capacity will help alleviate these 
challenges and ensure that equipment manufacturers can retain 
competitive pricing models. AEM supports proposals that would help 
mitigate the challenges that our members face with regard to our 
nation's freight network. We support legislative proposals that would 
establish grant programs dedicated to freight focused projects and 
those that would create a dedicated revenue stream for freight projects 
funded by user fees.
    We appreciate the leadership of the Subcommittee on Highways & 
Transit and the Subcommittee on Railroads, Pipelines, & Hazardous 
Materials on this important topic. We look forward to working with you 
as you develop innovative solutions to our nation's freight challenges.

                                 <F-dash>
    Letter of December 3, 2019, from Allen R. Schaeffer, Executive 
  Director, Diesel Technology Forum, Submitted for the Record by Hon. 
                         Eleanor Holmes Norton
                                                  December 3, 2019.
Rep. Eleanor Holmes Norton,
Chairman,
Subcommittee on Highways & Transit, Committee on Transportation & 
        Infrastructure, U.S. House of Representatives, Rayburn House 
        Office Building, Washington, DC.
Rep. Rodney Davis,
Ranking Member,
Subcommittee on Highways & Transit, Committee on Transportation & 
        Infrastructure, U.S. House of Representatives, Rayburn House 
        Office Building, Washington, DC.

    Dear Chairman Norton and Ranking Member Davis,
    On behalf of the Diesel Technology Forum, we would like to submit 
the comment concerning the hearing before the subcommittee titled 
Where's My Stuff? Examining the Economic, Environmental, and Societal 
Impacts of Freight Transportation. Diesel is the prime technology that 
moves many freight conveyances including commercial vehicles, 
locomotives, marine vessels and the wide variety of off-road cargo 
handling equipment. Diesel technology has undergone a significant 
transformation over the past decade and half and the latest generation 
diesel technologies that power heavy duty trucks and off-road equipment 
are now near-zero in emissions. The leaders in diesel technology are 
engaged to refine the technology to further drive these emissions 
closer to zero in the near term while generating significant fuel 
savings and greenhouse gas emission reductions. While emerging zero-
emission heavy-duty technologies are on the drawing board today, and a 
few are available currently, introducing the latest diesel technology 
will do the most to deliver immediate term benefits to the communities 
where these vehicles and equipment operate. Diesel is also a U.S. 
economic success story as 13 states are home heavy-duty diesel 
manufacturing facilities.
    By way of background, the Diesel Technology Forum represents the 
leaders in diesel technology including engine, vehicle, equipment and 
component manufacturers and biofuel producers. The Diesel Technology 
Forum is a not-for-profit organization that conducts research and 
educational outreach about the economic importance, energy efficiency 
and clean air and climate benefits of diesel technology of all kinds. 
Diesel vehicles and equipment play a key role in 15 sectors of the US 
economy, from agriculture to goods movement and warehousing and mass 
transit.
1. Diesel is the Prime Mover of the U.S. Economy & Supports 12 Percent 
        of Private Sector Economic Activity
    Diesel engines power the overwhelming majority of vehicles and 
equipment responsible for moving freight in the U.S. Three out of every 
four commercial vehicles is powered by diesel with the remainder 
comprised of gasoline and just 2 percent are natural gas. 98 percent of 
the larger Class 8 trucks are powered by diesel while nearly the 
entirety of locomotives and larger marine workboats are also powered by 
diesel. While alternative fuels and all-electric technologies power 
some of the wide variety of off-road cargo handling and warehouse 
equipment, including forklifts and gantry cranes, diesel is still the 
prime technology among off-road equipment.
    Much of these heavy-duty diesel engines and the vehicles and 
equipment they power are manufactured in the U.S., supporting private 
sector economic activity and employment. Over 1 million heavy-duty 
diesel engines were manufactured in 13 states in the U.S. These 
engines, and the vehicles and equipment they power are critical to the 
warehousing and logistics, agricultural and construction industries 
that generated $4 trillion in economic activity in the first quarter of 
2019, or 12 percent of all private sector activity.
    According to the Bureau of labor Statistics, over 265,000 Americans 
are employed as diesel technicians across the country and job prospects 
show signs of continual improvement \1\. The leaders in diesel 
technology sponsor technical programs around the country to help 
guarantee a skilled workforce to keep diesel technology working for 
America.\2\
---------------------------------------------------------------------------
    \1\ Occupational Employment and Wages--Bus, Trucks and Diesel 
Engine Specialists. Bureau of Labor Statistics. https://www.bls.gov/
oes/current/oes493031.htm
    \2\ ``MANUFACTURING PROGRESS: 1 MILLION HEAVY-DUTY DIESEL ENGINES 
ARE GOOD FOR THE ENVIRONMENT AND ECONOMY''. Diesel Technology Forum, 
September 2019. https://www.dieselforum.org/policyinsider/
manufacturing-progress-1-million-heavy-duty-diesel-engines-are-good-
for-the-environment-and-economy
---------------------------------------------------------------------------
2. Significant Transformation to Near Zero Emissions in the Diesel 
        Platform
    Over the last decade-and-a-half, diesel technology has undergone a 
significant transformation to near-zero emissions. Cleaner fuel along 
with modern engine designs and aftertreatment technologies yield near-
zero levels of fine particles and oxide of nitrogen. 43 percent of the 
diesel commercial vehicle fleet come with these near-zero emissions 
technologies and generate significant emission reduction benefits to 
the communities where they operate. A single near-zero emissions Class 
8 truck, for example, generates 2.3 tons less oxides of nitrogen than 
an older generation truck. U.S. Environmental Protection Agency finds 
that a new Class 8 diesel truck and an all-electric truck can reduce 
about the same amount of fine particle emissions as most emissions are 
generated by brake and tire wear and not from tailpipe emissions.\3\
---------------------------------------------------------------------------
    \3\ https://www.epa.gov/ports-initiative/national-port-strategy-
assessment-reducing-air-pollution-and-greenhouse-gases-us
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
    Source: U.S. EPA Office of Transportation and Air Quality (OTAQ)

3. Clean Commercial Vehicles Reduce Greenhouse Gas Emissions
    Transportation sources of greenhouse gas emissions are now the 
leading source of emissions in the U.S. While passenger cars contribute 
the most to transportation emissions, commercial vehicles rank as the 
second leading contributor while rail and marine vessels represent 4 
percent collectively.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Within the large population of commercial vehicles, the larger 
Class 7 and 8 trucks are responsible for the majority of emissions. 
Efforts to encourage the replacement of older Class 7 and 8 vehicles 
with new cleaner technologies will do the most to reduce commercial 
vehicle greenhouse gas emissions.
4. Continued Improvements in Diesel Technology Provides Greenhouse Gas 
        Reductions
    One of the benefits of the diesel platform is its impressive track 
record for continual improvement. While the current generation of 
diesel commercial vehicles deliver near-zero emissions, truck and 
engine manufacturers are hard at work developing much more fuel 
efficient diesel trucks that will deliver significant fuel savings. 
Fuel economy rules are now required of the large variety of commercial 
vehicles from larger pickups to the largest Class 8 trucks. More 
efficient diesel trucks are expected to save 130 billion gallons of 
fuel and reduce 1.3 billion tons of greenhouse gas emissions between 
2010 and 2030, according to research commissioned by the Diesel 
Technology Forum. These are significant benefits that are equivalent to 
removing all cars on U.S. roads for a year or eliminating the emissions 
generated from electricity used by 22 million homes.\4\
---------------------------------------------------------------------------
    \4\ https://www.dieselforum.org/policy/climate-change-and-diesel-
technology
---------------------------------------------------------------------------
5. Reducing Transportation Emissions Requires a Variety of Clean 
        Technologies Including Diesel
    As emerging technologies will be the focus of much attention to 
reduce heavy-duty transportation emissions, significant and near-term 
benefits can be realized by replacing older trucks with newer diesel 
options to help contribute to achieve climate goals.
    While zero-emission technologies are available today in some 
commercial vehicle and bus types, and others are on the drawing board, 
diesel technology is expected to continue to dominate the larger 
commercial vehicle fleet through 2030, particularly Class 8 trucks that 
are responsible for most of the greenhouse gas emissions from the 
entire commercial vehicle sector. As these emerging zero-emissions 
technologies will make in-roads into the fleet, so too will more 
efficient diesel commercial vehicles and their benefits are substantial 
as noted above. IHS Markit estimates that 75% of commercial vehicle 
truck sales will include a diesel engine by 2030.\5\ Meanwhile, the 
work truck industry and the National American Council for Freight 
Efficiency estimate that all-electric technologies may not prove out 
for larger commercial vehicles until at least the 2030 time frame.\6\ 
This outlook is shared by the Truck and Engine Manufacturers. As these 
technologies become available in the future, a recent analysis 
conducted by the National Academies of Science concludes that the 
relatively longer turn-over of older vehicles in favor of new trucks 
results in a further timeframe for these technologies to enter the 
fleet in any sizeable number to generate benefits.\7\
---------------------------------------------------------------------------
    \5\ https://ihsmarkit.com/products/reinventing-the-truck.html
    \6\ https://nacfe.org/future-technology/electric-trucks/
    \7\ https://www.nap.edu/catalog/25542/reducing-fuel-consumption-
and-greenhouse-gas-emissions-of-medium-and-heavy-duty-vehicles-phase-
two
---------------------------------------------------------------------------
6. More Efficient Off-Road Technologies
    Replacing older engines that power marine vessels and locomotives 
may provide greenhouse gas emission reductions. Unlike commercial 
vehicles, off-road equipment including rail and marine that is 
responsible for about 4 percent of transportation greenhouse gas 
emissions, are not subject to fuel economy standards. Engines that 
power these applications must meet stringent emissions standards for 
criteria pollutants including fine particles and oxides of nitrogen. 
New technology diesel engines developed to meet the most recent 
standard required by the U.S. Environmental Protection Agency reduce 
these emission by upwards of 90 percent. While fuel economy is not 
required, replacing these much older and longer lived engines with new 
more modern designs frequently results in fuel economy benefits that 
translate directly to greenhouse gas emission reduction.
    For example, one rail operator in the New York City region replaced 
an old switch locomotive manufactured before emission controls were 
required with the new diesel technology and saved 26,000 gallons of 
fuel per year.\8\ Similarly, a tug boat operator in the Puget Sound 
region replaced an old uncontrolled propulsion engines with new diesel 
models to realize 1,000 tons of greenhouse gas emissions.\9\ These are 
benefits generated by a single project and are equivalent to converting 
thousands of automobiles to zero-emissions technologies.
---------------------------------------------------------------------------
    \8\ https://www.epa.gov/ports-initiative/new-york-city-locomotive-
repowers-collaborative-efforts-improve-air-
quality?fbclid=IwAR2wUx2848cmG_PDQcrY9IlclL_Q2pTcgXvpfDcO-Q_J5V1y0-
FNPYpzU5U#outcomes
    \9\ https://www.epa.gov/sites/production/files/2019-05/documents/
diesel-tech-forum-large-engine-research-2019-mcdi-mtg-12pp.pdf
---------------------------------------------------------------------------
7. Significant Benefits From Advanced Biofuels
    Significant additional and immediate term greenhouse gas reduction 
benefits can be realized through the use of advanced biofuels including 
biodiesel and renewable diesel fuel. These two fuels are considered 
advanced biofuels capable of reducing greenhouse gas emissions by at 
least fifty percent and in the case of renewable diesel fuel, 
greenhouse gas emissions can be eliminated by more than 80 percent.
    Unlike other alternatives, the use of biodiesel and renewable 
diesel fuel can be used in existing diesel engines and does not require 
the purchase of a new engine, vehicle or equipment. The use of these 
fuels also does not require additional and expensive investments in 
refueling or recharging infrastructure.
    These fuels have provided the most greenhouse gas reductions in the 
transportation sector in California, according to the California Air 
Resources Board.\10\ As a result of California's requirement to reduce 
the carbon content of transportation fuels sold in the state, biodiesel 
and renewable diesel fuel have eliminated the most greenhouse gas 
emissions even exceeding the benefits generated by all-electric cars 
and trucks by almost 4:1.
---------------------------------------------------------------------------
    \10\ https://ww3.arb.ca.gov/fuels/lcfs/dashboard/dashboard.htm
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Interest in these fuels is growing outside of California. The City 
of New York, with its fleet of 13,000 heavy-duty vehicles and equipment 
announced it efforts to replace 17 million gallons of diesel fuel with 
renewable diesel fuel that is expected to be the leading contributor to 
the City's greenhouse gas reduction strategy.\11\ The Port Authority of 
New York-New Jersey announced its partnership with Neste, the global 
leader in the supply of renewable diesel fuel, to use this advanced 
biofuel in the Port's fleet of heavy-duty vehicles and equipment.\12\
---------------------------------------------------------------------------
    \11\ https://www1.nyc.gov/assets/dcas/downloads/pdf/fleet/Press-
Release-DCAS-to-Expand-Use-of-Renewable-Diesel-in-City-Fleet-
Vehicles.pdf
    \12\ https://bioenergyinternational.com/biofuels-oils/neste-and-
the-port-authority-of-new-york-new-jersey-collaborate-to-facilitate-
the-use-of-sustainable-transportation-fuels
---------------------------------------------------------------------------
                               conclusion
    Diesel technology is the prime technology that moves freight in the 
U.S. Much of this technology and fuel is produced in the U.S. helping 
to provides jobs to communities across the country. Thanks to continued 
investment by the leaders in diesel technology, the latest near-zero 
emissions innovations are ready and able to move freight while reducing 
emissions. The leaders in diesel technologies are hard at work 
developing the next generation of solutions to drive emissions closer 
to zero.
    Please feel free to contact me with any questions or concerns.
        Sincerely yours,
                                        Allen R. Schaeffer,
                                                Executive Director.

                                 <F-dash>
Letter of December 16, 2019, from David French, Senior Vice President, 
  Government Relations, National Retail Federation, Submitted for the 
                  Record by Hon. Eleanor Holmes Norton
                                                 December 16, 2019.
Hon. Eleanor Holmes Norton,
Chairman,
U.S. House of Representatives, Committee on Transportation and 
        Infrastructure, Subcommittee on Highways and Transit, 
        Washington, DC.
Hon. Rodney Davis,
Ranking Member,
U.S. House of Representatives, Committee on Transportation and 
        Infrastructure, Subcommittee on Highways and Transit, 
        Washington, DC.

    Dear Chairman Holmes Norton and Ranking Member Davis:
    I am writing on behalf of the National Retail Federation to provide 
our views for the record of your December 5, 2019 hearing entitled 
``Where's My Stuff? Examining the Economic, Environmental, and Societal 
Impacts of Freight Transportation.''
    The members of the National Retail Federation are among the 
country's largest shippers, moving hundreds of billions of dollars in 
merchandise through their supply chains, using America's transportation 
infrastructure--its seaports, airports, rail lines, and highways. The 
condition of the U.S. freight transportation system is vital to 
American competitiveness, and especially the retail industry, which 
must be able to deliver goods to the consumer at brick-and-mortar 
stores, or through direct to consumer options. The freight 
transportation system is of critical importance to the entire U.S. 
economy.
    The National Retail Federation, the world's largest retail trade 
association, passionately advocates for the people, brands, policies 
and ideas that help retail thrive. From its headquarters in Washington, 
D.C., NRF empowers the industry that powers the economy. Retail is the 
nation's largest private-sector employer, contributing $2.6 trillion to 
annual GDP and supporting one in four U.S. jobs--42 million working 
Americans. For over a century, NRF has been a voice for every retailer 
and every retail job, educating, inspiring and communicating the 
powerful impact retail has on local communities and global economies.
    The U.S. freight infrastructure--particularly those segments such 
as the nation's highways that rely on public-sector funding--has 
suffered from decades of underinvestment, leading retailers to fear 
that future growth in global commerce will be stalled because of a lack 
of infrastructure to support it. Your subcommittee's focus on these 
issues is welcomed, and we provide these views on freight issues that 
we see as priorities that need to be addressed when Congress takes up 
surface transportation reauthorization in the next year.
   Sustainable Federal Funding for the Highway Component of Freight 
                             Infrastructure
    Much of the nation's freight infrastructure is privately financed. 
Marine Terminals and U.S. port authorities self-finance water-side 
infrastructure. Similarly, freight rail pays for on-dock and near dock 
facilities and invests billions of dollars to maintain and expand its 
national network. Significant portions of the air freight system are 
also privately financed. However, the nation's highways, which are the 
main intermodal connections between seaports, airports, railheads, 
farms, factories, distribution centers, stores, and consumers are 
publicly financed.
    The federal portion of highway funds is supported through fuel 
taxes, which are a proxy for user-fees. Unfortunately, there has been 
no significant increase in the federal gasoline tax in decades. In 
addition, fuel efficient automobiles have decreased revenues over time.
    In the upcoming reauthorization of the Fixing America's Surface 
Transportation (FAST) Act, we urge Congress to:
  Recommit to public funding for the nation's highways and intermodal 
                               connectors
    <bullet>  Find a long-term, sustainable source of revenue for the 
federal Highway Trust Fund that preserves the concept that the users of 
the system--trucks, automobiles, and busses--should pay for it.
    <bullet>  Limit Highway Trust Fund spending to those projects that 
will improve performance on the nation's key transportation corridors. 
The Federal Highway Administration has developed performance metrics, 
and we strongly believe they should be used as a basis for directing 
federal highway dollars.
    <bullet>  Establish a special freight account within the Highway 
Trust Fund that should be devoted exclusively to projects identified as 
part of the National Strategic Freight Plan. In particular, federal 
dollars should be reserved for key freight infrastructure including:
      <bullet>  ``Last mile projects,'' which are the highways that 
connect seaports and railheads to the interstate system.
      <bullet>  The highway portion of grade crossings that will 
separate motor vehicles from trains. Grade crossings are a good example 
of public private partnerships, because freight rail will pay a portion 
of the cost.
      <bullet>  Projects identified by the Department of Transportation 
as being of national or regional significance. Freight projects are 
very often multi-state or regional in nature, requiring a federal 
presence.
       Fully Fund Freight-related programs in the Department of 
                            Transportation.
    <bullet>  Fund Research Identified in the National Freight 
Strategic Plan: As part of the Moving Ahead for Progress in the 21st 
Century (MAP-21) Act, Congress directed the Department of 
Transportation to develop a National Freight Strategic Plan (The 
Strategic Plan), a draft of which was published for comment in early 
2016. The Strategic Plan identifies many areas in need of research, 
among them, better information about truck moves and truck safety. 
Congress and the administration should fully fund this research.
    <bullet>  Fund the research needs recommended as part of the Bureau 
of Transportation's Port Performance Freight Statistics Program's first 
report to Congress. Congress established the Port Performance Freight 
Statistics Program in the Fixing America's Surface Transportation 
(FAST) Act. The program was enacted in response to the 2015 West Coast 
port disruptions that significantly harmed the nation's exporters. The 
first report under the program outlined research needs. Congress has 
provided no funding for this program, which is the first to attempt to 
measure the productivity and performance of the nation's international 
gateways, which are so important to global commerce.
    <bullet>  Reauthorize the National Freight Advisory Committee 
(NFAC). Created as part of MAP 21, The National Freight Advisory 
Committee (NFAC) was created to promote a safe, economically efficient, 
and environmentally sustainable freight transportation system. The 
committee is a resource within the Department of Transportation for 
collecting the views of the freight community. The Committee should be 
reauthorized to continue their work on freight policy. In our opinion, 
the failure to consult freight users is a continuing problem that needs 
to be addressed. Congress should require the federal government to seek 
out and include the users of the freight transportation system as part 
of its policy-making process.
         Create an Office of Multimodal Freight Transportation
    Moving freight across the nation requires the use of many modes of 
transportation. The products that line the shelves at NRF-member stores 
came by truck, but they also may have come by rail, air, and water 
modes. Unfortunately, the U.S. Department of Transportation is 
organized by transportation mode, making it difficult to coordinate 
responses on important multimodal freight projects and issues. For this 
reason, we call on the administration and Congress to create an Office 
of Multimodal Freight Transportation within the U.S. Department of 
Transportation.
Create a Shippers Advisory Committee at the Federal Maritime Commission
    In recent years, the Federal Maritime Commission (FMC) has gone out 
of its way to foster dialog between shippers and cargo interests and 
ocean carriers and marine terminals. While FMC issues are not under the 
Subcommittee's jurisdiction, we want to call attention to the work the 
FMC has been doing in reaching out to cargo interests to make important 
gains in port efficiency and congestion reduction. The Commission has 
recently suggested the creation of a permanent shippers advisory 
committee composed equally of importers and exporters, to help foster 
greater collaborative efforts that can improve business practices and 
reduce congestion. We urge Congress to facilitate this proposal and 
call your attention to it because it underscores the importance and 
efficacy of seeking out the views of cargo interests.
                 Pursue Common Sense Truck Regulations
    The nation's retailers support safe and efficient trucking, but we 
also believe that many of the regulations affecting commercial motor 
vehicles (CMVs) are not based on sound research with respect to the 
correlation between regulations and safety. For this reason, we call on 
the administration and Congress to undertake an overhaul of regulations 
affecting CMVs. Congress and the administration should:
    <bullet>  Establish uniform truck Size limits that allows longer 
trailers. At present, there is a patchwork of state and federal 
regulations affecting truck sizes that are inconsistent with a 
nationwide freight system. In the recent past, Congress has asked the 
Federal Highway Administration to undertake research that would 
determine the correlation between truck sizes and weights and truck 
safety, but such studies have been inconclusive because the government 
has no data with respect to truck accidents. As noted above, funding 
research on freight is a high priority, but in the absence of hard 
data, it's hard to justify truck and weight limits that vary by state. 
In addition, moving toward larger trailers or the use of twin-trailers 
nationwide will reduce the carbon footprint of the trucking industry.
    <bullet>  Establish a commercial driver apprenticeship program. The 
retail industry relies on a stable system of distribution for our 
supply chains. America's long-haul trucking industry provides the vital 
distribution networks that serve retail and so many other sectors of 
our economy. Even if a larger portion of freight moves via rail, there 
will continue to be a need for trucks and drivers. Right now, the 
industry is facing a critical shortage of talent. For this reason, we 
believe that proposals, such as the ``Developing Responsible 
Individuals for a Vibrant Economy (DRIVE-Safe) Act'' (H.R. 1374), 
represent a sensible approach to this issue.
    <bullet>  Modernize the national twin trailer standard from 28 feet 
to 33 feet. This modest increase in trailer length will improve truck 
safety, efficiency and sustainability. Modernizing the trucking 
equipment would lead reduced congestion with no cost to the taxpayer, 
increased safety, maximized efficiency and increased environmental 
gains.
    <bullet>  Support performance-based goals for achieving lower-
emission trucks, rail, and dock equipment. NRF members support efforts 
to reduce carbon emissions. Many of its members participate in the 
SmartWay program and have made operational changes that have reduced 
truck emissions. We strongly believe that the best approach toward 
achieving lower carbon emissions, is to avoid prescriptive regulations, 
and focus on performance standards that would provide maximum 
flexibility to innovate and allow for collaborative efforts between 
technology providers, surface transportation providers, and cargo 
interests. Over the last few decades, NRF members have played a 
leadership role in public-private partnerships to reduce truck 
emissions in the ports of Los Angeles and Long Beach. We continue to 
believe that these efforts are valuable and sensible.

    We thank you for the opportunity to provide these post-hearing 
comments. We look forward to working with Subcommittee members on these 
important issues. If you have any questions, please contact Jonathan 
Gold, NRF's Vice President for Supply Chain and Customs Policy.
        Sincerely,
                                              David French,
                       Senior Vice President, Government Relations.

                                 
  Article entitled ``The Significance of Li-ion Batteries in Electric 
  Vehicle Life-cycle Energy and Emissions and Recycling's Role in its 
  Reduction,'' Submitted for the Record by Hon. Eleanor Holmes Norton
Energy Environ. Sci., 2015, 8, 158
J. B. Dunn, L. Gaines, J.C. Kelly, C. James and K.G. Gallagher

    The article is retained in committee files and is available online 
at https://pubs.rsc.org/en/content/articlehtml/2015/ee/c4ee03029j

                                 <F-dash>
 Statement of Stephen Gardner, Senior Executive Vice President, Chief 
     Operating and Commercial Officer, National Railroad Passenger 
 Corporation (Amtrak), Submitted for the Record by Hon. Daniel Lipinski
                              Introduction
    Chairwoman Holmes Norton, Chairman Lipinski, Ranking Members Davis 
and Crawford, and all the members of both Subcommittees, thank you for 
this opportunity to submit written testimony on behalf of the millions 
of Americans who depend on Amtrak intercity passenger rail service to 
move them across this nation.
    As you may recall, prior to Amtrak's creation in 1970, railroads 
provided both freight and passenger services. Then, because these 
railroads were losing money on their passenger trains, Congress bailed 
out the private railroads and created Amtrak to relieve them of their 
obligation to operate intercity passenger trains. In return, the 
freights agreed:
    <bullet>  To give Amtrak access to their lines in order to operate 
passenger trains; and
    <bullet>  To give Amtrak passenger trains preference over freight 
trains.

    Unfortunately, as a result of some freight companies' practice of 
ignoring federal law, coupled with Amtrak's inability to enforce its 
statutory right for passenger trains to have priority over freight 
trains, your constituents are routinely and unlawfully delayed by 
freight trains. In addition, many freight railroads make it exceedingly 
difficult for Amtrak to add new service to meet the growing and 
shifting demand by many of your constituents for more trains.
    This is an existential challenge to Amtrak as we own only 3% of the 
21,200 route-miles that our 32.5 million riders traveled over in 2019. 
Most of the remaining 97% are owned by freight railroads. Therefore, 
Americans are largely beholden to the freights for reliable, trip time 
competitive service on the national network.
    How does this impact society? Consider that in FY 2019, 6.5 million 
Amtrak passengers, many of whom are your constituents, were 
significantly late on trains largely delayed by host railroads.
    Across the Amtrak long-distance network, customer on-time 
performance (OTP) in FY2019--the percentage of passengers who arrived 
at their destination on time--was only 42%. On one-third of our 15 
long-distance routes, more than seven out of every ten passengers 
arrived significantly late. Customer OTP on some of our state-supported 
corridor routes was just as bad: 34% on the Chicago-to-Detroit/Pontiac 
Wolverine route and just 26% on the Chicago-to-Carbondale Illini/Saluki 
route.
    The principal reason for this dismal on-time performance is freight 
train interference by host freight railroads. Freight train 
interference is caused by dispatching decisions to prioritize the 
operation of freight trains over passenger trains, either putting 
Amtrak trains behind slow-moving freight trains for miles or relegating 
the passenger train to wait in sidings for freight train to pass. These 
delays amounted to more than one million minutes in FY 2019--equivalent 
to two years of passengers waiting for freight.
    Yet, the increase in freight train interference delays is occurring 
at a time when rail freight traffic is declining: more than 10% since 
2006 and 4% in the last year alone. Interestingly, most of the major 
freight railroads have recently adopted new operating practices, called 
Precision Scheduled Railroading, that they claim have made their 
operations more reliable. Freight railroads claim that they provide 
preference to Amtrak, but our customers can attest that this is often 
far from the case. Just ask the 240,000 passengers aboard the Texas 
Eagle, or the 211,000 passengers on the Crescent, who were all an 
average of two hours late to their destination.
    Moreover, substantial public funds that have been invested in 
freight railroad infrastructure to improve passenger rail performance 
have not yielded returns for passengers or state funding partners. For 
example, after nearly $500 million was invested in the freight railroad 
line used by the State of North Carolina-supported Piedmont service, 
host railroad delays increased for the year following completion of the 
project, until delays were twice the level they were prior to the 
investment; host railroad delays have finally fallen, but there is 
still much room for improvement. On the route into Chicago used by 
three train services supported by the State of Michigan, as well as our 
Capitol Limited and Lake Shore Limited long-distance trains, $200 
million of public funds were invested into the Englewood Flyover and 
Indiana Gateway projects. Today, however, passengers traveling on this 
line encounter severe--and eminently avoidable--host railroad delays on 
a daily basis. Taxpayers and passengers deserve a better return on 
investment.
Some freight railroads follow the law and provide preference . . . And 
                            some ignore it.
    There is absolutely no reason why this nation cannot have both a 
world class freight rail network and modern intercity passenger rail 
service. Amtrak wants both freight and passenger rail to succeed, and 
it appears that individual freight railroads agree with us to widely 
varying degrees depending on the railroad and sometimes on the 
individuals making decisions.
    When freight leadership has decided to dispatch Amtrak trains 
according to the law, we have seen Amtrak's on time performance improve 
literally overnight. During these times, there was no evidence of 
negative impacts to the overall fluidity of America's rail network. In 
fact, it has been reported by some freight railroad leadership that 
efficient Amtrak service can be a proxy indicator that their own 
operations are running most efficiently.
    The bottom line is that some railroads follow the law and provide 
preference to Amtrak trains and other freight railroads simply ignore 
the law and choose to delay your constituents. The attached Host 
Railroad Report Card illustrates this point well.
    Congress can help prevent freight railroads from delaying your 
                             constituents.
    Currently, only the U.S. Department of Justice can bring a legal 
action to enforce Amtrak's preference rights, and it has done so only 
once, nearly four decades ago. Meanwhile, continued deterioration in 
on-time performance is driving away passengers and increasing operating 
losses and federal subsidies. The biggest threat to the future of this 
nation's rail network is our growing inability to offer reliable 
service on many routes.
    Congress should also provide Amtrak with the right to bring legal 
action against a freight railroad when such freight violates federal 
law to provide Amtrak passenger trains with preference.
    Legislation was recently introduced in the Senate and Amtrak urges 
the House of Representatives to do the same.
 Some freight railroads are also making it difficult to add passenger 
                                service.
    When Amtrak and its state partners approach host railroads to 
negotiate the operation of additional trains, some freight railroads 
demand unreasonable capital investments to accommodate the Amtrak 
trains. Amtrak and its partners are willing to invest in the host 
railroad, consistent with the law, if we do, in fact, impair the 
freight railroad. However, what we have experienced is that Amtrak and 
its partners will identify the capital projects needed for the 
additional service and some freights will simply create an excessive 
list of capital projects needed, a list that appears to be aimed at 
preventing Amtrak's access to the railroad. The two parties then spend 
years trying to negotiate to little avail, while it is your 
constituents who suffer from a lack of meaningful transportation 
options.
    Congress should provide a fair and expeditious manner for 
determining the cost of adding new and additional trains to host 
freight railroads.
         Intercity passenger rail can do more for this nation.
    As you know, Amtrak's statutory mission given to us by Congress is 
to provide ``high quality service that is trip-time competitive with 
other intercity travel options.'' (49 USC 24101(b)). The need for such 
has never been greater, especially in short-distance corridors between 
major cities that are too far to drive and too short to fly. All the 
trends suggest that demand for such service will only continue to grow. 
This provides a great opportunity and a way for the United States to 
accommodate increased intercity travel demand in a sustainable manner 
without exacerbating congestion in other modes.
    As we have stated for the record in previous hearings, there are 
several key factors that we are considering as we plan for how Amtrak 
can better serve your constituents, including: the U.S. population is 
growing and becoming more densely populated in urban corridors; highway 
congestion is spreading and getting worse; air travel in short-distance 
markets is declining; and sustainability is a growing concern for 
travelers.
    On most of the National Network, we have not even begun to realize 
the potential--and address the increasingly urgent need--for reliable, 
frequent, high-quality service that can attract passengers for whom 
rail could be a preferable alternative to driving or flying. Amtrak's 
growing ridership, strong financial results, and our proven success in 
certain short corridors where we have strong partnerships, demonstrate 
the potential of intercity passenger rail. We know what works well and 
we want to create more convenience and value for your constituents and 
this nation. Doing so will require enhanced tools and increased 
partnership regarding our relationship with host freight railroads and 
support from Congress.
                               Conclusion
    Freight and passenger rail service can co-exist and provide far 
better service to all customers, both people and products. To do so, we 
believe there must be a stronger federal role in ensuring that the law 
is followed and not abused. This will help improve the overall fluidity 
of the rail network, provide much improved and needed passenger trains 
to underserved communities, and support this nation's economy from 
coast to coast.
    On behalf of Amtrak, we thank you for your consideration of our 
remarks. We remain optimistic that Congress will find a way to create a 
modern and expanded intercity passenger rail system that thrives in 
partnership with a booming freight network--Amtrak is ready to do its 
part.



                                Appendix

                              ----------                              


Question from Hon. Daniel Lipinski to Erin Aleman, Executive Director, 
 Chicago Metropolitan Agency for Planning, and Board Member, Coalition 
               for America's Gateways and Trade Corridors

    Question 1. The Fixing America's Surface Transportation Act or 
``FAST Act'' established and authorized $6.3 billion in formula freight 
funding through the National Highway Freight Program and $4.5 billion 
in discretionary grant funding through the Nationally Significant 
Freight and Highway Projects or ``INFRA'' grant program.
    As a former state transportation official and current head of a 
metropolitan planning organization, could you speak to the need for and 
benefits of providing national freight funding through both a formula 
and separate discretionary funding program?
    Answer. Freight infrastructure projects vary a great deal in size 
and scope, rendering a ``one-size-fits-all'' approach suboptimal. Some 
freight projects--such as paving an intermodal connector--can be funded 
with relative ease using money provided by a freight formula. These 
projects are relatively smaller in scale and less complex. Freight 
formula dollars provide state departments of transportation a 
dependable and certain funding stream to address small and medium scale 
projects. To improve upon the existing freight formula program, I 
encourage Congress to eliminate the 10 percent cap on multimodal 
investment and increase the overall amount of funding provided.
    Competitive grant programs, such as INFRA, are critical to large-
scale freight infrastructure projects, which often span modes and 
jurisdictional borders and are difficult, if not impossible, to fund 
through traditional distribution methods such as formula programs. 
Competitive grant programs can incentivize these multijurisdictional 
projects while encouraging applicants to seek creative funding 
arrangements and bring forward the best possible arrangement for the 
Federal Government to consider. Further, competitive grants are 
available to a wide variety of applicants, including state departments 
of transportation, allowing the many types of organizations responsible 
for developing nationally significant freight infrastructure to access 
federal resources.
    While a state department of transportation may, out of necessity, 
place emphasis on intrastate commerce, a federally administered 
approach places focus on interstate commerce. According to a 2019 study 
by the Congressional Research Service, ``discretionary grants may be 
more effective in providing large amounts of federal funding for very 
costly freight-related projects, particularly those requiring 
interstate cooperation.'' \1\ It should be noted that 77 percent of 
freight crosses state lines.\2\
---------------------------------------------------------------------------
    \1\ Congressional Research Service, Freight Issues in Surface 
Transportation Reauthorization, January 2019. <https://
crsreports.congress.gov/product/pdf/R/R45462>
    \2\ Tomer, Adie and Joseph Kane, Brookings and JP Morgan Chase 
Global Cities Initiative, Mapping Freight: The Highly Concentrated 
Nature of Goods Trade in the United States, November 2014. <https://
www.brookings.edu/wp-content/uploads/2016/06/Srvy_GCIFreight
Networks_Oct24.pdf>
---------------------------------------------------------------------------
    For competitive grants to be effective, they must be developed and 
administered correctly. To improve upon the INFRA competitive grant 
awards, I recommend that Congress:
    <bullet>  Remove the cap on multimodal investment and increase the 
amount of funding to $12 billion annually, which aligns with needs 
revealed through previous INFRA funding rounds.
    <bullet>  Confine awards to freight projects only.
    <bullet>  Mandate that USDOT's award selection process is 
transparent and based upon merit-based criteria that identify and 
prioritize projects with a demonstrable contribution to national 
freight efficiency. As Congress included in the FAST Act INFRA program 
(23 USC 117), goals should include increasing national and regional 
economic competitiveness, improving connectivity between freight modes, 
reducing congestion and bottlenecks, and improving the safety, 
efficiency, and reliability of the movement of freight and people.

 Questions from Hon. Eddie Bernice Johnson to Chuck Baker, President, 
         American Short Line and Regional Railroad Association

    Question 1. The Association of American Railroads filed comments 
with the USDOT last year urging the agency to extend a pro-innovation 
regulatory approach to the freight railroads. Much of the comments were 
related to the use of automated and autonomous technology in the 
freight rail industry. Such technologies could have major implications 
for workers who perform various crafts in this industry.
    How do the railroads envision using autonomous technologies?
    Question 2. How will this impact the jobs of those who work for the 
railroads?
    Answer (1. & 2.). Short line railroads today operate safely and 
efficiently as we connect thousands of small customers in small towns 
and rural communities to the national freight rail network. However, we 
are always looking for every opportunity to be even safer and more 
efficient, so that we can move more freight more safely by rail, which 
is good for the economy, helps the environment, reduces congestion, 
lowers the need for highway infrastructure investment, and improves 
overall safety.
    Short lines are not yet major users of autonomous technologies, but 
over the years we have made great strides in using other advanced 
technologies (e.g., ultrasonic rail inspection, big data for locomotive 
maintenance, advanced methods of treating wood ties, etc.) and will 
continue to look for ways to improve.
    Technology can frequently help us do what we need to do to run a 
railroad safer. For instance, using drones when possible for bridge 
inspection improves both safety for workers and creates the ability to 
inspect bridges more frequently. Better track inspection (higher 
quality with less risk of worker injuries) can be done with autonomous 
and continuous test vehicles. In general, human factor incidents are a 
leading cause of injuries and fatalities in our industry. The future 
use of autonomous technologies will assist in the reduction of human 
factor incidents, improving safety for both employees and the public.
    On the grade-crossing front, autonomous motor vehicles have the 
potential to substantially improve grade crossing safety by reducing 
human error by motor vehicle drivers.
    The goal of technology is to get better and more efficient--if 
technology advances impact existing jobs, short lines as always will 
work with their employees and customers to adjust. We will employ as 
many people as needed to do the job of railroading safely, efficiently, 
and reliably so that we can continue to provide critical transportation 
services to our customers throughout the country. Overall, our goal is 
to grow, not shrink!

Questions from Hon. Peter A. DeFazio to Anne Goodchild, Ph.D., Founding 
Director, Supply Chain Transportation and Logistics Center, University 
                             of Washington

    Question 1. Dr. Goodchild, your testimony discusses the potential 
of delivery services to reduce emissions by consolidating many packages 
into one vehicle. Mr. Mathers' testimony points out that we are using 
only 43 percent of the capacity of our freight truck fleets.
    What policies or regulations will help encourage better capacity 
utilization to reduce carbon emissions?
    Answer. While estimates of truck utilization vary, and observed 
values vary by time, place, and truck type, it is true that observed 
truck utilization is lower than desired. There are three main reasons 
for this; first, that product flows are one-directional, second, that 
truck sizes are limited and fixes, while product flows are uncertain 
and varying, and third, that quick, on-time delivery expectations are 
increasing.

Most product flows are one-directional:
    Most trucks are either dropping off or picking up. This means that 
even a truck that starts its day full, is empty at the end of its 
route, and has a utilization rate of 50%. This is overwhelmingly the 
case for retail delivery.

Trucks are purchased to provide flexibility to fleet owners:
    This often means they ``buy-up'' when making purchasing decisions. 
A larger truck can handle small loads, and big loads, but this is not 
true smaller vehicles. If you have a large load, it is much more cost 
effective to send it in a single large-truck, rather than 2 smaller 
ones.

Delivery expectations are increasing:
    As customers, as we demand shorter times between purchase and 
delivery, vehicle loads decreased. Previously, if a delivery company 
offers 2 day delivery, and sends out 5 full trucks every 10 days, when 
they move to same day, they will need to send one half-full truck each 
day. So there are very significant reasons trucks are not fully 
utilized; even though trucking companies have a very strong profit 
incentive to fill them.
    In order to alter these decisions in favor of fuller trucks, we 
need to make transportation more expensive, so that it plays a stronger 
role in the short and long-term decisions of carriers, as well as 
consumers of their services. This could be accomplished through 
increasing the cost of emissions, fuel taxes, per-mile charges, tolls, 
or congestion pricing, to name a few.

    Question 2. Is greater consolidation of deliveries realistic in the 
age of hyper fast delivery speeds?
    Answer. No, I don't see greater consolidation aligning with faster 
delivery speeds. Of course we will still see economics favoring 
consolidation farther upstream in the supply chain, but the last mile 
becomes less consolidated with hyper fast delivery.

  Questions from Hon. Steve Cohen to Anne Goodchild, Ph.D., Founding 
Director, Supply Chain Transportation and Logistics Center, University 
                             of Washington

    Question 3. Dr. Goodchild, in your testimony, you mention that the 
freight system also includes city streets, local highways, sidewalks, 
bike lanes and people's front door steps. As the volume of freight 
increases, I have concerns about how last mile deliveries will 
contribute to increased congestion and traffic fatalities.
    In your opinion, what can Congress do to support infrastructure 
investments that consider the entire freight system?
    Answer. Adopt a gateway or network perspective. Typically 
infrastructure investments are made on a project basis; expansion of an 
individual port, or highway interchange. In reality, goods move through 
a system, passing through a port, onto a highway, for example. 
Individual projects can have close to zero benefit, if the next links 
in the chain are more constrained. To address this, Congress should 
consider developing connected corridors, where investments are not 
planned at the project level, but at the corridor level, allowing goods 
flows to really benefit.

    Question 4. In your testimony, you also mention that cities lack 
freight planning capacity.
    How can we best support cities to plan for the future of freight 
delivery?
    Answer. Cities are unprepared for the future of delivery because 
there has been little investment in capturing data about goods movement 
at urban scales, and they have not historically included freight 
planning in the organizational objectives. They therefore need 
assistance in both of these areas.
    The federal government can play a key role in 1) requiring, 
funding, and setting standards for data collection, 2) supporting 
cities as they develop this capability. This could be initiated 
through:
    <bullet>  a federal grant program for cities and researchers 
interested in collecting data and building knowledge
    <bullet>  federal support for peer exchange programs where leading 
cities and researchers can share their knowledge and practices with 
each other

Questions from Hon. Peter A. DeFazio to Ian J. Jefferies, President and 
       Chief Executive Officer, Association of American Railroads

    Question 1. Your written testimony stated that President Trump's 
ongoing trade war had created uncertainty for many commodity-related 
industries and manufacturers, impacting demand for rail service and 
highlighting that total U.S. rail carload and intermodal units were 
down 4.4 percent compared to last year. Additionally, U.S. originated 
carload and intermodal originations were down 8.1 percent compared to 
that same time the previous year. Since the hearing, the House passed 
the U.S.-Mexico-Canada Agreement (USMCA), and the Senate is expected to 
consider the measure shortly.
    Assuming the Agreement takes effect, what are the industry's 
projections for rail volumes over the next year?
    Answer. Railroads commend Congress for passing the USMCA and are 
hopeful that this agreement--along with the resolution of other trade 
disputes--will lead to reduced economic uncertainty, higher levels of 
business investment, a boost in U.S. exports, and a stronger U.S. 
economy.
    Railroads also hope that the USMCA will lead to higher levels of 
rail traffic. At least 42 percent of the carloads and intermodal units 
that U.S. railroads carry, and more than 35 percent of rail revenue, 
are directly associated with international trade. Many of those 
international movements are cross-border shipments as well. While the 
USMCA can only serve to help railroads and the wider U.S. economy, U.S. 
rail volumes in 2020 will also depend on a wide range of additional 
factors. Changes in U.S. energy markets that have been underway for 
years will continue to impact rail volumes. Large amounts of rail 
traffic are tied to the U.S. manufacturing sector, the near-term future 
of which is cloudy right now. The grain market continues to face 
challenges in global markets and at home. Intermodal volumes in 2019 
were the second highest ever, but growth in that market will depend 
largely on what happens to consumer spending and in the greater trade 
arena. Railroads are hopeful that the parts of the economy that 
generate the most rail freight--e.g., manufacturing, agriculture, 
consumption of goods, trade in goods, and resource extraction--will 
grow in 2020, and, consequently, demand for rail service in many 
commodity sectors will rise as well.

    Question 2. An article published in the Washington Post on January 
3, 2020 entitled, ``Railroads are slashing workers, cheered on by Wall 
Street to stay profitable amid Trump's trade war'' suggested that the 
Class I railroads implementing precision scheduled railroading (PSR) 
are turning away some business that isn't profitable enough, 
eliminating or downsizing some routes.
    How has the size of the Class I rail network in the U.S. changed 
during the years of 2017-2019?
    Answer. Data for 2019 for U.S. Class I rail mileage is not yet 
available, but there has been very little change in total Class I rail 
mileage over the past decade (see chart). Moreover, miles that Class I 
railroads no longer operate are typically operated by non-Class I 
railroads, as opposed to simply abandoned.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               Source: Association of American Railroads

    Of course, the U.S. and global economies are constantly evolving. 
Firms, even entire industries, can and do shift rapidly and 
unexpectedly, and railroads must be able to adapt with those changes. 
These broad, often unanticipated economic shifts are reflected in 
changes not only in rail volumes but also in the types and locations of 
the commodities railroads are asked to transport, as well as in the 
amounts and uses of railroad assets. To successfully adapt to these 
challenges, railroads must be flexible and innovative while improving 
the efficiency and productivity needed to maintain their long-term 
financial health.

    Question 3. We know that demand for freight transportation is 
rising at a disproportionate rate to freight system capacity on the 
highways. Yet, you highlight in your testimony that rail traffic is 
down 4.4 percent over the same period last year.
    What is the railroad industry doing to capture some of that demand?
    Answer. The freight transportation market in the U.S. today is 
intensely competitive. When shippers move freight on railroads, they do 
so because the value railroads offer, in terms of cost and service, is 
superior to the alternatives. Railroads know that they must continue to 
work hard to earn this business, which is why they are constantly 
searching for ways to further increase productivity, reduce costs for 
their customers, and improve their service.
    For railroads, these actions take many forms, including:
    <bullet>  Retaining a focus on safety. Recent years have been the 
safest in rail history, but railroads know the safety challenge never 
ends. That's why railroads, in cooperation with policymakers, 
employees, suppliers, and customers, are constantly looking for new 
technologies, operational enhancements, improved training, and other 
ways to better their safety record.
    <bullet>  Recognizing that capacity is key. Thanks to massive 
investments back into their networks in recent years, freight railroad 
infrastructure today is in the best overall condition ever. Railroads 
are working to ensure that the current high quality of rail 
infrastructure is maintained and that adequate freight rail capacity 
exists in order to meet our nation's current and future freight 
transportation needs.
    <bullet>  Focusing on customer service. Railroads know their 
customers face intensely competitive global markets and are 
increasingly demanding faster and more reliable, cost-effective 
service. In response, railroads are continually launching new customer 
service initiatives and alliances with fellow railroads, rail 
suppliers, trucking companies, and others to improve their service 
offerings.
    <bullet>  Advocating for appropriate public policies. For example, 
railroads have emphasized that the existing balanced regulatory 
structure covering rail rates and service be maintained; that outdated 
regulations that unnecessarily hinder rail innovation and progress be 
replaced in ways that continue to protect the public but do so without 
``locking in'' existing technologies and processes; that modal 
inequities related to infrastructure financing be ameliorated; and that 
more public-private partnerships, in which public and private entities 
each devote resources to projects in proportion to the benefits that 
will accrue to them, be encouraged.

    Question 4. Since 2016, there have been more than 4,340 collisions 
at highway-railroad at-grade crossings, resulting in more than 1,680 
injuries and at least 530 deaths.
    If more funds were made available for the Section 130 program, what 
projects--other than grade separation projects--should states 
undertake?
    Question 5. What types of infrastructure or technologies should be 
pursued that are not eligible under the current program?
    Question 6. Are the freight railroads willing to bring more funding 
to the table to support grade crossing closures or grade separation 
projects?
    Answer (4.-6.). Reducing accidents and fatalities at highway-rail 
grade crossings is of paramount importance given that most collisions 
are preventable. Engineering solutions (such as closing unneeded 
crossings and upgrading warning devices), education, and enforcement 
are key. Thanks in part to the Section 130 program, grade crossing 
collisions are down 37 percent from 2000 to 2018; however, much work 
remains. Railroads believe the following steps would enhance safety at 
grade crossings:
    <bullet>  The Section 130 program, which provides funds to 
eliminate hazards at highway-rail grade crossings, should continue to 
receive dedicated, formula funding out of the Highway Safety 
Improvement Program.
    <bullet>  Funding for the Section 130 program should be maintained 
at current levels ($245 million in fiscal year 2020) or increased.
    <bullet>  The Section 130 program's incentive payments for grade 
crossing closures should be increased from the current cap of $7,500 to 
$100,000.
    <bullet>  Flexibility in the use of Section 130 funding should be 
expanded by eliminating the arbitrary 50% cap on spending for hazard 
elimination projects and by enabling replacement of certain protective 
warning devices.
    <bullet>  Costs incurred by public or private entities for 
preliminary engineering for grade crossing projects should be counted 
toward the non-federal share.
    <bullet>  States should be permitted or incentivized to bundle 
grade crossing projects into single grant applications under applicable 
discretionary grant programs, such as BUILD, INFRA or CRISI.
    <bullet>  Accelerated deployment of navigational warnings for grade 
crossings for motorists (e.g., smartphone apps) should be required or 
incentivized.
    <bullet>  Future fleets of automated vehicles should be required to 
provide grade crossing warnings and/or prevention of incursions into 
grade crossings where gates or other devices have been activated.
    <bullet>  The incorporation of grade crossing safety training into 
driver education curricula should be incentivized through NHTSA.
    <bullet>  Operation Lifesaver should be authorized at a minimum of 
$3 million per year through FHWA, FRA, and FTA.

    Decisions on what types of traffic warning devices to put at 
particular grade crossings are made by state highway authorities, not 
by railroads. Trains often require a mile or more to stop and cannot 
deviate from their course. That's why safety at grade crossings by its 
nature is primarily motorists' responsibility; the warning devices are 
present to protect motorists, not trains. Railroads generally approach 
grade crossing projects on a case-by-case basis and are always willing 
to discuss the individual circumstances of a particular crossing, 
including funding needs, with appropriate public officials.

    Questions from Hon. Eddie Bernice Johnson to Ian J. Jefferies, 
    President and Chief Executive Officer, Association of American 
                               Railroads

    Question 7. The Association of American Railroads filed comments 
with the USDOT last year urging the agency to extend a pro-innovation 
regulatory approach to the freight railroads. Much of the comments were 
related to the use of automated and autonomous technology in the 
freight rail industry. Such technologies could have major implications 
for workers who perform various crafts in this industry.
    How do the railroads envision using autonomous technologies?
    Answer. America's freight railroads are safer today than ever 
before. A significant contribution to the industry's strong safety 
record are the annual investments to modernize and improve the freight 
rail network. Indeed, this improvement in safety has been accomplished 
with record levels of private spending on capital improvements and 
maintenance over the last five years--more than $25 billion annually on 
average. These investments have included meeting the Congressional 
mandate that positive train control systems (PTC) be fully operable by 
the end of 2020, and, as of January 2020, PTC is now in operation on 
98.5% of Class I PTC route-miles network wide. In addition to these 
investments, freight railroads have also undertaken a holistic approach 
to rail safety that includes numerous other elements, such as 
infrastructure and equipment; training and operational improvement; 
technology; and community outreach and preparedness.
    As a result, 2018 FRA safety data continues to show that recent 
years have been the safest on record for the rail sector. Based on FRA 
data per million train miles, since 2009, the train accident rate is 
down 10%, the equipment-caused accident rate is down 11%, the track-
caused accident rate is down 26%, the derailment rate is down 9%, and 
the employee injury rate is down 16%. Additionally, in 2018, more than 
99.999% of rail hazardous materials shipments reached their destination 
without a release caused by an accident, and, between 2000 and 2018, 
the grade crossing collision rate fell 37%.
    However, railroads will always strive to be even safer. That's why 
they are constantly researching, developing, and implementing new 
safety-enhancing technologies and working cooperatively with employees, 
suppliers, customers, and policymakers to find new ways to improve 
their safety record.
    Autonomous technologies are expected to play a critical role in 
rail safety improvement efforts. Autonomous motor vehicles have the 
potential to substantially improve grade crossing safety by reducing or 
eliminating human error by motor vehicle drivers, but automation 
promises to significantly enhance other areas of rail safety beyond 
grade crossings. Automated technologies can detect a wider range of 
defects, respond faster, and provide a larger window for action than a 
safety system that is subject to the limitations inherent in human 
eyes, minds, and hands. Automated track inspections can reduce track 
defects, leading to fewer accidents. Likewise, automated inspection of 
locomotives and freight cars has been shown to reduce the occurrence of 
broken wheels and other mechanical problems.

    Question 8. How will this impact the jobs of those who work for the 
railroads?
    Answer. Like firms in every industry, railroads must manage their 
resources, including their most important resources--their employees--
based on business needs. The number of rail employees tends to ebb and 
flow based on current and expected future rail traffic levels, 
technological developments, and other factors. Railroads are hopeful 
that freight transportation demand will continue to grow, and they will 
ensure that their equipment, infrastructure, and employees will be 
sufficient to meet those transportation needs.
    Over the years, railroads have adopted a long line of new 
technologies to improve the safety, efficiency, and reliability of 
their operations. Just as the industry transitioned from steam to 
diesel locomotives or from cabooses to end of train devices, 
technological innovation often brings with it the need to evolve 
operating procedures and models. Railroads must have the incentives and 
flexibility to invest and develop new technologies that improve safety, 
increase efficiencies, and allow the rail industry to remain 
competitive and help their customers thrive.
    The implementation of positive train control and other technologies 
could potentially allow for a reduction in the number of crewmembers in 
the locomotive cab without jeopardizing safety. Railroads aren't 
seeking the ability to impose one-person crews haphazardly or 
unilaterally, however. The subject of crew size has typically been 
addressed as part of the collective bargaining process with rail labor. 
As a result, railroads will continue to work with rail labor to come to 
an agreement and find solutions as they have for decades.

Question from Hon. Peter A. DeFazio to Jason Mathers, Director, Vehicle 
            and Freight Strategy, Environmental Defense Fund

    Question 1. Mr. Mathers, your testimony discussed policies that 
Congress should adopt to increase the demand for zero-emission heavy-
duty vehicles and develop the necessary charging infrastructure to 
support it.
    Without significant Federal investment and strategic planning in 
deploying charging infrastructure, do you think there is any chance of 
achieving a nationwide network of charging stations to support an 
electric heavy vehicle fleet?
    Answer. Transforming our transportation sector, which is a climate 
change and public health imperative, presents a daunting challenge. It 
is also an urgent one.
    Although some states are motivated and are taking their own steps 
to promote electric vehicles, the sheer scale of the needed 
transformation, and the relatively short time we have to make 
meaningful cuts in greenhouse gas emissions, mean that the federal 
government must play a leadership role in planning and implementing the 
build-out of nationwide networks of charging stations.
    There is considerable good news. For example, the technology for 
transforming the heavy-duty fleet, including the growing availability 
of suitable vehicles, is rapidly evolving. And while additional 
investment is needed to achieve electric propulsion for the long-
distance fleets, there is a lot of cost-effective, low-hanging fruit, 
such as in electric drayage trucks and in regional delivery and 
municipal fleets.
    So, while innovation in truck electrification will continue, and 
costs will continue to decline across all truck classes, true 
transformation of the sector--especially if the goal is rapid 
progress--absolutely will depend on federal leadership. That means, as 
I said in my testimony, favorable tax and regulatory policies. It also 
includes incentives for owners of both private and publicly owned 
fleets to switch to electric trucks and buses. And it means federal 
support for state and interstate charging infrastructure planning and 
installation.
    The result will be a more efficient, more sustainable 
transportation sector with far fewer impacts on public health and 
climate.

                                    
</pre></body></html>
